<html>
<title> - SUV SAFETY: ISSUES RELATING TO THE SAFETY AND DESIGN OF SPORT UTILITY VEHICLES</title>
<body><pre>[Senate Hearing 108-901]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-901

 SUV SAFETY: ISSUES RELATING TO THE SAFETY AND DESIGN OF SPORT UTILITY 
                                VEHICLES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
96-510 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2003................................     1
Statement of Senator Allen.......................................    13
Statement of Senator Boxer.......................................     2
Statement of Senator Lautenberg..................................    16
    Prepared statement...........................................    18
    Prepared statement of Sandy Turner, submitted by Senator 
      Lautenberg.................................................    19
Statement of Senator McCain......................................     1
Statement of Senator Snowe.......................................    20
    Prepared statement...........................................    22

                               Witnesses

Claybrook, Joan B., President, Public Citizen....................    26
    Prepared statement...........................................    29
    Article, dated February 18, 2003, from the Los Angeles Times.    85
Cischke, Susan M., Vice President of Environmental and Safety 
  Engineering, Ford Motor Company................................    71
    Prepared statement...........................................    73
Lange, Robert C., Executive Director, Vehicle Structure and 
  Safety Integration, General Motors Corporation.................    66
    Prepared statement...........................................    68
O'Neill, Brian, President, Insurance Institute for Highway Safety    58
    Prepared statement...........................................    61
Pittle, R. David, Senior Vice-President, Technical Policy, 
  Consumers Union................................................    51
    Prepared statement...........................................    53
Runge, Jeffrey W., M.D., Administrator, National Highway Traffic 
  Safety Administration..........................................     3
    Prepared statement...........................................     5
Tinto, Christopher, Director of Technical and Regulatory Affairs, 
  Toyota Motor North America.....................................    78
    Prepared statement...........................................    79

                                Appendix

Association of International Automobile Manufacturers (AIAM), 
  prepared statement.............................................    99
Cantwell, Hon. Maria, U.S. Senator from Washington, prepared 
  statement......................................................    98
Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    97
Kerry, Hon. John F., U.S. Senator from Massachusetts, prepared 
  statement......................................................    97

 
 SUV SAFETY: ISSUES RELATING TO THE SAFETY AND DESIGN OF SPORT UTILITY 
                                VEHICLES

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The purpose of today's hearing 
is to gain a better understanding of the various safety issues 
associated with sports utility vehicles, or SUVs, and other 
light trucks. In the interest of full disclosure, my family and 
I are owners and operators of SUVs, as many Americans with 
large families are as well.
    As we all know, SUVs are extremely popular among consumers, 
yet they have received significant criticism for being more 
dangerous than other vehicles on the road. Statistically, SUVs 
have a higher rate of vehicle rollover than passenger vehicles.
    Recent comments by Dr. Jeffrey Runge, the administrator for 
the National Highway Traffic Administration, gained attention 
when he expressed concerns about SUV safety and serious 
reservations about his family members driving some of them. His 
views in his capacity as NHTSA administrator, coupled with the 
data provided by his agency, merit a comprehensive review by 
this Committee.
    Let me be clear. This hearing is not intended to vilify 
auto manufacturers or the SUVs that they produce, nor is this 
hearing meant to blindly defend the SUV as a vehicle that is 
more or less as safe as passenger cars. Rather, the purpose of 
this hearing is to examine the incidents of death, injury, and 
rollover when SUVs are involved in vehicle crashes.
    I am a strong believer in the free market and consider 
consumer choice to be a fundamental component of a healthy 
economy and society. Consumer choice should be based on sound 
information, much of which, in this case, is provided by those 
who will testify today.
    The Committee will be very interested to learn about the 
efforts underway to develop safer vehicles as well as to help 
educate the public and share existing information needed to 
make informed choices. We also will be interested to learn 
whether any safety issues that may exist concerning SUVs can be 
resolved voluntarily by automobile manufacturers or whether 
uniform Federal safety standards are necessary.
    Finally, it is important to recognize that over the years 
the automotive industry has made strides in improving vehicle 
safety. I hope to hear from our witnesses regarding what 
technologies currently exist that could further mitigate the 
safety risks that may be associated with SUVs.
    I thank the witnesses for appearing and look forward to 
their testimony today.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman, for holding this 
hearing.
    I first would like to apologize in advance. I have two 
hearings going on in other committees--I am going to stay as 
long as I can--one in Foreign Relations and one in the 
Environment. But I do want to thank Dr. Runge for his efforts 
to make SUVs safer for the American public. And I want to thank 
the Chairman for calling this hearing.
    Everyone knows there are SUVs everywhere, and you cannot 
drive down the street without having one in front of you, 
behind you, to the side of you. And a recent New York Times 
story about SUVs, it was dateline Greenbrae, California. That 
is where I live. And it is--every other car is an SUV. And I 
will tell you, large families and small families have chosen 
SUVs. That is their choice. And the way I look at it is that we 
do not have a choice, in terms of looking at the safety of 
these vehicles. We need to do that. At least I feel we need to 
do that, and I am glad we are going to do that today.
    Beginning in 1999, the sale of SUVs and light trucks 
exceeded the sale of regular passenger cars. That trend 
continues today. There are now 76 million SUVs and light trucks 
on the road, or about 35 percent of all registered vehicles in 
the United States. It is clear that Americans love their SUVs. 
I am hopeful that next year, we will start seeing hybrid SUVs 
so the issue of fuel economy, hopefully we are going to make 
real progress on that and people can have an SUV that will get 
good mileage.
    Because SUVs are larger and higher off the ground than 
regular passenger cars, drivers certainly think that they are 
safer. Now, I understand today we are going to hear from some 
automobile people who say that now they are getting safer. I 
think that is good, because actually, before, they never said 
they were not as safe, but they now say they are safer. So I 
guess that is progress. And what we are beginning to realize 
is, the combination of greater weight and height make the SUV 
top-heavy and more susceptible to rollovers.
    I want to show you a chart on rollovers here, Mr. Chairman. 
This is the passenger car record on fatalities from rollovers, 
and we see a decrease here of 15 percent between 1991 and 2001. 
On SUVs, we see 150 percent increase in the sport-utility-
vehicle rollover deaths. And the other problem we have is that 
when an SUV does roll over, oftentimes the roof caves in on the 
passengers, and obviously the results are devastating.
    And so what I hope we can do is hear from the witnesses 
today and see whether there is a need to set a standard for 
safety with SUVs. And I would like to suggest that after 
meeting with some--and I admit that I met with the people who 
care about the safety of automobiles--they are suggesting, and 
I tend to agree with them, that we should consider having a 
standard for rollovers and a standard for compatibility, 
because what happens is when an SUV hits another car, we are 
hearing now that there are fatalities in that other car because 
of the way the two vehicles match up when they hit one against 
another.
    So there is one other chart, just quickly, and then I am 
done, that I wanted to show you. And this is that SUVs are more 
likely to roll over in a crash, 2.5 times. And I think these 
issues need to be looked at.
    And I would also like to place into the record a record 
that we have that under administrations, Democratic and 
Republican alike, these standards have just been not addressed 
in either case, the roof crush, the rollover problem. So I 
would like to place that in the record. * It just shows, Mr. 
Chairman, years and years of administrations of both parties 
just kind of ducking the standards question. And I hope we can 
take another look at it.
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    And I thank you very much for your leadership on this.
    The Chairman. Thank you, Senator Boxer.
    Welcome, Dr. Runge. It is good to see you again. Please 
proceed.

 STATEMENT OF JEFFREY W. RUNGE, M.D., ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Dr. Runge. Thank you, Mr. Chairman and Senator Boxer. Thank 
you for giving me the opportunity to testify about the safety 
of sport utility vehicles. This issue is a high priority for 
the National Highway Traffic Safety Administration. We 
appreciate your attention to it.
    In the year 2001, more than 42,000 Americans were killed on 
our highways, and more than 3 million people were injured. 
About 31,000 of those killed were riding in cars and trucks. 
Although these numbers have many causes, I would like to talk 
about two issues today that center on the vehicle rollover and 
vehicle compatibility.
    Here is what has led to these problems. The vehicle fleet, 
as you have mentioned, is much different than it used to be. 
Light trucks, including SUVs, pickup trucks, and minivans, have 
replaced large passenger cars and station wagons on our 
Nation's highways. Higher, heavier vehicles have replaced many 
that had lower centers of gravity, and their various shapes 
interact differently.
    First, a few facts about rollovers, some of which Senator 
Boxer mentioned. SUVs are involved in fatal rollover crashes 
nearly three times the rate of passenger cars. In 2001, of the 
31,000 people who died in cars and trucks, over 10,000 were 
killed in rollovers. So, overall, rollovers constitute about 3 
percent of crashes, overall, but over 30 percent of fatalities 
in occupants.
    The other issue is vehicle compatibility. The widening 
mismatch of vehicle size and weight on our Nation's highways is 
reflected in fatality statistics. In fatal crashes involving 
light trucks with passenger cars, over 80 percent of the 
fatalities are in the passenger cars.
    Although we are focusing on the vehicle today, our agency 
looks at safety comprehensively. Driver characteristics and 
driver behavior are very important factors in every crash, so 
we must examine issues related to the driver as well as the 
vehicle. For instance, we could save most of the lives we lose 
in rollovers if people would simply buckle their safety belts 
every time on every trip. You can reduce your risk of death by 
80 percent in light truck rollovers, and yet three of four 
people who died in rollover crashes were not wearing safety 
belts.
    The agency is attacking this rollover problem on many 
fronts. For instance, our New Car Assessment Program, or NCAP, 
provides information that helps consumers purchase the safest 
cars. NCAP includes a rollover rating, which correlates very 
closely with the real-world rollover crash history of the 
vehicles rated. Under this system, a one-star vehicle is at 
least 40 percent more likely to roll over in a single vehicle 
crash than a five-star vehicle. This information is available 
by brochure as well as on our Web site at nhtsa.gov.
    We know that market forces work, Mr. Chairman, as you have 
suggested. But in order for market forces to work, consumers 
must be given information to make those informed choices. Our 
NCAP program gives people the information they need, and, 
thereby, gives manufacturers a market incentive to improve the 
stability of their vehicles. NHTSA is also working on several 
regulatory initiatives to help reduce rollover deaths and 
injuries.
    Now I would like to speak briefly on compatibility for a 
minute. With the increase in light trucks on our highways, the 
danger of the size and weight disparity is increasing. Let me 
give you some examples. People in passenger cars are at far 
higher risk when struck by a light truck from the front or the 
side. In frontal impact, there are eight fatalities in the 
passenger car for every fatality in a full-size van or pickup, 
and there are 4.5 fatalities in the car for every fatality in 
the SUV.
    In side impact, the problem is worse, as you can see from 
this graphic on my right. These numbers have been updated from 
the numbers in my written testimony and are based on data from 
1995 to 2001. When a pickup truck strikes the side of a 
passenger car, there are 39 fatalities among passenger-car 
drivers for every driver fatality in the pickup truck. When an 
SUV strikes the side of a passenger car, there are 22 
fatalities in the passenger car for every driver fatality in 
the SUV. So you can see why this is a top priority for our 
agency.
    We have a broad range of research activities currently 
underway on vehicle compatibility in order to attack this 
problem. We also appreciate very much the contribution of the 
industry to find science-based solutions to this very, very 
complex issue.
    Mr. Chairman, the relationship of the corporate average 
fuel economy standard to safety is also of concern to us. We 
know that, to a significant degree, the CAFE program and our 
rules defining light trucks may have contributed to this 
rollover and compatibility problem. So later this spring, we 
will publish an advance notice of proposed rulemaking to 
solicit comments about the standards beyond model year 2007. We 
will be asking how we might restructure the CAFE program under 
our current statutory authority to solve these safety problems. 
Our goal is to enhance safety and achieve significant 
improvements in fuel economy while protecting American jobs.
    Mr. Chairman, this concludes my oral testimony. My written 
testimony is submitted for the record, and I will be happy to 
answer any questions.
    [The prepared Statement of Dr. Runge follows:]

 Prepared Statement of Jeffrey W. Runge, M.D., Administrator, National 
                 Highway Traffic Safety Administration
    Mr. Chairman, Members of the Committee, thank you for asking me to 
appear before you to testify about the safety of sport utility vehicles 
(SUVs). I had the pleasure of testifying before the Committee last year 
about our agency's priorities and I appreciate the opportunity to 
describe how SUV safety fits into these priorities. I look forward to 
working with you as we seek to make our roads safer for all highway 
users.
    I want to begin by giving you some data to set the safety context. 
In 2001, our data show that 42,116 people lost their lives in highway 
crashes and more than three million people were injured. The number of 
fatal injuries has been at about this level for the past several years. 
In view of the steady increase in travel, this means that the fatality 
rate is stable or declining slightly. The number of injuries was almost 
five percent lower than in the prior year--a significant decline. There 
is reason for hope in these numbers, and a sign that safety measures 
are having an effect. Highway travel on a vehicle mile basis is far 
safer than it was 20 years ago.
    What's new about these statistics is that they reflect the 
experience of a vehicle fleet that is very different from the fleet of 
20 years ago. A more complex fleet, including vehicles such as minivans 
and SUVs that scarcely existed before, has replaced the fleet that was 
once dominated by passenger cars. There are now over 79 million light 
trucks on the road--including pickups, minivans, and SUVs--representing 
about 36 percent of registered passenger vehicles in the United States. 
With light trucks now accounting for nearly 50 percent of new vehicle 
sales, their share of the total fleet is growing steadily.
    While the overall fleet is safer, the new fleet composition 
presents new safety issues. Two issues stand out. Rollover is one 
issue. Pickups and SUVs are involved in a higher percentage of 
rollovers than passenger cars--the rate of fatal rollovers for pickups 
is twice that for passenger cars and the rate for SUVs is almost three 
times the passenger car rate. Overall, rollover affects about three 
percent of passenger vehicles involved in crashes but accounts for 32 
percent of passenger vehicle occupant fatalities. Single vehicle 
rollover crashes accounted for 8,400 fatalities in 2001. Rollover 
crashes involving more than one vehicle accounted for another 1,700 
fatalities, bringing the total fatality count to more than 10,000.
    Compatibility is the other issue. While light trucks represent 36 
percent of all registered vehicles, they are already involved in about 
half of all fatal two-vehicle crashes with passenger cars. In these 
crashes, over 80 percent of the resulting fatalities are to occupants 
of the passenger cars. This problem will continue to grow as the 
percentage of light trucks in the fleet increases. SUVs account for 
about 35 percent of light truck sales.
    These two issues are at the top of our vehicle safety agenda. I 
will address them in detail in a minute, but first I want to underline 
the importance of personal responsibility in highway safety.
    We take a comprehensive approach to safety, which means that we 
look at the driver as well as the vehicle. We know that safety belt 
usage directly affects injury severity and the chances of survival in 
rollover crashes.
    We can reduce the effects of the rollover problem overnight if all 
occupants will simply buckle their safety belts. The belts are there in 
every vehicle. They are 80 percent effective in preventing deaths in 
rollovers involving light trucks, and 74 percent effective in rollovers 
involving passenger cars. Yet 72 percent of the occupants of these 
vehicles who die in rollover crashes are not wearing safety belts. Of 
the fatally injured occupants, almost 60 percent are ejected from the 
vehicle, a percentage reflecting the violent and lethal nature of the 
rollover event.
    We are intensifying our efforts to increase the level of safety 
belt use, through national safety belt mobilizations and by supporting 
the enactment of primary safety belt laws. Primary laws are more 
readily enforceable than secondary laws and lead to higher usage rates. 
Data show that the usage rate of safety belts in States with primary 
belt laws is 11 percentage points higher than the rate in other States. 
In 2002, the belt use rate reached 80 percent in primary belt law 
States for the first time. We will not solve the problem of low belt 
use unless the States adopt laws that can be readily enforced.
    The other issue of driver responsibility is driving while impaired 
by alcohol or drugs. Impaired driving remains a constant problem on the 
highways. Alcohol is involved in 41 percent of the nation's highway 
fatalities overall, and in a like percentage of fatal rollover crashes.
    We believe the issues of the vehicle and the driver are 
inextricably linked. Many of the deaths and injuries that could be 
prevented through vehicle performance standards can also be prevented 
through measures to improve driver performance.
    Our approach to SUV safety reflects this comprehensive view. We 
have made the issues I've mentioned--rollover, compatibility, seat belt 
use, and impaired driving--the focus of special teams, known as 
Integrated Project Teams, that bring together expertise from all parts 
of the agency. I asked the teams to look at the best data available on 
these issues and to identify action items that the agency should 
pursue. We will be incorporating the results of the teams' work into a 
coordinated strategy to address each problem, which we will publish in 
the Federal Register in the near future. Although my remarks today will 
focus mainly on the vehicle issues, I urge you to keep all four issues 
in mind as you consider the question of SUV safety.
Rollover
    First, I want to address the issue of rollover. Under our consumer 
information authority, we carry out a program known as the New Car 
Assessment Program (NCAP). Through NCAP, we provide comprehensive 
information to aid consumers in their vehicle purchase decisions. The 
vehicle manufacturers have shown that they will voluntarily modify the 
design of their vehicles to improve their NCAP ratings. We welcome 
their efforts. Data shows that vehicles are becoming safer as a result.
    We have used our consumer information authority to add a rollover 
resistance rating to NCAP beginning in model year 2001 that is based on 
estimates of the risk that a vehicle will roll over if it is involved 
in a single-vehicle crash. The rating is based on a vehicle's ``static 
stability factor'' or ``SSF,'' which is a measure of a vehicle's track 
width (the distance between two wheels on the same axle) in proportion 
to the height of its center of gravity. Our analysis of real-world 
crashes shows that the ratings correlate very closely with the real-
world rollover experience of vehicles. The lowest-rated vehicles (1-
star) are at least 40 percent more likely to roll over than the 
highest-rated vehicles (5-stars).
    A committee of the National Academy of Sciences recently studied 
our rating system for rollovers. While concluding that the static 
stability factor is an excellent predictor of single-vehicle rollover 
crashes, the committee stated that a dynamic rollover test might 
improve the rating system. The Transportation Recall Enhancement, 
Accountability, and Documentation (TREAD) Act directed us to develop 
such a test. We published a notice of proposed rulemaking under the 
TREAD Act last fall to prescribe a dynamic rollover test, received 
comments, and completed our own testing using the procedures in the 
proposal. We will publish a final rule in the near future. The dynamic 
rollover test will show how new vehicles actually perform in emergency 
steering maneuvers. Together, the static stability factor and the 
dynamic test will give manufacturers an incentive not only to improve 
the static stability of their vehicles but also to improve suspension 
systems and add stability control technology.
    Informing consumers about voluntary improvements to rollover safety 
will help ensure that manufacturers who make such improvements are 
rewarded in the marketplace. The NCAP information will help consumers 
identify the vehicles that are more resistant to rollovers.
    Market forces exert a powerful influence on vehicle choice, but 
consumers must be informed of the relative risks among vehicles in 
order to make appropriate market choices. Manufacturers will respond by 
providing vehicles that people want to buy. In areas in which consumer 
information enables consumers to discriminate among vehicles based on 
their safety, we will see the fleet change much faster than through the 
traditional regulatory approach. We have been trying our best all 
through this administration to find ways to ensure that consumers are 
informed about the differences among vehicles and the importance of 
becoming educated before making a vehicle purchase.
    While market forces are relatively fast and efficient, the agency 
recognizes that certain changes can best be effected through the 
rulemaking process. NHTSA is accordingly working on four rulemaking 
initiatives to help reduce deaths and injuries when a rollover crash 
occurs. One is a proposed upgrade of door lock requirements. The 
proposed upgrade will be published this year. Second, we are completing 
our evaluation of the current roof crush standard and expect to propose 
an upgrade of that standard early in 2004. Third, the agency intends to 
pursue rulemaking to consider possible ways to prevent ejection out of 
windows during a rollover. Finally, we have asked vehicle manufacturers 
about their plans to voluntarily install more effective seat belt 
reminders. In addition, we are awaiting the report this summer by the 
National Academy of Sciences evaluating technologies to increase seat 
belt use.
    In the meantime, since it takes time to establish credible, 
scientific performance standards, we are encouraging the manufacturers 
to take voluntary steps to make vehicles more resistant to rollovers 
and to incorporate technologies that will make vehicles more protective 
when rollovers occur. Last month I suggested to the industry that they 
work toward a consensus on rollover sensing technologies for these 
systems, and encouraged them to examine the use of technology to 
increase safety belt use, also an essential part of anti-ejection 
efforts.
    Our rollover team is working on innovative ways of preventing 
rollovers and mitigating injuries associated with these crashes. The 
team is examining safety belts, roof-rail air bags, roof crush, tire 
safety, and other vehicle issues, as well as possible NCAP information 
on roof crush, tire safety, and vehicle handling. Next month we will be 
publishing information in the Federal Register that will reflect the 
work of this team.
    New technology or regulations can both have unintended 
consequences. We will therefore proceed expeditiously but deliberately. 
The physician's overriding ethic is ``first, do no harm.'' We want to 
avoid harmful effects such as might result if an increase in roof 
strength resulted in raising the center of gravity, which could 
increase the propensity of a vehicle to roll over. We will continue to 
approach this holistically rather than through simple discreet, 
isolated rulemakings.
Compatibility
    Now I'd like to turn to compatibility. In simple terms, 
compatibility is the degree to which vehicles are matched in vehicle-
to-vehicle crashes. In the fleet of 20 years ago, the primary 
incompatibility was one of weight, involving large cars and small cars. 
However, the arrival of SUVs and increased numbers of pickups has made 
other incompatibilities important as well--incompatibility in vehicle 
height and in the alignment of interacting vehicle structures, such as 
bumpers and chassis frame rails. There are also differences in the 
stiffness and design of their structures and in style of construction--
vehicles with frames versus those with unibody construction.
    These incompatibilities appear to be increasing. For example, in 
model year 1990 the average weight difference between light trucks and 
passenger cars was about 830 pounds. By model year 2001, the weight 
difference had increased to 1,130 pounds (based on EPA's Fuel Economy 
Trends Report). Similar changes are occurring in front-end heights and 
in stiffness. The average initial stiffness of pickups and SUVs is 
about twice that of passenger cars.
    Passenger cars experience the greatest risk in frontal and side 
impact. For every driver fatality in a full-size van striking a car 
from the front, there are six driver fatalities in the passenger car. 
For every driver fatality in a full-size pickup, there are 6.2 driver 
fatalities in the car.
    The problem is much worse for side crashes. The higher frame rails 
of a pickup truck or SUV may override the rails of a passenger car, 
resulting in greater intrusion. Likewise, the higher engine compartment 
poses a risk for passenger car occupants. When a pickup truck strikes 
the side of a passenger car, there are 26 fatalities among passenger 
car drivers for every driver fatality in the pickup. When a SUV strikes 
a passenger car, there are 16 driver fatalities in the passenger car 
for every driver fatality in the SUV.
    Overall, these differences make SUVs and all light trucks more 
aggressive than passenger cars in their interaction with other 
vehicles. Based on our analysis, weight incompatibility and impact 
location each have a large effect on vehicle aggressivity. However, 
size and structure are also important. When controlling for impact 
location, and comparing light trucks to passenger cars of comparable 
weight, we found that light trucks were more than twice as likely as a 
car to cause a fatality when striking a car.
    Some automobile manufacturers have voluntarily introduced changes 
to their SUVs that will lead to improved compatibility in crashes with 
automobiles. The primary focus of these changes has been to improve the 
geometric mismatch between the frontal structures of the SUVs with 
those of the automobiles so as to improve the structural interaction 
during a crash.
    NHTSA has a broad range of research activities currently underway 
on vehicle compatibility. Our immediate goal is to generate knowledge 
that government and industry alike can use. We are continuing to 
investigate real-world crashes, conducting crash testing, using 
computer modeling, and participating in international forums on vehicle 
compatibility. This information ultimately enables manufacturers to 
meet consumer's needs while producing vehicles that are less aggressive 
in a crash. This research also will provide the basis for future 
rulemakings.
    We have also stepped up research related to side crash protection 
and research to evaluate the potential of advanced inflatable safety 
systems for preventing ejections in rollovers and protecting occupants 
in side impact crashes.
    In August 2002, we published for public comment a 4-year vehicle 
safety rulemaking priority plan. Rollover and compatibility were 
identified in the draft plan along with many other safety issues. In 
addition to considering public comment submitted in response to the 
plan, we are currently examining the research support that will be 
needed to implement those rules.
    We also have an agency-wide Integrated Project Team (IPT) 
addressing this issue. The Compatibility Team currently is evaluating 
both aggressiveness and incompatibility in multi-vehicle crashes, both 
through real-world statistics and crash test data, to try to identify 
causation factors and solutions that can be incorporated into the 
vehicle fleet over time. This problem is being approached in two ways: 
by looking at measures to improve the safety features of the struck 
vehicle and measures to reduce the aggressiveness of the striking 
vehicle. The strategies they recommend will be published in the Federal 
Register this spring.
Fuel Economy
    Just as important to our work regarding the rollover propensity and 
compatibility of future vehicles is our ongoing work to address 
concerns about the relationship of corporate average fuel economy 
(CAFE) standards to safety. As you know, the President's National 
Energy Plan emphasized our strong determination to take safety into 
account when setting fuel economy standards.
    We take seriously the findings and recommendations of the 
congressionally mandated study by the National Academy of Sciences 
(NAS) concerning the effect CAFE has had on vehicle safety. The NAS 
report concluded that the current CAFE system has had an unintended 
negative effect on passenger safety. It has in the past encouraged the 
divergence between small and large vehicles in the vehicle fleet, which 
has led to increased passenger fatalities and injuries. The NAS found 
that CAFE standards contributed to both the sale and production of 
lighter and smaller cars to meet the standard and the displacement of 
large passenger cars by minivans and SUVs in the nation's vehicle 
fleet, with negative consequences for vehicle safety. We are completing 
a comprehensive evaluation of the effects of the changes in vehicle 
weight and safety that have occurred in the years since the CAFE 
standards went into effect.
    The President urged Congress to lift a six-year freeze on setting 
new CAFE standards, and we were pleased when it did so in December 
2001. Since then, our agency has been hard at work setting sound, 
science-based light truck fuel economy standards for model years 2005 
through 2007, which we will issue by April 1. Our proposed increases 
are the highest in 20 years and can be implemented without compromising 
safety or employment.
    This spring, NHTSA will also publish an Advance Notice of Proposed 
Rulemaking to ask for comments about fuel economy standards beyond 
model year 2007. Many new fuel-saving technologies are on the point of 
being introduced. We want to find ways to improve fuel economy 
significantly while protecting passenger safety and jobs.
    We know that, to a significant degree, the CAFE program and our 
past rules defining light trucks have contributed to the problems we 
now seek to solve. We will be asking how we might restructure the CAFE 
program under the current statutory authority to solve these safety 
problems. We are asking Congress to make safety and employment explicit 
statutory criteria for future CAFE rulemakings. And we will ask 
Congress for statutory authority to reform the CAFE system, perhaps 
along the lines recommended by the NAS, if we conclude that is the most 
appropriate way to improve fuel economy while protecting passenger 
safety and jobs. We expect that our evaluation of vehicle weight and 
safety will be considered in this rulemaking proceeding.
Conclusion
    We are committed to reducing the problems of rollover and 
incompatibility. But NHTSA cannot do this successfully by itself. The 
manufacturers are fully aware of our concerns, and many have committed 
to address these problems. We are gratified by the recent response to 
our call for action from the automotive industry. The Alliance of Auto 
Manufacturers convened a meeting this month of the world's experts in 
compatibility, which was led by the Insurance Institute for Highway 
Safety. I received a letter on February 13 from the Alliance and the 
Insurance Institute stating their commitment to working on the issue. 
This is imperative.
    We will be looking closely at the data from industry's forthcoming 
research as well as our own to make vehicles more compatible and to 
help individuals in the struck vehicles survive and avoid serious 
injury. The Alliance informed us last week that they intend to use the 
same approach to an industry-wide initiative to address rollover. This 
is good news for their customers and for all Americans who depend on 
them for safe, reliable, and comfortable transportation.
    Mr. Chairman, this concludes my overview of the safety of SUVs. The 
issues involved are challenging, but I believe that we are meeting the 
challenge and that our actions will improve safety on the nation's 
highways. I will be glad to answer any questions you may have.

    The Chairman. Thank you.
    In other words, from a side crash the fatality risk is 
roughly five times in the case of a full-size pickup, three 
times in the case of an SUV, as it is of a passenger car. Is 
that----
    Dr. Runge. You are reading that accurately, sir.
    The Chairman. And it is obvious because of the size of the 
vehicle, right? I mean, it----
    Dr. Runge. Yes, you will----
    The Chairman. How much more complicated is it than that?
    Dr. Runge.--you will hear some other technical testimony 
that I think you will look forward to that talks about that 
what has really caused this problem is not just size and 
weight, but also stiffness of the vehicle and geometry. So 
although mass is very, very difficult to change, larger 
vehicles are going to have more mass. What can be changed are 
the other two characteristics.
    The Chairman. You mention that--and maybe others will 
allege--that one of the reasons why there are high fatalities 
in SUVs is because of lack of use of seatbelts, right?
    Dr. Runge. That is correct.
    The Chairman. Well, is there any evidence, empirical 
evidence, that shows that people that ride in passenger cars 
have any more or less proclivity for using a seatbelt than 
someone who rides in an SUV?
    Dr. Runge. As a matter of fact, in 2002 SUV drivers caught 
passenger drivers for the first time, and they now wear their 
belts at exactly the same rate.
    The Chairman. You made a speech at the Automotive News 
World Congress, and you mentioned that--you said that SUVs are 
so dangerous you would not allow members of your family to 
drive some of them. Were your comments taken out of context?
    Dr. Runge. Indeed, even what you just said that I said is 
not exactly accurate, Senator. That was a response to a 
reporter's question following a central theme of trying to make 
the point that consumers need to make informed choices for 
their family. Some families have a need for utility and space. 
Others, like mine, have an inexperienced driver in the family. 
And also the rollover risk, therefore, plays into the equation. 
So consumers need to make choices that are appropriate to their 
certain situations. I hope that satisfied you.
    Let me just elaborate one more thing.
    The Chairman. Yeah.
    Dr. Runge. The answer was never about SUVs, generally. In 
fact, we believe that it is inappropriate to generalize for any 
vehicle class. The whole central theme of what I am trying to 
get across is, is that consumers need to be able to 
differentiate within vehicle classes. And certainly there are 
many SUVs that are safer than many passenger cars. So it is 
important that consumers get that information and weigh it.
    The Chairman. The Alliance of Automobile Manufacturers and 
the Insurance Institute for Highway Safety recently wrote to 
you announcing formation of a working group to take steps 
toward creating voluntary vehicle safety standards. One, what 
is the credibility of the automobile manufacturers when there 
is a clear record that they opposed seatbelts and airbags? And 
two, how can you be sure that there will be full participation 
on the part of all interested parties as if it would be if you 
were under a formal rulemaking process?
    Dr. Runge. Well, without wanting to dwell on history, 
because I was not around for all of that----
    The Chairman. No, but you judge people by their history. 
You have to judge their performance by their history. The 
automotive industry testified before this Committee on numerous 
occasions that we could not afford seatbelts and we could not 
afford airbags and we could not afford the ten-mile-an-hour 
bumper problem and it--you know, I mean, it is a clear 
history--nor can they increase CAFE standards. They were able 
to block Senator Kerry's and my effort for a modest increase in 
CAFE standards. So where is their credibility in establishing 
this voluntary vehicle safety standard?
    Dr. Runge. Well, let me just respond by saying, Mr. 
Chairman, that our goal is to get the necessary countermeasures 
into the fleet as soon as possible.
    The Chairman. As long as they are credible.
    Dr. Runge. That is correct. And we will be watching very 
closely. But, in fact, we, at NHTSA, do not design cars and 
trucks. We are dependent upon those who do to actually----
    The Chairman. But you do set----
    Dr. Runge.--help determine what is feasible.
    The Chairman.--standards. You do set standards.
    Dr. Runge. Yes, sir, we do. And unfortunately, it takes a 
long time for us to do the research to develop an irrefutable 
compliance test that is repeatable 100 percent of the time.
    In addition, we also set our standards--they are minimum 
safety standards. But we are hoping that the industry can move 
faster in parallel with us. We are also moving in parallel. We 
are doing our own research. We hope that it will converge at 
the end, but there is no guarantee, you are right about that.
    The Chairman. In your opinion, which is the greater safety 
concern within the light truck category, vehicle rollover or 
compatibility?
    Dr. Runge. Well, I think the statistics that we have seen 
speak for themselves, and I think that one is more amenable to 
a rapid change than the other, and that is rollover. A rollover 
is one third of our occupant fatalities on the highways, even 
though it is a very small percentage of crashes. We know what 
the fixes for that are. The industry, in fact, is already 
responding with different designs of vehicles, with the 
introduction of electronic stability control, anti-roll 
technology, and others. They are already finding their way into 
the fleet because consumers want that.
    The Chairman. Do you believe that CAFE standards can be 
increased without compromising vehicle safety?
    Dr. Runge. Senator, we have asked for authority to respond 
to the National Academy of Sciences report, which did validate 
our own data, with concerns about the relationship of CAFE to 
safety. We have to approach this very, very, very, very 
carefully. I think we all have the same overriding goals of 
less dependence on foreign oil, safety, and American jobs. We 
do not want to walk into a trap of unintended consequences. So 
we appreciate the work of the National Academy of Sciences. We 
are analyzing that.
    We do believe that there are ways to improve fuel economy 
and fuel efficiency without sacrificing safety and American 
jobs.
    The Chairman. You do believe there is.
    Dr. Runge. I do believe there is. Now, I am not sure if we 
can do it under the current system of regulations that we have 
from the statute, but we are going to be looking very closely 
whether we can make improvements under our current statutory 
authority with our regulations to solve some of the problems 
that we are in now.
    The Chairman. Senator Boxer?
    Senator Boxer. Thank you, Mr. Chairman.
    Doctor, you were an emergency room physician. Is that 
right?
    Dr. Runge. Yes, ma'am, for 20 years.
    Senator Boxer. I am assuming you have seen some of the 
injuries from car accidents.
    I just want to thank you for something. I am sure you took 
heat--I do not know if you did--for your statement, modest 
though it was. I mean, basically, you just told the truth.
    And let me just show it again. I mean, this is what is 
happening here, in terms of rollovers. And we know, as you 
point out, that although most crashes are not rollovers, a lot 
of the fatalities come from rollovers. So your saying that you 
are afraid for your family, I mean, I thank you for that. I 
really do. And I think that the truth-tellers save lives, and I 
just want to encourage you to continue being honest with the 
American people, because they deserve it.
    And as I said, most of my neighbors drive SUVs, and they 
will continue to do so. They love them. And we want to make 
them safer.
    I want to ask you something, because I was trying to 
understand some of the things that could be done. And there are 
groups out there that are helping me kind of get a grip on 
this, and I want to see if you think that what they are saying 
makes some sense. They are suggesting that NHTSA should issue 
requirements for basic rollover crash-worthiness protections. 
And right now, as I understand it, there are just warnings. We 
just tell people what the risks are, but we are not moving to 
change anything yet.
    And you are looking at this issue. Do you think it would 
make sense to require safety belts that tighten in rollover 
crashes? Because there is some indication that because of the 
size of the car, that these belts could come open. Do you a 
safety belt which tightens in a rollover crash, is that a 
recommendation that makes some sense?
    Dr. Runge. We are looking at all sorts of countermeasures 
similar to seatbelt pretensioners, which is what I think you 
are talking about, and it is all tied in with this ability of a 
vehicle to sense a rollover or an impending crash and actually 
reel the person into proper position before the crash. 
Absolutely, we think that has great promise.
    Once again, you are already seeing this in high-end 
vehicles that the manufacturers are making. And you know, as 
those technologies work their way into the marketplace and 
become cheaper, you will see them----
    Senator Boxer. Uh-huh.
    Dr. Runge.--more ubiquitously within the marketplace.
    Senator Boxer. Uh-huh.
    Dr. Runge. Let me just back up a second, Senator, and--we 
do look at rollover, in terms of both crash avoidance and 
crashworthiness, when they do occur. The charts about the 
rollover propensity and so forth are really about crash 
avoidance. And there are technologies that will help people 
avoid a crash, to stay on the pavement so that they do not trip 
and go off.
    Senator Boxer. Uh-huh.
    Dr. Runge. But crashworthiness is what you are talking 
about is also very important, and we are developing rulemaking 
and research on issues like improving door locks, roof 
strength, seatbelt--not just pretensioners, but design----
    Senator Boxer. You are looking at window glazing and----
    Dr. Runge. And window glazing.
    Senator Boxer.--as part of it? I am sorry to interrupt you. 
I am just--I have so little time and so many questions.
    What about the fact that the roof could be equipped with 
interior padding? Because that appears to be another factor 
contributing to fatalities. Are you going to take a look at 
that idea?
    Dr. Runge. Yes, Senator, we are actively engaged in the 
preliminary research now to upgrade our roof crush standard.
    Senator Boxer. Okay. I want to--when we talk about 
compatibility, Senator McCain made the point, ``Well, clearly, 
these cars are so much bigger than the passenger vehicles,'' 
but is it not also true there are other factors, in terms of 
compatibility? For example, the bumper, where the bumper is 
located on the SUV compared to where it is on a--just so that, 
in essence, the bumper does no good. You just--it does not 
cushion the blow. Is that something that we should look at for 
a future design?
    Dr. Runge. Generally speaking, we refer to that as 
``geometry.'' And it also has to do with where the--what we 
call the ``load path'' is. When a vehicle strikes another 
vehicle or strikes a tree or a barrier, we can actually measure 
where, how high or low or how wide or how centered that load 
path is in a vehicle. There are tradeoffs with stiffening a 
vehicle or moving the stiffness around that the vehicle 
designers are much more aware of than we are, and we want to be 
careful that we avoid unintended consequences.
    Senator Boxer. Uh-huh.
    Dr. Runge. But, yes, the geometry absolutely must be 
addressed in order to deal with compatibility.
    Senator Boxer. And talk to me about the frame of an SUV. Is 
it not less able to absorb a shock than a passenger car?
    Dr. Runge. I am much more comfortable with engineering of 
the human body than I am with a vehicle, but let me just say 
that there are different types of construction. And once again, 
generalizing within an entire class of----
    Senator Boxer. I understand.
    Dr. Runge.--vehicles is difficult. There are frame 
constructions and there are uni-body constructions all within 
the SUV class, and the--actually, the safety engineers who are 
going to testify later would be more able to answer that 
question precisely.
    Senator Boxer. Senator Snowe has legislation calling on 
NHTSA to improve the safety of 15-passenger vans. Have you 
taken a look at her legislation? And do you have a position on 
that?
    Dr. Runge. As you know, Senator, or I hope you know, NHTSA 
has issued consumer advisories on 15-passenger vans annually 
over the last couple of years. We had a press conference last 
April and May with the beginning of the heavy travel season, 
once again, to inform consumer about the instability of vans 
that are fully loaded, particularly these vans tend to sit 
around on their tires for days on end. Drivers may be just one 
of the members of the athletic team, for instance, instead of 
somebody who is actually trained in the handling 
characteristics of 15-passenger vans. We have a lot of high-
center-of-gravity trucks on the highway, and the drivers who 
handle them are trained to do so. We also believe, with 15-
passenger vans, that people haul large numbers of people 
around--i.e., greater than ten--should clearly be trained in 
the unique handling characteristics of those vehicles.
    Senator Boxer. So do you support her legislation? And that 
is my final----
    Dr. Runge. I will take a look at it.
    Senator Boxer. Thanks.
    Dr. Runge. I am sorry, Senator Snowe, I cannot recall off 
the top of my head.
    Senator Boxer. Thank you.
    The Chairman. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I am sorry I was 
late. I wish more people were driving SUVs here. They would 
have moved along a little faster.
    [Laughter.]
    Senator Allen. I was glad to be in one.
    Senator Boxer. I came in my hybrid and got here early, so--
--
    Senator Allen. Well, I drove a Toyota fuel-cell vehicle.
    Senator Boxer. There you go, and you got here.
    Senator Allen. Well, it was an SUV. There are not many of 
them yet, and I look forward to the day when there are SUVs 
made with hydrogen fuel cells or more, of course, of the 
hybrids, as well.
    Regardless, I am also very glad that my wife was able to 
take my three children to school today in the snow in our SUV 
and that we have the freedom of choice to make decisions for 
our own family without governmental elitism, regulations, or 
nannyism, a different point of view maybe than expressed here 
today by others.
    Regardless, let me ask you this, Dr. Runge, is it not true 
that the overall fatality rates on SUVs have dropped--SUVs, 
pickups, and minivans--and it is the biggest improvement in the 
fatality rates? You take from 1981 to 2001, the statistics I 
have seen, that the deaths were, in 1981--and you have the 
Isuzu Troopers and the Broncos, which is common knowledge they 
were top-heavy, they rolled over more than vehicles now--but 
the point is, there were 237 deaths per million registered SUVs 
in 1981, and now it is down to 73 deaths per million registered 
SUVs. Is that true?
    Dr. Runge. Well, there--all vehicles--passenger cars, SUVs, 
minivans, pickup trucks--are all safer----
    Senator Allen. Rollover rates are less.
    Dr. Runge.--all safer than they were 20 years ago. They are 
safer than they were ten years ago. With respect to--the 
problem, as I said earlier, Senator, is the fact that there are 
so many more light trucks on the highways right now. It is 
manifesting itself in these fatality statistics. Yes, they are 
much safer. It sort of depends on where your baseline started, 
but, yes, all vehicles are safer than they were 20 years ago.
    Senator Allen. Well, let me ask you this then. In 2001, 73 
deaths per million registered SUVs compared with 83 deaths per 
million registered passenger cars, both an improvement over the 
past 20 years, a much more significant improvement with the 
SUVs. But would you agree with that, that there are 73 deaths 
per million registered SUVs--this is 2001--and 83 deaths per 
million registered passenger cars?
    Dr. Runge. I will take a look at that data. I think you 
should also consider that in 1981, the seatbelt-use rate was 
less than 10 percent in the United States and now it is 75 
percent, with the greatest increase being in light-truck 
occupants. So we have to slice that data up a little bit in 
order to determine whether it is strictly the vehicle 
characteristics or whether the driver and the vehicle together 
have made the statistics better.
    Senator Allen. All right, if you want to get to the real--
the prime cause of motor vehicle accidents, what would you say 
the prime cause of motor accidents--the main contributing 
reason?
    Dr. Runge. There are many causes of traffic crashes.
    Senator Allen. What is number one?
    Dr. Runge. Uh----
    Senator Allen. For fatalities.
    Dr. Runge. Well, if we--we have to--we had done a causation 
study in the 1970s that showed that about----
    Senator Allen. All right, let me ask you a leading 
question. Are drivers impaired by alcohol not the number-one 
cause of fatalities? Since we have limited time, I have----
    Dr. Runge. I understand, Senator. I cannot----
    Senator Allen.--we do not have the regular rules----
    Dr. Runge.--I cannot make it that simple for you. People 
who are intoxicated--let me just say, alcohol is involved in 41 
percent of traffic crashes. We also know that 72 percent of 
light-truck rollovers are unbelted and that nearly 60 percent 
of fatalities on our highways are occurring from people who are 
unbelted. But these also involve road departures. They also 
involve rollovers. They are multifactorial. So there is not one 
number-one cause that you can point to of a motor vehicle 
crash.
    Senator Allen. Well, if someone is sober driving down the 
road unbelted, is that person a danger to someone that is 
greater than someone who is driving down the road belted and 
also having taken a few belts themselves, and impaired?
    Dr. Runge. In that situation, I would say that the person 
who is impaired by alcohol is certainly at greater risk than 
the person who is unimpaired and unbelted.
    Senator Allen. Would you not think it is a better--that 
most--that the highest priority use of law enforcement's time 
when trying to maintain safety on the roads is to be detecting 
those who are impaired drivers rather than worrying about the 
lapse of people who are driving down the road otherwise safely?
    Dr. Runge. It is important that both impaired driving be 
lowered and that seatbelt use be raised. Those are the two 
issues, and they are our top two human-factor priorities at 
NHTSA. If we would do that, if we would get to 90 percent belt 
use, like most of the other civilized countries, we would save 
4,000 or 4,500 lives per year. I cannot think of anything else 
that we could do as a Nation to save 4,000 people a year than 
by simply following the law that exists in 49 States, that is 
to buckle the safety belt.
    Senator Allen. Fine. And all vehicles are equipped with 
seatbelts, are they not?
    Dr. Runge. They are.
    Senator Allen. In the--well, less than a minute left--in 
the questioning from the Chairman, as far as your prior 
statement about your daughter or your whole family, you would 
not let your kids drive these vehicles, certain SUVs, I will 
give you a chance to just clear that up. Just so you 
understand, I think free people can make decisions for 
themselves. I am not one who is in favor of over-regulation and 
nannyism from the government. People should be informed, make 
those decisions for themselves. And the quotes that I--as I 
said, let us get this straight, because sometimes people can be 
misquoted--did you actually say that you would not let your 
kid--``I would not buy my kid a two-star rollover vehicle if it 
was the last one on earth''?
    Dr. Runge. Yes, I did say that. The last vehicle----
    Senator Allen. Would you like to elaborate and----
    Dr. Runge. Well, yes, I actually--keep in mind that I said 
two-star rollover vehicle. I did not say anything about SUVs. 
Moreover, I was talking about my new, inexperienced driver. And 
yes, the last phrase was a little hyperbolic.
    This was all at the theme of exactly what you are getting 
at, and that is, is that every family should make informed 
consumer choices for themselves based on their needs and their 
limitations. So they need to weigh rollover risk against size 
and utility and inexperienced drivers versus people who are 
used to driving trucks and not cars.
    Senator Allen. Do you think you can work voluntarily with 
the auto manufacturers to improve safety?
    Dr. Runge. Absolutely.
    Senator Allen. Or would you prefer dictating to them? And 
that is a good leading question.
    [Laughter.]
    Dr. Runge. No bias at all in that question.
    Senator Allen. Not at all.
    Dr. Runge. We do work very well with the industry. Our 
researchers work hand in hand. We depend on their research. 
They look very closely at our research. We look at the 
Insurance Institute's research. We look at--you know, this is--
the safety community in this country is not big enough that we 
need to operate in isolated spheres.
    A good example of that was two weeks, when the Alliance 
convened a meeting that was chaired by the Insurance Institute 
to begin really to get into the issue of vehicle compatibility. 
These people build cars and they build trucks, and they 
understand the tradeoffs that are involved. They can move a lot 
quicker than we can. They are more flexible. They are faster. 
And I was gratified by--the people in that room were the 
world's experts in vehicle compatibility, except for our guys, 
who were not there.
    Now, we will be moving in parallel, but they will be moving 
apace, I hope, and we will be watching very closely what they 
do. This is a perfect example of how we can work symbiotically.
    Senator Allen. Got you. My time is up.
    I would have further questions, but thank you, Mr. 
Chairman.
    Dr. Runge. I would be happy to come see you, Senator.
    Senator Allen. Well, I do think that consumers--when you 
see--if I may, Mr. Chairman--what Volvo has come up with, Volvo 
has always been known for their safety, whether it is in SUVs, 
sedans, station wagons, and I do think some people value safety 
at higher levels, and I do think that the marketplace will--for 
a great deal, will determine what auto manufacturers do, 
because people are going, I think, care about safety in 
different degrees. And I am hopeful that with this hearing and 
with your efforts, you can work voluntarily with the 
manufacturers, which I think will be consistent with market 
forces and consumer demand.
    Thank you, Mr. Chairman, for that added minute.
    The Chairman. Thank you, Senator Allen.
    Senator Lautenberg?

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman, for holding 
this hearing. It certainly is timely. The growing volume of 
SUVs, light-duty trucks, and vans that are on the highways 
causes us to look at safety and the viability of what it is 
that government might want to do here to protect the public.
    I, for one, am somewhat skeptical about getting the kind of 
cooperation we want from the industry itself, but I do know 
that they are trying hard to make these vehicles safer, and I 
salute those attempts.
    Having served on this Committee, Mr. Chairman, when I first 
came to the Senate 20 years ago, and getting involved in the 
debate about whether or not things like windshields could be 
made sturdier, bumpers more crash-resistent, and die-stamped 
parts could be identified that are frequently sold in the black 
market or in the after-market after the vehicle has been 
stolen. But I think it is fair to say that the industry has 
come a long, long way in those 20 years.
    You know, Dr. Runge, I noted with interest your public 
commentary and just heard a little review of it. The fact of 
the matter is that I am one of those who believe that the 
majority need has to be satisfied. And when we talk about 
government intrusion, one could say, well, red lights, stop 
lights, are a government intrusion. It makes you slow down or 
stop at various intersections. Well, heaven forbid that we 
decide that it should be left up to the drivers and let them 
duel it out at the intersection.
    [Laughter.]
    Senator Lautenberg. So I, for one, encourage you to be 
aggressive about this. We are talking about the unexpected 
consequences of, as you say, new drivers. And the hard work 
that we did over the years on impaired drivers has paid off 
substantially. I was the one that wrote the legislation to 
raise the drinking age to 21. It was during President Reagan's 
tour of duty, and it was Elizabeth Dole's position, as 
Transportation Secretary. And we had a fight on our hands, but 
it worked, and it has resulted in substantial reductions in 
fatalities on the highway.
    Dr. Runge, in your prepared testimony, you focus on the 
importance of personal responsibility in highway safety and 
talk about seatbelt usage and impaired driving, and I want to 
do everything I can to help you on these matters. But I want to 
ask you about something else. And it is a personal observation 
about aggressive driving. There is something about that bigger 
vehicle, all the power, the resemblance at times to a tank, a 
military vehicle. There are often incidents of road rage, and 
it looks like, to me, it heightens when the other driver is in 
a large SUV. And I wonder if there is any evidence that you 
have seen that would suggest that the size of the SUV and their 
seemingly invincibility may promote such behavior.
    Dr. Runge. Senator Lautenberg, I would like to answer that 
question in a second, after I have the chance for the first 
time to thank you for your leadership in the 1980s on impaired 
driving, particularly with underage drinking, and raising that 
drinking age. You have saved more teenagers than anybody I can 
think of in this country----
    Senator Lautenberg. That is kind of you.
    Dr. Runge.--outside of medicine. So I just wanted to--I 
want to commend you that and thank you----
    Senator Lautenberg. That is very nice of you. Thank you.
    Dr. Runge.--for your leadership on that.
    With respect to aggressive driving, we are trying to get 
our arms around this issue. I made a comment to the press which 
seemed to resonate when I first came here that I called it 
arrogant driving, because I really do believe it has more to do 
with how we treat each other than anything else. There is also 
increased congestion. There is a relative anonymity behind the 
wheel. People do not know you. You know, if you go to a small 
town, you just do not see a lot of aggressive driving, because 
people know you and they think you are a jerk if you, you know, 
do not treat them correctly. But around here, we do not know 
our neighbors, and I just--I am convinced that the whole issue 
of how we treat each other has to do with anonymity, with 
congestion, with the increased pace of our lives, and that 
people tend to take it out on the road. They think they can 
lengthen their work day or their play day, for that matter, by 
shortening their road time. It just does not work that way. And 
I think there is an element of frustration. I am not aware of 
any evidence that SUV drivers are more aggressive than 
passenger-car drivers, but we do have a team taking a look at 
this whole issue.
    Senator Lautenberg. Uh-huh. You bring up the question of 
anonymity, and the more I think the person is screened from 
public observation, the--I sense the tendency to be more casual 
about other people's rights, and I do not know whether it has 
ever been done, but I would love to see a study of what happens 
with tinted windows in cars to see whether--I think it raises a 
question of safety for law enforcement people. You do not know 
what is in the car when a police officer approaches the driver. 
And if it were possible to get any kind of statistic on what 
happens behind those darkened glass windows, I think it would 
be very interesting.
    Mr. Chairman, I will put my statement in the record.
    [The prepared statement of Senator Lautenberg follows:]

  Prepared Statement of Frank Lautenberg, U.S. Senator from New Jersey
    I want to commend Chairman McCain for holding this hearing. More 
than half of all new vehicles sold are now Sport Utility Vehicles 
(SUVs), light-duty trucks, and vans. Because of a growing consumer 
preference for such vehicles, they now constitute more than one-third 
of all the vehicles on the road.
    These vehicles pose special safety challenges--they are more 
inclined to roll over than ordinary passenger cars.
    And SUV occupants are nearly three times as likely to be killed in 
such accidents.
    And, because SUVs are bigger, heavier, and have a higher center of 
gravity, they pose greater risks to the drivers and passengers in 
ordinary cars in a collision.
    I also believe that SUV drivers tend to be more aggressive. Now, I 
don't have the data to prove that, but that has been my observation.
    Over the past 10-15 years, there has been a clear increase in 
consumer preference for SUVs. That's obvious, and the market has 
responded.
    But as SUVs have gotten bigger and bigger--and less and less fuel 
efficient--and as accumulating crash data have drawn attention to these 
special safety issues--all of that has spawned an anti-SUV backlash.
    I think the industry is aware of this and I want to applaud the 
auto makers for their intention to bring more hybrid and so-called 
cross-over SUVs to the market.
    And I want to applaud the auto makers for their commitment to 
making safety improvements voluntarily. It is worth noting that many 
such improvements can be made faster than the National Highway Safety 
Traffic Administration (NHTSA) can require them.
    The issue is whether the measures the industry has committed to are 
going to be sufficient. The witnesses today should shed some light on 
that and I look forward to hearing their testimony.
    Pardon the pun, but we've been down this road before.
    Each time the industry has faced prospective regulations in the 
past, whether we are talking about seat belts or emissions or fuel 
efficiency standards or airbags, the response has been to (1) deny the 
problem; (2) use political clout to stonewall; (3) argue that the 
proposed regulations are too difficult or too costly to implement; or 
(4) claim that sufficient changes will be made voluntarily.
    The first three responses are unacceptable. The fourth is feasible, 
but put me down as a skeptic at this point.
    While industry officials and safety advocates may disagree about 
the need for new regulations, I hope we can all agree on one thing: The 
best way to save lives and reduce serious injuries right now is to 
require and enforce seat belt laws.
    Seventy-two percent of the vehicle occupants who die in rollover 
crashes were not wearing their seatbelts. What a tragic waste of human 
life.
    Another thing we should be able to agree on is: the need to be even 
more rigorous in cracking down on drunk driving.
    According to the presentation that Dr. Runge made in Detroit last 
month--the one that generated some media interest--we could cut auto 
fatalities by two-thirds if we increased seat belt usage to 90 percent 
and continue to get tougher on drunk driving.
    I have worked hard over my career to improve auto safety. In 1984, 
President Reagan signed my bill into law to raise the national drinking 
age to 21. That law saves 1,000 young lives each year. In 2000, 
President Clinton signed my bill into law that required a .08 blood 
alcohol level as the national ``drunk driving'' standard. That law is 
saving lives, too.
    When I returned to the Senate after my two-year ``sabbatical,'' I 
wanted to get a seat on this Committee, in part because of its 
jurisdiction over auto safety.
    Right now, the special challenges and risks that SUVs present to 
their own drivers and occupants--and to the drivers and passengers in 
ordinary cars--are our Number One safety concern.
    Thank you, Mr. Chairman.

    Senator Lautenberg. And I would like to enter a statement 
that I got from a woman from Arkansas about her experience with 
accident in an SUV and the tragedy that followed, just as an 
indication of what happened in this one instance. It is a 
pretty powerful statement, and I ask unanimous consent that 
both my statement and the statement submitted to me be included 
in the record.
    The Chairman. Without objection. Thank you.
    [The information referred to follows:]

       Prepared Statement of Sandy Turner, Little Rock, Arkansas
    In 1994, my daughter and I were returning from a trip to Memphis, 
where we spent Easter with my family. It was about 4 p.m. and we were 
traveling on 1-40. According to other people--because I can't remember 
this--a pickup truck with big wheels and no license plate was cutting 
in and out of traffic. He cut in front of me and knocked me off the 
road. My Jeep Cherokee rolled three times and the roof caved in. Each 
time it rolled, the roof hit me. The Jeep had no roll bars or 
cushioning on the roof. The truck driver kept going. They never caught 
him. I ended up in the median.
    My 10-year-old daughter was in the back seat in her seat belt. She 
was okay, but I drifted in and out of consciousness for two weeks. I 
was wearing my seatbelt too, and we were going the speed limit.
    The crash broke my spinal column and damaged my neck. It also broke 
my left arm, which is basically unusable. They put rods in my back, and 
I was in the hospital for three weeks after that. Then I went to a 
spinal center in Atlanta, where I stayed for three months. I am in a 
wheelchair now. I can't move my legs. My right arm has gone out over 
the past six years, but they don't know why. The only place I have 
feeling is on my head and the left side of my neck and arm.
    I bought the Jeep new in 1992 because I needed something for 
carpooling. I had no idea how deadly they were. I became really aware 
after the accident.
    I sued Chrysler, alleging that Jeeps had a dangerous tendency to 
roll over and that they provided inadequate roof strength and 
protections for people inside. We settled shortly after.
    Now I'm telling my friends about SUVs and Jeep Cherokees, 
especially my friends with children. These vehicles are dangerous. 
Sometimes in a parking lot I have the urge to warn people getting in 
some of these vehicles and say, ``Look what happened to me.''
    Before the crash, I coordinated and produced a consumer segment 
called ``Seven on Your Side'' for our ABC affiliate in Little Rock. I 
also coordinated volunteers who answered the consumer hotline.
    I'm unable to work now. All I'm able to do is use my left arm, and 
I don't even have full use of it. That's real hard on an active, fairly 
intelligent 54-year-old woman. My brain still wants to go out and do 
all kinds of things, but my body wears out. Ijust can't do it.
    If some of these safety features that are being discussed now had 
been in place nine years ago, I would still be a working citizen and 
would have been able to raise my child, instead of having attendants do 
it.
    Some people think that when someone has a spinal cord injury, 
that's all of it. But as my body matures and my injury matures, more 
and more things keep going wrong. My arm went out. I'm now having 
muscle spasms in my neck. That's one of the few places I can feel 
anything. New things crop up. I've had four operations since the 
initial injuries.
    I urge the senators at this hearing to make these vehicles safer. I 
invite whoever decides not to install roll bars and padding to come and 
spend a day with me, just come and see what it's like.
    What happened to me could happen to anyone. I hope the people here 
today will make sure it doesn't.

    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    Dr. Runge, I want to follow up on Senator Boxer's question 
about the legislation that I am submitting. And I had also 
submitted it to you for your review several weeks ago, and I 
would appreciate your follow-up on the 15-passenger vans, 
because we had the worst traffic accident in the history of 
Maine last September when 14 migrant workers were killed. 
Obviously, there are some serious problems with the rollover 
rate of 15-passenger vans, as I understand three times the rate 
of other vans.
    And I would like to ask you why your agency has not 
included the 15-passenger van in your dynamic rollover testing 
program. That is something that has been recommended by the 
National Transportation Safety Board.
    Dr. Runge. Senator Snowe, thank you for that question. This 
is an issue at the agency. We are continuing to look at that 
particular issue. We also are very intent on looking at the 
volumes of vehicles that are on the road to make sure that we 
have covered the vast majority of the vehicles that are 
actually sold and run. So it is not just a vehicle-specific 
issue; it is also an issue of how many lives can we affect, how 
many vehicles can we rate. And we want to make sure that we 
have covered 80 percent of the miles traveled by the vehicles 
that we choose to run through the test.
    I do not know of any reason, and I will have to consult 
with my engineers, why can we not include 15-passenger vans in 
some sort of a stability rating.
    Senator Snowe. Well, I think, with the risk of rollovers 
six times greater than if the van only has five occupants, then 
I think it really is essential to include it in your program.
    Another disparity in current law, as I understand it, and 
that is what I am also addressing in my legislation, is that 
school children are banned from using these 15-vehicle vans if 
they are purchased. They cannot be purchased, but they can ride 
in them if they are rented, used, or leased. Do you think that 
is something that ought to be changed in law?
    Dr. Runge. Well, it is my understanding, Senator, that that 
is State law. States can do that now if they choose to do so. 
Our ability to control that really has only to do with new 
vehicles and new vehicle sales. But what is good for a new 
vehicle certainly should be good for a used vehicle.
    Senator Snowe. Uh-huh. You referred in your testimony about 
the study that I requested concerning CAFE standards. You know, 
Senator Feinstein and I have introduced legislation to raise 
the CAFE standards for SUVs in the light-truck category 
comparable to passenger vehicles. And I requested that study 
because there had been some questions raised that as you try to 
improve fuel economy, you also incur the risk of compromising 
safety standards. And you said that this study is about to be 
completed. Do you have a timetable for that?
    Dr. Runge. Well, I hoped it would be out by now, Senator. 
We sent it out for peer review to some distinguished 
researchers in the field earlier in the wintertime. We have 
gotten those comments back. Dr. Kahane is incorporating those 
comments into the manuscript, and I think it will be ready 
very, very soon.
    Senator Snowe. Okay, that is very----
    Dr. Runge. So this, indeed, is a wonderful study taking 
into account driver behavior, driver characteristics, and 
looking at the actual effects not only occupants, but also on 
others on the road.
    Senator Snowe. How would you address overloading SUVs, 
which is something that the Consumer Union's research on this 
subject has certainly raised serious questions just about, how 
much cargo you can put in these SUVs given the fact it 
increases the rollover potential? What steps have you taken or 
will take with respect to this issue?
    Dr. Runge. We have not done very much on that issue at all 
yet, as far as consumer information goes. We have--let me just 
back up a second.
    We appointed four integrated project teams to deal with 
four of our priorities at NHTSA. One of them is a Rollover 
Integrated Project Team, which has engineers, consumer 
information people, behavioral scientists, and the like from 
all across the agency. We will publish that report shortly. 
There are some issues in that report having to do with consumer 
education on issues such as these.
    We know that for some light trucks, station wagons, and 
SUVs, that one really should not load the top, increase the 
height of the center of gravity, put extra load on the rear 
wheels with trailers, lots of heavy cargo or luggage. Every 
vehicle has a rating that is readily visible for the consumers. 
It is in the owner's manual, it is usually somewhere in the 
vehicle, even the glove box, that tells the vehicle owner how 
much weight they can safely put into their vehicle. I have no 
idea how often people actually read that or know what it means, 
but we should take a look at that issue.
    Senator Snowe. Well, I know the Consumer Union has 
recommended having it prominently displayed in the vehicle's 
window or someplace that is readily identifiable, you know, to 
indicate the load capacity of the vehicle. And I think 
certainly that is something that is doable and should be done.
    I am just wondering if some of these steps could not be 
done sooner rather than later on some of these issues. When you 
see the lopsided rates involved with these accidents and 
fatalities that occur to people who are struck by these 
vehicles who are in passenger cars, it really does raise some 
very serious questions. I mean, it is alarming if you look at 
the statistics. In half of all the fatal two-vehicle crashes 
involving SUVs and passenger cars, over 80 percent of 
fatalities have occurred to occupants of the passenger cars. 
So, to me, it seems pretty clear that we should be moving 
sooner rather than later on some of these issues.
    And then, secondly, I agree with you on the seatbelts. I 
mean, you know, obviously, it would probably obviously save 
many lives by the use of seatbelts. But, again, we still have 
to address the fundamental, which is the rollover propensity of 
SUVs. So while it is important to be wearing the seatbelt, I 
think it is also important to address the structural problem 
that exists with these vehicles, as well.
    Dr. Runge. Thank you, Senator.
    Senator Snowe. Thank you.
    [The prepared statement of Senator Snowe follows:]

    Prepared Statement of Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, and good afternoon, Dr. Runge. I 
congratulate the President for his judgement in appointing you to head 
up the National Highway Transportation Safety Administration, and I'm 
certain you will be an effective and engaged leader in this extremely 
important arena.
    Mr. Chairman, light trucks, which include sport utility vehicles, 
the safety of which we are considering today, are very popular and 
practical vehicles in my State of Maine, given the State's long snowy 
winters, its largely rural communities, numerous small businesses, and 
diverse year-round outdoor recreational activities. In fact, over 60 
percent of the new vehicles sold last year in Maine fall into this 
category.
    Nationally, we know about 50 percent of all vehicle sales are in 
the ``light truck'' category--SUVs, minivans, and small to medium 
pickup trucks--which represents about 36 percent of all vehicles on our 
roads and highways. That's about 79 million vehicles. So I am 
particularly interested in this hearing as I want everyone to be able 
to purchase vehicles that fit their lifestyles but that are also safe, 
while providing better gas milage.
    The facts according to reports from NHTSA and the Insurance 
Institute for Highway Safety are that light trucks crashes with cars 
account for the majority of fatalities in vehicle-to-vehicle 
collisions, and are uniquely dangerous to other cars on the road. Two 
thousand people would still be alive if their vehicles had been hit by 
a heavy car instead of an SUV and, according to the Independent 
Insurance Agents of America, 80 percent of car and SUV owners believe 
that automakers should make safety changes to SUVs that would make the 
roads safer for passenger cars. As today's SUVs grow even larger, this 
war of escalation is much like an arms race as people wanting to feel 
safe on the roads buy bigger and bigger gas guzzling SUVs, and those 
who choose lighter passenger cars are put in greater danger.
    Dr. Runge, I staunchly support your efforts to prioritize vehicle 
safety by looking at vehicle compatibility and rollover prevention and 
protection, particularly as these factors account for a large and 
growing share of the safety problem. In that light, I am pleased to 
hear that you have appointed Integrated Project Teams to address your 
top priorities and hope you will be publishing recommendations in the 
Federal Register for public comment in the near future.
    In its 2001 Report on CAFE Standards, the National Academy of 
Sciences stated that consideration should be given to designing and 
evaluating fuel economy targets that are dependent on vehicles 
attributes, such as weight, that inherently influence fuel use--and 
that any such system should be designed to have minimal adverse safety 
consequences. NAS went on to say that safety could be improved by 
reducing SUV bulk and could reduce the death rates of other motorists 
from large SUVs, and new engine technologies can produce fuel-
efficiency savings without compromising safety, which could actually be 
improved if automakers reduce the bulk of large SUVs and pickups deadly 
to other motorists in a collision.
    The Report also recommended that NHTSA undertake additional 
research on this subject, including a replication using current field 
data of its 1997 analysis of the relationship between vehicle size and 
fatality risk. As you may recall, I called for this study to go forward 
at a 2002 Committee hearing with you, and I hope that this is 
proceeding as we also need careful and up-to-date analysis to 
investigate the links between improved fuel economy and injuries 
resulting from accidents.
    Studying rollover crashes is also important as they account for 32 
percent of occupant fatalities. And SUV rollovers are far more likely 
to occur than for passenger cars. In 2001, fatalities for single 
vehicle rollovers increased by 2.3 percent. Over 60 percent of the 
occupant fatality rate were those in SUVs while passenger car 
fatalities were 22 percent. This trend also applies to serious injuries 
as data shows that 46 percent of serious injuries occur in SUV 
rollovers while passenger car injuries are much lower--at 16 percent.
    These statistics are simply unacceptable, and I was pleased to read 
in a New York Times article of February 14, that the auto industry 
acknowledged that SUVs and pickups pose serious dangers to cars, and 
has agreed for the first time to cooperate in taking steps towards 
voluntary standards to make cars safer when hit by the larger light 
trucks and to make SUVs less dangerous.
    Dr. Runge, I do caution you not to rely on voluntary programs alone 
to meet these safety challenges and responsibilities but believe that 
government initiated programs--working in partnership with industry--
should be considered. There is a great sense of urgency and a growing 
concern over the social costs of SUVs, which are more harmful to the 
environment because of their greater emissions that affect the public's 
health.
    SUVs also make it more difficult to reach the nation's energy goals 
as they do not have to meet the higher CAFE standard of passenger cars. 
While still bitterly opposed by the industry, the congressionally 
mandated Corporate Average Fuel Economy Standards, have led to much 
greater fuel economy in the past 25 years and less reliance on foreign 
imported oil.
    We must consider ways to raise the bar--and soon--both to protect 
the public and, at the same time, obtain greater fuel economy. I look 
forward to working with you, Mr. Chairman, and the Committee, and with 
Dr. Runge, consumers and the industry to reach these goals. I thank the 
Chair.

    The Chairman. Dr. Runge, just briefly, on this Alliance of 
Automobile Manufacturers and Insurance Institute for Highway 
Safety, how can you ensure that all interested parties have an 
input?
    Dr. Runge. Well, the way that we have discussed this 
working is, is that the industry will begin its work. This was 
their kickoff meeting, and they have divided themselves into 
two groups, one to look at the characteristics of the striking 
vehicles and another to look at self-protection or the 
characteristics of the struck vehicle. We also have an 
extensive research program going on with compatibility issues. 
So we will be watching, Senator, and I am sure you will be, as 
well.
    The Chairman. I do not think that is good enough. Did you 
see the front of USA Today ?
    Dr. Runge. I saw the front page. I have not read the story 
yet.
    The Chairman. Well, let me tell you what it says. It says, 
``New evidence from the government suggests that key auto-crash 
tests run by the insurance industry and Federal regulators 
might make sports utility vehicles deadlier to people in small 
cars.'' It says, ``Research finds little proof the tests 
actually lead to vehicles that better protect their own 
occupants. The findings call into question the crash-test 
ratings that millions of consumers rely on when buying cars and 
trucks. It could lead to an overhaul of Federal tests to make 
them better predictors, what really happens when vehicles 
collide. They are making--new government testing shows that as 
automakers design SUVs and pickups to score well in insurance 
industry and government frontal crash tests, they are making 
front ends so stiff that they might be more dangerous to those 
riding in small cars.''
    It is sort of a follow-up to what Senator Snowe was talking 
about. If you make the SUV stiffer in the front and stronger, 
then perhaps you inflict, at least according to this article 
and other information, greater damage on people who are 
occupants of passenger cars.
    Do you have any response to that? And what research have 
you been doing that might add to our information on that issue?
    Dr. Runge. Thank you, Mr. Chairman. I understand what the 
author is talking about. We, in fact, did do--we looked at two 
vehicles that made substantial improvements in their Insurance 
Institute safety rating recently and looked at their 
performance and how they interacted with another vehicle in a 
two-car collision. And it showed that one of the vehicles 
actually inflicted more damage on the struck vehicle than the 
older one that did not fare as well in the Insurance Institute 
test. And the other one was roughly similar. These were two 
crash tests, and clearly we want to crash more vehicles that 
have done this.
    Mr. O'Neill, I am sure, later on, will a comment about 
that, but I would encourage the Committee not to regard 
stiffness as a general yes/no, a binary answer, any more than 
they would that, you know, an SUV is safe/not-safe. It is 
really not a binary question. It is a very complex issue. Where 
the vehicle is stiff and where it interacts with the other 
vehicle is just as important as how stiff it is.
    You know, with respect to our own and our own consumer-
information tests that we have done, we also have been 
concerned in the past that our own tests may be making vehicles 
stiffer and more dangerous to their crash partners. So a study 
was done by a NHTSA researcher a couple of years ago who 
studied the forces delivered by vehicles over the course of 
NCAP, and actually showed that in 15 years of data, from 1983 
to 1998, vehicles actually became less stiff and had less 
deflection on chests and less head injury criteria with our 
full frontal 35-mile-an-hour power test. And we also looked at 
real-world performance, and it turns out that when vehicles 
come together and one is rated ``good'' by our NCAP test and 
one is rated ``poor,'' that the occupants of the ``good'' 
vehicle fare much, much better, with about a 25 percent lower 
fatality rate than those in the ``poor'' vehicle. So we are 
looking at this very carefully.
    The Chairman. Well, I hope so, because it seems to me that 
it is a rather serious issue.
    Senator Allen, did you have an additional question?
    Senator Allen. If I may.
    The Chairman. Sure.
    Senator Allen. Thank you, Mr. Chairman.
    Could you share with us statistics as to injuries or 
fatalities of those who are driving in SUVs versus passenger 
vehicles?
    Dr. Runge. We will have more complete data on that when our 
size and weight study comes out. I do not want to preempt Dr. 
Kahane, but I will get back to this same theme, and that is, is 
that I would not generalize SUVs and other vehicles. Some SUVs 
are much safer than some passenger cars. Some SUVs are less 
safe than some passenger cars. So we really need to 
differentiate, which is my central theme all along, Senator. We 
want consumers to go to our rating system and differentiate 
within the SUV class about vehicles that may be more safe than 
others.
    Senator Allen. Having grown up generally driving pickup 
trucks, so I am more--was more familiar driving them, the SUVs, 
many of them, are on a pickup truck body. There are others--my 
brother has got one of those BMW whatever they are, and I was 
driving it. It is like a sports car. They are expensive. I 
would never have one. He makes more money than I do, and, 
regardless it is like a sports car. And every--it is just 
amazing the pickup on it, but it is a different--it is a 
completely different frame than what you have on--generally on 
the Fords, Dodges, and Chevrolets, which are on a pickup-truck 
body.
    So in summary of what you are saying here in answer to a 
lot of questions, is that your goal is to work with the 
manufacturers to make them safer. And there is a whole sheet 
here of voluntarily installed safety devices over the years, 
from tire suspension organization, the traction controls, 
stability controls, airbags. While they might have been a 
threat as the mandate one time, now they are demanded by 
people. People want them. You do not need to tell them. People 
want airbags.
    Your goal, as I understand it, as a philosophy, is not to 
ban a particular SUV, for example, but rather make sure that 
individuals making a decision would know of its propensity, its 
safety, and so forth, and they make that decision. They may 
want more cargo capacity. They may be towing. I have no 
personal need for towing, but others may. And then they make 
those decisions as to some sort of preclusion or dictate or 
restriction on the sale of the vehicle. Is that correct?
    Dr. Runge. That would be a nice summary of my philosophy, 
with two caveats. First of all, we are a regulatory agency, 
and, therefore, we have an enforcement division that looks for 
unsafe vehicles that do not meet our Federal motor vehicle 
safety standards. And we will not hesitate to take those off 
the road through the recall process if we find a vehicle that 
is out of line with its peers.
    The other caveat is that when technology enters the fleet 
and we have been able to assess that and analyze it, and, in 
fact, it looks like it is good, or if we, in fact, in our 
research, see something that is good, sometimes a regulation 
can level the playing field so that manufacturers who are 
willing to invest more in safety are not put at a competitive 
disadvantage to those who do not want to invest in safety. That 
is another good reason for a regulation, is when we can 
actually show good cost benefit to a requirement for a safety 
device.
    Senator Allen. Are there any SUVs on the road right now 
that you think should not be on the--I am talking about being 
manufactured now--that would meet that criteria?
    Dr. Runge. There--no. I think that, once again, the 
vehicles that are out there all have legitimate reasons for 
being there. And as you very, very well pointed out, Senator, 
it depends--consumers need to be informed about vehicles that 
meet their needs--safety as a consideration, utility as a 
consideration, their own family's driver characteristics as a 
consideration. But if we thought there was an unsafe vehicle 
out there, we would take it off the road.
    Senator Allen. Thank you, Mr. Chairman.
    Thank you, Doctor.
    Senator Lautenberg. Thanks, Mr. Chairman, just briefly.
    Dr. Runge, my compliments go to you for what looks like an 
intense and active interest in dealing with this problem, 
finding out more about it, and that is what we ought to do. And 
I wonder, while this is not specifically SUV-related, whether 
you have had a chance to look at the .08 blood alcohol content 
law, which I got passed into law before I left the Senate, two 
years ago. And we have seen some compliance since then by 
States. We still have a dozen States, roughly, that have not 
lowered their blood alcohol content. Regrettably, one of them 
is my own State, New Jersey, and that is going to be done, I 
believe, in the next short while.
    Have you had a chance to look at the results of that? Is 
there any indication that we have made safety gain as a result 
of lowering that blood alcohol content level?
    Dr. Runge. Yes, sir, we have done analysis of States. 
Unfortunately, it is hard to do a controlled study. We have to 
do a longitudinal before-and-after comparison. But we are 
seeing reductions of about 7 to 9 percent in alcohol-related 
fatalities in States after they pass the .08 law. So we believe 
that it is effective.
    We also believe that the American public should not fear 
.08. It is not a glass of wine or two at dinner that gets you 
to .08. Most people would be shocked at how--most people would 
agree completely if they were ever at .08 that they should not 
be operating a motor vehicle.
    So there is this tendency to fear lowering of blood alcohol 
content as putting one in some risk if he is a drinker of any 
alcohol. The far greater risk is being hit by a drunk driver in 
States that are not taking active roles to put these kind of 
measures in place.
    Senator Lautenberg. I thank you very much. The sanctions 
will be going into effect starting this year, and I would hope 
that we will be able to get some reporting. And I do not know 
whether it falls to your department or somewhere else is the 
Department of Transportation that reports to us, but the States 
have to be reminded that there is a significant penalty if they 
do not change.
    Thanks very much, Mr. Chairman, and thank you, Dr. Runge.
    The Chairman. Thank you, Senator.
    Thank you, Dr. Runge. We look forward to working with you.
    Our next panel is Ms. Joan Claybrook, president of Public 
Citizen, Mr. David Pittle, the senior vice president of 
Technical Policy of Consumers Union, Mr. Brian O'Neill, the 
president of the Insurance Institute for Highway Safety, Mr. 
Robert Lange, who is the executive director of Vehicle 
Structure and Safety Integration at General Motors Corporation, 
Ms. Susan Cischke, who is the vice president of the 
Environmental and Safety Engineering at Ford Motor Company, and 
Mr. Christopher Tinto, who is the director of Technical and 
Regulatory Affairs at Toyota Motor North America.
    Welcome to the witnesses, and, Ms. Claybrook, we will begin 
with you.

   STATEMENT OF JOAN B. CLAYBROOK, PRESIDENT, PUBLIC CITIZEN

    Ms. Claybrook. Thank you, Mr. Chairman.
    The Chairman. Welcome back before the Committee, Ms. 
Claybrook.
    Ms. Claybrook. Thank you, Mr. Chairman. I very much 
appreciate the opportunity to testify today before the 
Committee and to the other Committee members.
    Mr. Chairman, SUVs are antisocial, dangerous vehicles, and 
Congress should act to bring down the death toll from these 
top-heavy highway battering rams. Overall, SUVs are more 
hazardous than passenger cars. In the National Highway Traffic 
Safety Administration's statistics, fatality data for all types 
of crashes from 1999, the occupant fatality rate of 100,000 
registered vehicles was 17.78 for SUVs, and 16.44 for passenger 
cars. Acknowledging, of course, that they are fairly close 
between the two, I think that Dr. Runge has made the best 
point, which is there are safe SUVs and there are safe cars, 
and there are unsafe others of both.
    Any real study should also examine the increasing number of 
fatalities imposed on passenger car occupants because of two-
vehicle crashes from deadly SUVs and pickup trucks. And I think 
in answer to your question on the USA Today study, that 
article, that it is really unethical to talk about the deaths 
only to the occupants of these vehicles, but you also have to 
look at the deaths that they cause to the occupants of other 
vehicles. And some very excellent researchers, Ross and Wenzel, 
have put together a lovely study that shows not only the death 
rate in the vehicle as the occupant, but also the combined 
death rate from both the occupant and the impact that that 
vehicle has on other people.
    SUVs are basically gussied-up pickup trucks, and most have 
never been substantially redesigned to be safely used as 
passenger vehicles. And we have already heard some of the 
problems that arise when the high bumper, stiff frame, and 
construction of these vehicles fails to adequately absorb the 
energy and also imposes great harm on others on the highway. 
There are also problems of side guardrails which are designed 
basically for cars. And there are also pollution issues.
    And I would take issue a little bit with Dr. Runge, that 
you can make safer and more fuel-efficient SUVs, because much 
of the improvement in fuel efficiency that occurred from 1977 
to 1985, and, indeed, could be applied in SUVs comes from 
technology. And also, when the Department of Transportation 
issued those standards in the 1970s, what the manufacturers did 
was they took the weight out of the heaviest vehicles, not out 
of the smaller vehicles. So you had a more compatible vehicle 
fleet because you got rid of the 5500-pound behemoths, and they 
were closer to 4,000 pounds, and so they did less harm to 
others on the highway.
    The SUV, as it is currently designed--not as it could be 
designed, but as it is currently designed--is a bad bargain for 
our society and a nightmare for many American motorists because 
of their aggressive design and because of their capacity to 
roll over so readily and also their lack of crashworthiness. 
That is a huge problem that could be fixed much more easily, as 
Dr. Runge has acknowledged this morning. That is, fixing up the 
roofs, tightening up the belts when the roll occurs, having 
better seat structures, side window glazing that does not crack 
but shatters like the windshield does, and side airbag 
curtains. When you have that, these rollovers are not highspeed 
crashes. It is not like you are going at 55 or 65 miles an hour 
in a rollover because you change direction. You are going a 
certain highway speed, but then you change direction. And these 
are not heavy-duty crashes. You can protect most occupants in 
these crashes.
    And you can also substantially redesign these vehicles to 
have a lower center of gravity. And indeed, some of such 
vehicles have already been redesigned. The new Volvo SUV is a 
great example of the state-of-the-art. And there is no reason 
why every SUV on the highway could not have the same kind of 
crash protection and lack of rollover propensity that they do.
    There are 32 vehicles in the NHTSA rating system that have 
two stars or one star that are SUVs, and this is really 
unacceptable, and it was those vehicles that I think that Dr. 
Runge was referring to when he said he would not let his 
children drive them. I do not think anybody should drive these 
vehicles. I do not think they should be manufactured that way. 
They can be certainly changed completely.
    One of the problems is that the current roof standard, roof 
crush standard that NHTSA has is very weak, and it was weakened 
because the auto industry, General Motors, particularly, in 
early 1970, came in and persuaded the agency to cut back the 
tests for that standard. But it should have a dynamic test, and 
this is something the agency has the capacity to do. Right now, 
when a rollover occurs, the windshield breaks in the first 
roll, and when it does, the roof loses 30 percent of its 
protective capacity. So the--and if you look at who has 
paraplegia, quadriplegia, and brain damage from rollovers, it 
is the people who are sitting where the roof crushed in. So 
roof crush is a huge issue.
    Another issue that I think is very significant, and the 
auto industry talks about the importance of having belt usage, 
belt usage is very high in SUVs. It is in the 77/78-percent 
range. But in fatal rollover crashes, it is much lower. And I 
have a substantial question about the performance of belts in a 
rollover crash and whether they are doing their job, which is 
the reason that I urge that there be pretensioning of these 
belts so that the belt actually holds you in place and you do 
not flip around during the course of these crashes.
    Some of the interesting examples are of--the difference 
between SUVs and cars is that a Honda Accord, which weighs 
about 3,000 pounds, has a better rating, in terms of safety and 
real-world experience, than the Ford Expedition, which weighs 
5686 pounds. So you can have some important design--that shows 
the importance of design. Design is critical to whether or not 
these vehicles behave and perform as they should for the 
American public.
    I would also like to comment just for a minute on consumer 
information. Right now, the agency's consumer information is on 
the Web page. It is not on the sticker on the windshield so 
that when you go to buy a car you really know how these 
vehicles perform. In addition, the agency used to have some 
rules for turning radius and for stopping distance. SUVs have a 
longer stopping distance than others. And so it is a huge 
problem between the ability of the consumer to make a decision 
and the--you know, what is available to them, in terms of 
information. It simply is not there.
    Lastly, I would just like to comment on the voluntary 
standard, Senator. In the committee report of this Committee in 
1966, it says very clearly that voluntary standards have 
failed. The reason the law was enacted in 1966 was because the 
industry never did voluntarily put in safety unless they were 
under duress at a particular moment in time. And the problem 
with voluntary standards is that consumers cannot participate 
in the development of these standards. The industry promises to 
do something and then changes its mind, as it did with--General 
Motors did with side curtains, for example, or Ford did with 25 
percent improvement in fuel economy, which they promised in the 
year 2000, then they changed their mind and backtracked. This 
happens all the time. And so voluntary standards mean nothing 
to consumers.
    And in addition, when you go to buy a car, there is no 
certification of what voluntary standards they actually comply 
with. So you do not have it in the marketplace, you do not 
participate, there is no enforcement, and there is no 
involvement in the process.
    Lastly, I would just like to mention that there--in 
addition to the remedies that I have already mentioned, there 
are a number of loopholes for SUVs in the law, in a variety of 
laws--in the tax laws, there have been in the tariff laws, in 
the safety laws. SUVs, for example, have a lower fuel economy 
capacity, they have--they do not have to meet side-impact 
protection at all if they are over 6,000 pounds, they do not 
have to meet a roof-strength--the substantial roof-strength 
standard at all if they are over 6,000 pounds, they do not have 
to have the child anchorage systems if they are over 8500 
pounds. And there are a number of areas where SUVs have been 
exempted, and that is part of what has made them such a cash 
cow for this industry.
    [The prepared statement of Ms. Claybrook follows:]

    Prepared Statement of Joan Claybrook, President, Public Citizen
Profit-Driven Myths and Severe Public Damage: The Terrible Truth About 
        SUVs
    Thank you, Mr. Chairman and Members of the Senate Committee on 
Commerce, Science and Transportation, for the opportunity to testify 
before you today on the safety of sport utility vehicles, or SUVs. My 
name is Joan Claybrook and I am the President of Public Citizen, a 
national non-profit public interest organization with over 125,000 
members nationwide. We represent consumer interests through lobbying, 
litigation, regulatory oversight, research and public education. Public 
Citizen has a long and successful history of working to improve 
consumer health and safety.
    In recent months, there has been welcome and renewed public 
attention to the social, environmental and safety problems afflicting 
SUVs. While every consumer knows about the way these gas-guzzlers block 
visibility on the road, blind drivers with higher headlamps, and cause 
congestion in cities, few may be aware that SUVs are in fact no safer 
than large or mid-size cars and impose additional safety liabilities in 
many types of crashes. Since Dr. Jeffrey Runge, Administrator of the 
National Highway Traffic Safety Administration (NHTSA), openly assessed 
SUV hazards for their drivers and other motorists during a recent 
speech in Detroit, a long-needed public debate has begun. We must ask 
whether SUVs deliver what they promise in terms of consumer need and 
safety, and take a hard look at the profoundly anti-social and violent 
aspects of these pollution-belching highway battering rams.
    As I will discuss, the criticism of SUVs is richly deserved. SUVs 
are basically gussied-up pickup trucks, and most have never been 
comprehensively re-designed to be safely used as passenger vehicles. In 
a crash, the high bumper, stiff frame and steel-panel construction of 
SUVs override crash protections of other vehicles. Due to their cut-
rate safety design, SUVs often fail to adequately absorb crash energy 
or to crumple as they should, so they ram into other motorists and 
shock their own occupants' bodies. Endangering their occupants, SUVs 
may also slide over roadside guardrails, which were designed for cars. 
And their high profile and narrow track width create a tippy vehicle, 
which, when combined with their weak roofs and poor crash protection, 
places SUV drivers at risk of death or paralysis in a devastating 
rollover crash. All of these factors mean that overall, SUVs are less 
safe on average for their occupants than large or midsize cars, and yet 
inflict far greater costs in both lives and money on other motorists.
    The SUV is a bad bargain for society and a nightmare for American 
roads. The switch from mid-size and large passenger cars to SUVs has 
endangered millions of Americans, without any recognizable benefits. 
One former NHTSA Administrator estimated in 1997 that the aggressive 
design of light trucks (a category including SUVs, pickup trucks, vans 
and minivans) has killed 2,000 additional people needlessly each year. 
\1\ Yet automakers continue to exploit special interest exemptions and 
safety loopholes, while creating consumer demand and shaping consumer 
choice with a multibillion-dollar marketing campaign, because SUVs 
bring in maximum dollars for minimal effort.
    After years of losing out in the passenger car market to foreign 
manufacturers, the domestics' decision to produce and market vehicles 
in the far less regulated, tariffprotected \2\ SUV category was like 
hitting the lottery for Detroit. In the SUV, the industry found and 
developed a broad market that allowed it to rake in cash, while taking 
every step to avoid spending money to fix the unstable and threatening 
vehicle that resulted.
    Manufacturers have known for decades about the tendency of SUVs to 
roll over, and about the damage incurred when the vehicles' weak roof 
crushes in on the heads and spines of motorists. Manufacturers have 
settled the many lawsuits brought by motorists who were horribly 
injured by these vehicles and facing a lifetime of pain, often imposing 
gag orders to hide the documents that show this knowledge. They've also 
unblinkingly faced the carnage inflicted on other motorists from high 
SUV bumpers and menacing front grilles, building ever-more heavy and 
terrible SUVs over time and continuing to market them militaristically, 
such as the ads calling the Lincoln Navigator an ``urban assault 
vehicle.'' For this designed-in harm, they are rarely held responsible. 
Throughout, they've kept churning out millions of SUVs, essentially 
unfixed.
    This hearing is necessary because, although manufactures have known 
for years about these hazards, instead of acting voluntarily, they have 
bobbed, weaved, delayed and denied. SUVs are in fact the dangerous 
offspring of a heady mix of profit-driven special interest politics and 
corporate deception. Most safety standards and emissions rules are more 
than thirty years old, and relentless industry lobbying has killed off 
interim attempts to update them or pass badly needed new ones on 
rollover or vehicle compatibility. Yet when the safety, fuel economy 
and emissions laws were originally passed in the 1960s and 1970s, it 
was unimagined that SUVs and other light trucks would become, as today, 
nearly half of all new vehicles sold. The result is that Detroit has 
retained, and jealously guarded, a massive incentive to create demand 
for, and to sell, these highly profitable machines.
    Despite their high price tag, SUVs are cheap to produce because of 
an accumulation of regulatory exceptions and the near-total lack of up-
to-date, much-needed standards for rollover and vehicle compatibility. 
The result is that consumers are unnecessarily threatened, injured and 
killed. The combination of safety design shortcuts that imperil their 
own occupants, aggressive and heavy designs that devastate the 
occupants of other vehicles, and special, higher levels of fuel usage 
and pollutants means that the SUV is a lose-lose for society. Better 
regulation is sorely needed to transform this socially and 
environmentally hostile vehicle into one worth selling or owning.
I. SUVs Are No Safer for Their Drivers Than Mid-size and Large Cars, 
        and Are 
        Extremely Dangerous for Others on the Road
    Although many Americans purchase SUVs because they believe that 
they will safely transport their families, the truth is that SUVs are 
among the most dangerous vehicles on the road. They are no more safe 
for their drivers than many passenger cars, and are much more dangerous 
for other drivers who share the highway, making them a net social loss 
for society. Yet this cycle is perpetuated by industry-spread myths 
that heavier vehicles are safer per se, so consumers believe that they 
must continue to ``supersize'' their own vehicle in order to remain 
safe. The self-reinforcing nature of this growing highway arms race 
makes the notion that SUVs are safe for their occupants one of the more 
harmful myths of our time.
    Yet the influx of these new urban assault vehicles is threatening 
overall road safety in new and more frightening ways. While the rate of 
passenger cars involved in fatal crashes per 100,000 registered 
passenger cars declined by 15.1 percent between 1995 and 2001, the rate 
of light truck involvement only declined only by 6.8 percent during the 
same time. Thus, while light truck involvement rates in fatal crashes 
have always been greater than those of passenger cars, this difference 
is growing ever larger. \3\
    The growing death toll from SUVs is so significant that a recent 
federal study found that fatalities in rollover crashes in light 
trucks, a category which includes SUVs, threatens to overwhelm all 
other reductions in fatalities on the highway, an astonishing fact when 
we consider that air bags are now a requirement for new vehicles and 
seat belt use keeps going up. NHTSA explained that ``the increase in 
light truck occupant fatalities accounts for the continued high level 
of overall occupant fatalities, having offset the decline in traffic 
deaths of passenger car occupants.'' \4\ In addition to the height of 
the vehicles' profiles and headlamps, which block sightlines on the 
highway, light truck design is so incompatible with passenger vehicles 
that they are estimated to kill approximately 2,000 unnecessary vehicle 
occupants each year, as noted by a previous NHTSA Administrator. \5\ A 
more specific analysis found that 1,434 passenger car drivers who were 
killed in collisions with light trucks would have lived if they had 
been hit instead by a passenger car of the same weight as the light 
truck, even under the same crash conditions. \6\ The deadly design of 
light trucks has thus been responsible for thousands of unnecessary 
deaths on American highways.
    Overall, SUVs are no safer for their occupants than are many 
passenger cars. NHTSA's fatality statistics show that, in 2001, there 
were 162 deaths per million SUVs and 157 deaths per million cars, 
indicating that the death rate for SUVs is slightly higher. \7\ In 
fact, researchers Marc Ross, of the University of Michigan, and Tom 
Wenzel, of Lawrence Berkley National Laboratory, have examined detailed 
crash data and concluded that risks to drivers of SUVs are slightly 
higher than risks to drivers of midsize and large cars, but slightly 
lower than risks to drivers of compact and subcompact cars. When the 
risk to drivers is combined with the risk to drivers of other vehicles, 
the average SUV has about the same combined risk as the average compact 
car (and higher combined risk than average mid-size and large cars, 
while lower combined risk than the average subcompact). This is further 
explained in the chart below. However, Ross and Wenzel found that the 
risk to drivers of the safest compact and subcompact models are lower 
than that of the average SUV, and are about the same as that of the 
safest SUV model.

  Ross and Wenzel Fatality Risk by Vehicle Type--1997-2001 model years
       (using NHTSA driver death rates per million vehicles sold)
------------------------------------------------------------------------
                                                               Risk to
                                     Combined     Risk to       other
                                       risk        driver      drivers
------------------------------------------------------------------------
Sports Car                                 225          175           50
Pickup Truck                               211          108          103
Subcompact Car                             141          109           33
SUV                                        132           79           53
Compact Car                                128           90           38
Large Car                                  112           74           38
Mid-Size Car                                97           66           32
Minivan                                     80           40           40
Luxury Import                               60           40           20
------------------------------------------------------------------------
Combined risk is the sum of the death rate for a vehicle's drives and
  the drivers of other vehicles with which it collides, showing a
  vehicle's net social harm in crash fatalities.

    Variations within weight categories are significant. For example, 
drivers of Honda Accord (3049 lbs. \8\) passenger cars and the hulking 
Ford Expedition SUV (5686 lbs.) have similar risks to their drivers. 
And drivers of the gargantuan Chevrolet Surburban (5567 lbs.), the 
safest SUV identified, have the same fatality rates as drivers of much 
smaller Volkswagen Jettas (3091 lbs.). But in each of these two cases, 
the SUV model imposes over twice the risk on drivers of other vehicles 
than the car model.
    Ross and Wenzel have also specifically challenged the idea that 
weight explains the safety levels of particular vehicles. Using the 
resale value of vehicles as a proxy for the ``quality'' of their 
design, their research shows that, while there is a wide range of 
safety outcomes in each weight category, the risk to the driver of a 
vehicle is more closely correlated with the quality of that vehicle 
than with its weight. \9\ Because heavy vehicles are much more 
dangerous for others on the highway, it is critical to figure out 
whether this added weight actually buys better safety for the occupants 
of these vehicles. Ross and Wenzel's work shows that some of the 
heaviest vehicles offer only very mediocre protection for their 
occupants, yet threatens other drivers, inflicting a net loss on 
society.
    For just one egregious example from a different study, for every 
Ford Explorer driver saved in a two-vehicle crash because that driver 
chose an Explorer over a large car, five drivers are killed in vehicles 
hit by Explorers. \10\ We must take up the challenge presented by Ross 
and Wenzel and begin to address the net social consequences of bad 
choices--choices made out of a narrowly perceived, woefully uninformed, 
and factually incorrect, self-interest.
    For this reason alone, a recent release of data by the Insurance 
Institute for Highway Safety (IIHS) is beside the point. \11\ IIHS 
claims that its numbers show that overall occupant fatality rates for 
SUVs are, for the first time, lower than the overall rates for cars.
    My main objections to the work by IIHS are below:

        1) The IIHS has been quoted in several news articles as 
        emphasizing that the new study, for the ``first time,'' shows 
        that SUVs are safer than cars. There are several serious 
        problems with this claim:

          a. Other statistics disagree: NHTSA's overall occupant 
        fatality data for all crashes for 1999 (the most recent year 
        NHTSA published statistics using SUVs as a vehicle class) 
        showed that the occupant fatality rate per 100,000 registered 
        vehicles was 17.78 for SUVs and a slightly lower 16.44 for 
        passenger cars. \12\ NHTSA's statistics include all vehicles on 
        the road.

          b. The overall IIHS driver death rates for SUVs (73) show 
        they are more risky than both large (63) and very large (69) 
        cars, as classified by IIHS. The only real disagreement between 
        the Ross and Wenzel data and IIHS concerns whether mid-size 
        cars are also more safe than SUVs, which may be a matter of how 
        the researchers have sorted particular vehicles by size. In 
        addition, IIHS rollover death rates for SUVs (2-wheel drive = 
        44/four-wheel drive = 31) show that these are still far above 
        the overall rollover rates in single-vehicle rollover crashes 
        for cars (all cars = 18).

          c. SUVs may be killing more people in cars: IIHS fails to 
        consider the effect of SUV aggressivity as their numbers grow 
        in proportion to the overall vehicle fleet, which could mean 
        that the marginal relative safety gains in SUVs are at the 
        expense of the occupants in passenger cars. The fatality rate 
        in cars has declined steadily over time, and has been cut in 
        half since 1980. IIHS must estimate how much further the car 
        fatality rate would have declined if thousands of car drivers 
        had not switched to more dangerous SUVs. One expert estimates 
        that the net increase in deaths from the aggressive design of 
        SUVs was 445 in 1996 alone, over what the death count would 
        have been had those drivers been in cars of the same weight 
        class. \13\ IIHS must show that their numbers are significant 
        outside of this ``replacement effect'' caused by the deadly 
        design of SUVs.

          d. Very small sample size: The IIHS does not present any 
        indication of the statistical significance of its findings, as 
        it did in earlier make/model analyses. Yet the IIHS sample 
        size, which sorts one year of fatality data for three model 
        years of vehicle registrations into even smaller bins of data 
        regarding vehicle type (inexplicably divided by both wheelbase 
        and length for cars, and weight for trucks), is likely to also 
        be small, making a spread of 115 to 125 between SUVs and cars 
        in the IIHS 2001 occupant fatalities chart statistically 
        insignificant. In contrast, the analysis by Ross and Wenzel 
        uses fatality data and vehicle sales from five years, which 
        allows analysis of particular vehicle models. \14\ The more 
        detailed analysis by Ross and Wenzel indicates that SUVs are 
        less safe than mid-size and large cars and safer than compact 
        and subcompact cars for their drivers.

          e. The data categories may be misleading: IIHS has included 
        all car types, including high risk sports and mini cars and low 
        risk minivans, in their car category, and has dropped the worst 
        performers, 2-wheel-drive SUVs, out of the SUV category below 
        3,000 and above 5,000 lbs. IIHS must demonstrate that this 
        line-drawing does not distort its results. Also, SUVs should 
        only be compared with vehicles with comparable attributes 
        appealing to SUV buyers, such as minivans, and compact, mid-
        size, and large cars. Moreover, the new cars used in the IIHS 
        sample may be underinvolved in crashes, as drivers of new cars 
        tend to be more affluent and more careful on the road.

        2) The study's focus on weight fails to explain the problem and 
        leads to the wrong result: In fact, there are tremendous 
        variations in the safety of vehicles for their drivers and for 
        others on the road within the same weight or size categories. 
        \15\ Other research shows weight to be inconclusive at best, as 
        it confounds such potentially more explanatory factors as 
        safety design, quality and size. A better method would be to 
        update the 2000 IIHS make/model analysis, so that consumers may 
        be informed about the particular vehicle models they drive.

    The IIHS study's focus on occupant protection, without considering 
off-setting aggressivity effects, perpetuates the myopic focus on 
occupant safety, rather than factoring in the costs and risks for 
others on the road. The IIHS results would wrongly lead individual 
consumers to purchase heavier vehicles as a matter of self-protection. 
Yet Ross and Wenzel have shown that drawing conclusions about safety 
across weight classes without looking at make/model quality 
distinctions produces a misleading picture at best.
    And the IIHS approach results in a far more dangerous highway for 
all of us. Encouraging consumers to ``super-size'' vehicles creates a 
vehicle fleet with a far greater range between the largest and smallest 
vehicles. But these kind of disparities have been shown by safety 
experts to be the most devastating in two-car crashes, turning the 
nation's fleet of vehicles into a combination of battering rams and 
lambs to the slaughter. One study recently concluded that the risks 
imposed by heavier cars on lighter car occupants outweigh the benefits 
to heavier car occupants, and that the variability of distribution of 
weights in the vehicle fleet increases net fatalities. \16\ Another 
study demonstrated that shifting the passenger vehicle fleet to include 
more SUVs in lieu of cars increased the overall number of deaths. \17\
    Instead of fixing design flaws in SUVs, manufacturers frequently 
claim that driver behavior is to blame. But data on driver behavior 
patterns also fail to explain the difference in driver death rates 
between SUVs and passenger cars. SUV drivers killed in rollovers are, 
in fact, considerably less likely to be either speeding or drunk than 
are passenger car drivers involved in a fatal rollover crash, 
suggesting that it is easier for SUV drivers to lose control of the 
vehicle and become involved in a severe crash. \18\
II. New Safety Standards On Rollover and Aggressivity Reduction Could 
        Save Lives
A. Rollover
    As General Motors pointed out in its response to Dr. Runge's 
comments in Detroit, rollover crashes are rare events, representing 
only 2.5 percent of all crashes. GM failed to mention that almost one 
third (32 percent) of all occupant fatalities are rolloverrelated (over 
10,000 per year). \19\ And, when they occur today, rollovers are often 
deadly. According to NHTSA, 20 percent of fatal crashes involve a 
rollover. \20\
    SUVs are a major part of the rollover problem: while 22 percent of 
passenger car occupant fatalities are attributable to rollover, a 
whopping 61 percent of SUV occupant fatalities are. \21\ The high frame 
and unstable design of SUVs makes SUV rollovers particularly likely, 
and the weak roofs and poor crash protection make them deadly when they 
do occur. SUV rollovers are dangerous no matter how you slice the data:

  <bullet> High overall death toll from SUV rollovers: SUV rollovers 
        resulted in 12,000 deaths in the U.S. in the 1990s and 
        increased from 2,064 in 2000 to 2,142 in 2001. \22\ According 
        to the NHTSA Administrator, in 2001, SUV occupants were far 
        more likely to die in fatal rollover crashes than were other 
        vehicle occupants. SUV occupant fatalities in rollover crashes 
        occurred at a rate of 9.9 per 100,000 registered vehicles, 
        compared to a rate of 3.53 for passenger cars, 4.33 for vans, 
        and 6.97 for pickup trucks. \23\

  <bullet> High SUV involvement in fatal rollovers: According to NHTSA, 
        the rate at which SUVs roll over in fatal crashes is more than 
        three times the rate of passenger cars. While passenger cars 
        roll over in fatal crashes at a rate of 3.48 per 100,000 
        registered vehicles, SUVs roll over at a rate of 11.06, pickups 
        roll over at a rate of 7.52, and vans roll over at a rate of 
        4.09. \24\

  <bullet> High rate of SUV rollover fatal crashes: While the rate of 
        passenger car occupants who died in fatal rollover crashes per 
        100,000 registered vehicles declined 9.7 percent between 1995 
        and 1999, the rate for SUV occupants declined only 1.8 percent 
        in the same time period. Critically, SUV occupant death rate in 
        rollover crashes has remained about three times that of 
        passenger car occupant deaths. \25\

    And the problem is growing. The rate of passenger car occupants who 
died in fatal rollover crashes per 100,000 registered vehicles declined 
18.5 percent between 1991 and 2000, while the rate of light truck 
occupants who died in fatal rollover crashes increased 36 percent 
between 1991 and 2000. \26\
1. The High, Boxy Design of SUVs Makes Them Prone to Roll Over, 
        Particularly in Emergency Maneuvers
    The high center of gravity of SUVs and narrow track width makes 
them unstable during emergency maneuvers, such as swerving to avoid 
another vehicle, pedestrian or curb, or during a tire blowout. Loading 
of the vehicle, which is encouraged in SUVs by the large cargo areas, 
raises the center of gravity of the vehicle, making it more dangerous 
and hard to control. Consumers unaware of these handling differences 
may drive SUVs more aggressively, yet be unable to handle the slower 
response time and longer braking distances of a light truck. In a 
rollover propensity test of the Ford Explorer by Little Rock, Arkansas, 
trial attorney Tab Turner, even an expert driver aware of the planned 
timing of the tire blowout was unable to keep the vehicle from rolling 
over.
    Although charged by Congress to prepare a rollover propensity 
minimum standard in 1991, NHTSA terminated rulemaking on the standard 
in 1994. NHTSA defended its termination by citing obsolete statistics 
on the number of SUVs in the vehicle population in the late 1980s, 
without acknowledging the growing popularity and hazards of this 
vehicle class. At that time, NHTSA promised that a consumer information 
program and numerous crashworthiness protections would be forthcoming.
    A decade and tens of millions SUVs later, in January 2001, NHTSA at 
long last published very basic information based on a static measure of 
the rollover propensity of vehicles as a part of the agency's New Car 
Assessment Program, which assesses a mere 40 or so vehicles in each 
model year. Rather than prominently displaying a vehicle's safety 
ratings next to the sticker price to help consumers make informed 
purchases, the safety information is only available on the agency's Web 
site, where fewer than 1.5 percent of consumers would even think to 
look. \27\ NHTSA claimed that its program would highlight the poor 
performers and that public pressure would force manufacturers to 
improve the rollover tendencies of vehicles.
    Yet 22 SUVs in the 2003 model year received a rollover rating of 
just two stars out of a total of five, indicating that they are very 
prone to rollover, and the Chevrolet Blazer was awarded a pathetic 
single star, the minimum handed out to any vehicle in the testing 
program. A single star or two stars, as Dr. Runge indicated, on this 
test is a failing grade. By imperiling anyone who unwittingly purchases 
one of these unstable deathtraps, these continuing low grades show the 
failure of NCAP's rollover tests to set a meaningful floor for risks 
imposed on consumers, demonstrating that the program also well deserves 
a failing grade.
    The Transportation, Recall Enhancement, Accountability and 
Documentation (TREAD) Act, passed in the wake of the Ford/Firestone 
disaster, included a requirement for a dynamic rollover consumer 
information program to be added to NCAP on the NHTSA Web site. This is 
a step in the right direction, but consumer information, for the 
reasons described above, will never be enough. NHTSA should return to 
the Congressional mandate it denied in 1994 and establish a minimum 
standard for rollover propensity. Between 1994 and 2001, 12,959 people 
have died in SUV rollovers alone, not to mention the other people 
killed or injured in other types of vehicles. \28\ No more consumers 
should be a guinea pig in this ongoing, failed experiment in market 
dynamics or should be forced to await the next Ford/Firestone debacle 
before a meaningful remedy is implemented.
2. A Safety Standard Establishing Basic Rollover Crash Protections Is 
        Sorely Needed
    Despite the unconscionably high death toll, rollovers are actually 
highly survivable crashes, because forces in the collision are far 
lower than those in many other types of highway crashes. Race car 
drivers, who wear five point belts and drive vehicles with strong crash 
protections, often walk away from severe crashes that would be deadly 
in other vehicles because of superior crashworthiness designed into 
their vehicles. This survivability means that rollovers are primarily 
dangerous due to poor vehicle design. Safety belts and seat structures 
are not made to keep occupants in place during a crash, and vehicle 
roofs are so flimsy that they crush into occupants' heads and spines, 
inflicting very serious injuries.
    These important crash protections are also missing in most SUVs, 
yet rollovers are particularly violent in this type of vehicle. The 
box-like, windowed passenger area of an SUV (called the 
``greenhouse''), protrudes into the air and in a roll hits the ground 
with more force due to its shape. Rolling ``like a box'' creates a more 
violent rollover crash upon impact with the ground, in comparison with 
the crash dynamics of passenger cars, which roll more like tubes. 
Centrifugal forces push passengers' heads towards the outside of the 
roll and into contact with the vehicle's sides and roof just as the 
vehicle impacts the ground, frequently crushing inward with deadly 
consequences.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These heightened risks distinguish SUVs from passenger cars and in 
part may account for the dramatically higher rollover fatality rates.
    In addition, the heavy bodies and engines of SUVs place greater 
pressure on the roof during a roll, making roof strength a paramount 
concern for drivers of these vehicles. Most SUV roofs are not strong 
enough to withstand the impact of a rollover crash. The current roof 
crush standard became effective in 1973 and has been revised since that 
time only for extension to vehicles with a gross vehicle weight (GVWR) 
of 6,000 pounds or less and to apply to vehicles with raised roofs. 
\29\ This weight limit has allowed manufacturers to increase the gross 
weight of SUVs and pickups over 6,000 pounds to evade the standard, 
meaning that the vehicles most in need of a strong roof are totally 
unregulated. The weight limit should be raised by Congressional action 
to 10,000 pounds to correct this egregious oversight.
    NHTSA's 1994 termination of work on a rollover propensity standard 
was followed by subsequent public statements in which the agency 
promised many crashworthiness improvements, including a stronger roof 
crush standard as well as requirements for better door latches, door 
hinges and upper side impact protection. Among these tragically broken 
promises, the roof crush standard remains far out-of-date.
    In order to ``beat'' the standard in recent years, manufacturers 
have taken the short cut of merely improving the bonding of the 
windshield to the vehicle structure, which helps the vehicle pass 
NHTSA's weak test without helping occupants, because in a crash the 
windshield is typically gone by the end of the first roll. Once the 
windshield is gone, typically one-third of the roof strength disappears 
with it, and the roof crushes.
    When roofs crush in a rollover, the cardinal rule that occupant 
space not be intruded upon is broken. The survival space for occupants 
is greatly limited or eliminated altogether, so that the heads and 
spines of occupants contact the roof. In addition, roof crush can open 
ejection portals--making windows and the windshield area very large and 
leading to ejection of occupants, which is frequently fatal. The 
current static standard tests only one side of the vehicle, failing to 
provide any indication of what will happen in a roll when the following 
side (rather than the leading side) impacts the ground. Because in a 
real-world rollover the roof is already weakened by the first impact, 
and the windshield shatters in the first roll, roofs should be tested 
under those conditions. Although NHTSA has issued a general request for 
comments over a year ago, a schedule of deadlines for the agency to 
issue a proposed and final rule is sorely needed and should be set out 
by Congress.
    What is needed is a dynamic test that will provide the basis for a 
minimum roof strength standard, or, at a minimum, an updated static 
test for both sides of the roof with the windshield removed, and both 
should be applicable to vehicles over 6,000 lbs. In addition, Congress 
should require crash protections that will protect occupants in 
rollovers, such as safety belts that tighten in a roll, advanced window 
glazing and side head protection air bags to keep ejection portals from 
opening, and air bag sensors that will deploy the air bags in a 
rollover crash.
B. Anything But Simple: The Dubious Physics of SUVs Makes Them Highly 
        Aggressive in Multiple Vehicle Crashes
    The facts about SUV aggressiveness \30\ in multiple vehicle crashes 
are horrifying. Because of the height, weight and structural rigidity 
of SUVs, when they collide frontally with passenger cars, drivers of 
passenger cars are over four times more likely to die as the drivers of 
the SUV. And the destruction in a side impact is even more shocking. 
When an SUV hits the near side of a passenger car, the driver of the 
passenger car is over 16 times more likely to die than the driver of 
the SUV. \31\
    In front-end (``head-on'') collisions with passenger cars, the 
higher SUV will ``run up'' the front of the car. In side impact 
collisions (``broadside'' or ``T-bone''), the SUV will override the 
passenger car door, thus invading the occupant compartment and posing a 
much greater risk of injury to the driver and passengers, as compared 
to a comparable collision between two passenger cars. Light trucks, a 
category including SUVs, striking a passenger car in the side are more 
likely to intrude at least six inches into the occupant compartment, 
more likely to kill, and more likely to override the door of the target 
car, than is a passenger car striking another passenger car. \32\

           Driver Fatality Ratios in Two-Vehicle Crashes \33\
------------------------------------------------------------------------
                                                          Ratio of other
                                                          vehicle driver
       Vehicles Involved in Crash          Type of Crash   fatalities to
                                                           passenger car
                                                            fatalities
------------------------------------------------------------------------
Passenger Car: Passenger Car                     Frontal            1:1
Full Size Van: Passenger Car                     Frontal            1:6
Full Size Pickup: Passenger Car                  Frontal          1:6.2
SUV: Passenger Car                               Frontal          1:4.3
Minivan: Passenger Car                           Frontal          1:2.6
Compact Pickup: Passenger Car                    Frontal          1:2.6
Passenger Car striking Passenger Car         Side impact          1:7.8
Full Size Pickup striking Passenger Car      Side impact         1:26.1
SUV striking Passenger Car                   Side impact         1:16.3
------------------------------------------------------------------------

    The problem of SUV incompatibility is a matter of design, and not 
merely weight. For every million registered cars weighing between 3,500 
and 3,900 pounds, 45 deaths occur in vehicles struck by these cars. For 
every million registered sport utility vehicles in the same weight 
class, 76 deaths occur in vehicles struck by the SUV. \34\ Other 
studies have confirmed this result, finding that even cars in the same 
weight grouping as SUV are far less dangerous for other vehicles on the 
road. \35\
    Ross and Wenzel paint an even more sophisticated picture, by 
pointing out that that, while SUVs and pickup trucks are the most 
aggressive vehicles as a class, particular designs of make and model 
vehicles within these categories are much better or worse than others.

Ross and Wenzel's Top 20 Most Risky Vehicles (by vehicle make, 1997-2001
                               model year)
------------------------------------------------------------------------
                                                                Combined
   Rank in list        Type of Vehicle       Make and Model       risk
------------------------------------------------------------------------
1                   Pickup Truck          Ford F-Series              238
2                   Pickup Truck          Dodge Ram                  225
3                   Pickup Truck          Chevrolet S-10             216
4                   Pickup Truck          Chevrolet C/K              203
                                           series
5                   Subcompact Car        Pontiac Sunfire            202
6                   Subcompact Car        Dodge Neon                 199
7                   Pickup Truck          Ford Ranger                196
8                   SUV                   Jeep Wrangler 194
9                   Pickup Truck          GMC C/K- series            193
10                  Subcompact Car        Chevrolet Cavalier         186
11                  Pickup Truck          Dodge Dakota               184
12                  SUV                   Chevrolet Blazer           172
13                  Pickup Truck          Toyota Tacoma              171
14                  Compact Car           Pontiac Grand Am           157
15                  SUV                   Ford Explorer              148
16                  Large Car             Lincoln Town Car           147
17                  Midsize Car           Dodge Stratus              143
18                  SUV                   Chevrolet Tahoe            141
19                  SUV                   Toyota 4Runner             137
20                  Large Car             Buick LeSabre              133
------------------------------------------------------------------------
Combined risk is the driver fatality risk and risk to other drivers per
  million vehicles sold

    As this suggests, improvements in the compatibility of vehicle 
design could save many lives. Researchers have found that the light 
truck bumpers--either alone or in combination with the front grille or 
front hood--were the component most often associated with passenger car 
damage. \36\ Another study for NHTSA revealed that hood profile--the 
height of the hood of a light truck--was the most important factor in 
the aggressiveness of a light truck. In this study of twelve 
collisions, the researchers found that a lowered profile (a tapered 
hood) for the light truck reduced the probability of serious injury to 
occupants of the struck car from 97 percent to 11 percent. \37\
    Some manufacturers are already applying technology to reduce the 
carnage. Mercedes-Benz has designed the bumper of its SUV to be the 
same height as its C-Class compact luxury car, to reduce the 
probability that the front of its SUV will invade the occupant 
compartment of passenger cars in a side impact crash. Toyota has 
designed its Lexus LX 470 SUV with an ``active height control system,'' 
which lowers the ride height of the SUV by as much as four inches if it 
is driven at high speeds. \38\ By adding a lower cross-member bar to 
the vehicle below the front bumper, the Volvo's new XC90 SUV better 
engages the structure of small vehicles, increasing its crash 
compatibility. And to better protect pedestrians and bicyclists, the 
rounded front of the XC90 is smooth and the engine is positioned low in 
relation to the hood, allowing the hood to dissipate crash forces 
rather than transferring them to the person hit. \39\
    These kinds of changes should be the norm, rather than the 
exception. Without regulation, they will remain the province of luxury 
manufacturers, yet these designs show what is feasible if a socially 
responsible attitude toward the safety of others is a priority. NHTSA 
has been collecting crash profile information as a part of its New Car 
Assessment Program for the past decade, yet it has never used this 
information to suggest regulatory changes or propose an aggressivity 
reduction standard. It is far past time to act on this information and 
to establish basic standards to limit vehicular violence by urban 
assault vehicles.
III. While the Worst Risks Remain Unregulated, SUVs Exploit Other Key 
        Loopholes
    SUVs provide a case study in industry muscle overpowering 
government. Sailing through loophole after loophole, the vehicles 
exploit numerous omissions and special favors, from the tax code to 
fuel economy rules and safety protections. In addition to the extra 
costs and boondoggles listed below, SUVs also inflict needless harm on 
the public health, emitting smog-forming, greenhouse gases that cause 
respiratory maladies and global warming.
    A Legacy of Loopholes: SUVs are Regulatory Renegades

  <bullet> Emissions Evasion: In 1997, the auto industry brokered a 
        voluntary agreement with the EPA that protected Detroit's 
        largest and most profitable SUVs from having to make any 
        pollution improvements until 2004. In addition to befouling the 
        air with high levels of smog-forming pollutants and greenhouse 
        gases, the emissions exemption also encouraged an upsizing of 
        SUVs above the 6,000 pound threshold, helping to make large 
        SUVs the most rapidly expanding market segment. In 2004, a new 
        emissions program is scheduled to take effect that will impose 
        new fleet requirements on average emissions.

  <bullet> Fuel Economy: A Twisted Tale of Two Vehicle Classes: In 
        1978, when Congress passed the first fuel economy law, 
        instructing NHTSA to set the Corporate Average Fuel Economy 
        (CAFE) standards for passenger cars at 27.5 miles per gallon 
        (mpg) it told NHTSA to set standards separately for light 
        trucks (now set at 20.7 mpg). In designing these categories, 
        NHTSA never imagined that trucks would one day morph into 
        popular passenger vehicles, constituting one-half of all new 
        vehicles sold. Furthermore, the light truck standard applies 
        only to vehicles under 8,500 pounds. Consequently, automobile 
        companies push vehicles above the upper limit and game the 
        rules defining cars and light trucks to artificially deflate 
        their CAFE.

  <bullet> Subsidies and Tax Breaks for SUVs Rob Federal Coffers and 
        the Public

        Extravagance at a High Price for the Public: The luxury SUV 
        giveaway began in the 1980s as a tax break to enable small 
        farmers and construction companies to deduct the cost of their 
        pickup trucks as a business expense. \40\ A business that 
        purchases one of the 38 different SUVs that qualify can 
        immediately deduct $25,000 from the sticker price, and the Bush 
        stimulus package of 2002 allots another 30 percent depreciation 
        bonus on top of a 20 percent deduction over five years, as well 
        as an existing exemption from luxury surcharge taxes. Instead 
        of closing this sinkhole for public revenues, the Bush 
        administration is seeking to raise the initial deduction to an 
        incredible $75,000, a figure that would effectively cover the 
        entire cost of a large, luxury SUV. \41\ Because the loophole 
        applies only to ``light trucks'' exceeding 6,000 pounds, some 
        small business owners have admitted that the tax breaks have 
        caused them to purchase large SUVs when they would otherwise 
        have bought smaller vehicles. \42\ According to Taxpayers for 
        Common Sense, the light-truck loophole costs the federal 
        government between $840 million and $986 million yearly. 
        Thankfully, efforts to close this egregious waste of tax 
        dollars and safety threat have been made in both the House of 
        Representatives and the Senate. Sen. Barbara Boxer (D.-CA) 
        introduced the ``SUV Business Tax Loophole Closure Act,'' S. 
        265, and Rep. Anna Eshoo (D.-CA) offered the same title as H.R. 
        727 for consideration by the House.

        ``Light Truck'' Gas Guzzlers Need Not Pay: When adopted in 
        1978, the gas guzzler tax sought to penalize individuals who 
        consume more than their fair share of gasoline. Legislators 
        chose not to subject ``light trucks'' to the fine because these 
        vehicles were used primarily for work purposes and made up only 
        a small percentage of the vehicle fleet. Today, SUVs are 
        flooding the market place, draining oil reserves, and spoiling 
        the environment. Exempting SUVs from a gas guzzler penalty 
        violates legislative intent and effectively rewards consumers 
        for driving socially irresponsible vehicles.

  <bullet> Designed for Cars, Safety Standards Don't Adequately Protect 
        SUV Occupants

        Holes in Side Impact Protection: Unlike passenger cars, a 
        loophole in the federal safety standards requires SUVs over 
        6,000 pounds to meet only a weak, outdated side impact crash 
        test, but not the more effective moving barrier test. 
        Consequently, many larger SUVs need not offer reinforced side 
        door crash protection.

        Roof Strength Weak on Top: Despite their high risk of rollover, 
        SUVs over 6,000 pounds need not meet any minimum crash 
        protection standard for roof strength. In a rollover crash, 
        roofs of SUVs typically crush into their occupants' heads, 
        inflicting serious injury and death.

        Bumper Height and Strength Encourage High Costs and 
        Aggressivity: In order to minimize damage in low speed crashes 
        and to ensure crash compatibility between vehicles, passenger 
        cars must meet very weak standards for bumper strength and 
        standards for height, none of which apply to SUVs. 
        Consequently, crashes involving SUVs result in more severe 
        property damage and higher insurance payouts than passenger 
        cars. The lack of bumper height requirements creates a menace 
        to other vehicles on the road.

        Missing Child Restraint Anchorage Systems: Although marketed as 
        family vehicles, the largest SUVs (above 8,500 lbs.), unlike 
        passenger cars, are not required to install anchorage systems 
        to accommodate child restraints.

        Brake Light Requirements Dimmed Down for SUVs: Unlike passenger 
        cars, many SUVs have lower conspicuity because they need not 
        have a center high-mounted stop lamp.

        SUV Manufacturers Evade Air Bag Safeguards That Applied to 
        Cars: In 1997, auto manufacturers successfully convinced NHTSA 
        to allow them to reduce the test requirements for air bags, 
        changing the test from a 30 mph barrier test to a less 
        demanding sled test. Having never been required to comply with 
        the protective standards applicable to passenger cars, 
        manufacturers wished to avoid doing the vehicle re-design for 
        light trucks that would make them, overall, more energy 
        absorbing and reduce the need for a more aggressive air bag. In 
        its May 2000 recent final rule on advanced air bags, NHTSA 
        continued its bad habit of letting them off the hook. Instead 
        of asking SUV makers to do more, NHTSA reduced the 
        protectiveness of the requirements for all vehicles, including 
        cars and light trucks, by lowering the common standard to a 25 
        mph test.

        SUV and Light Truck Tire Performance Is a Safety Blowout: Since 
        the government established separate performance standards for 
        passenger car tires and light truck tires in 1968, light truck 
        tires have not been held to the same high speed and endurance 
        requirements as passenger car tires, placing consumers at risk 
        of dangerous blowouts. As evidenced by the Ford-Firestone 
        debacle, light truck tire failures have resulted in countless 
        deaths and injuries. A new standard is pending that will apply 
        to all vehicles under 10,000 lbs., but the agency has yet to 
        issue the final rule.

        SUV Braking Distances Historically Stopped Short on Safety: 
        Government safety standards for minimum braking performance 
        originally allotted longer braking distances for SUVs and light 
        trucks than for passenger cars. Because they are typically 
        built on truck underbodies, many SUVs lack independent rear 
        suspensions and are equipped with inferior braking systems that 
        result in poor emergency handling. In one test on wet pavement 
        in the late 1990s, fully loaded cars like the Cadillac DeVille 
        and Toyota Camry had stopping distances between 164 and 174 
        feet, while Ford's Expedition SUV required a lengthy 220 feet 
        to come to a halt. \43\ New braking performance requirements 
        just took effect this model year, but the longer distances will 
        still plague millions of SUVs currently on the road.

IV. The Market for SUVs Reflects the Impact of Advertising Rather Than 
        a Need for Vehicles With the Capabilities of SUVs
    Although manufacturers claim consumer choice drives the light truck 
market, they spend billions each year to both create and enlarge these 
consumer preferences. The auto industry spends more per year on 
advertising than any other industry in the United States, and more than 
the next three biggest spenders (financial services, 
telecommunications, and national restaurant chains) combined. \44\ SUV 
advertising, in particular, has grown to exorbitant levels in the past 
decade, exceeding in percentages even the growth of SUV sales. In 1990, 
manufacturers spent $172.5 million on SUV advertising, and in 2000 they 
spent an incredible $1.51 billion. Over the last decade, manufacturers 
spent over $9 billion to advertise their highly profitable SUV. \45\
    Automakers have made a huge financial investment in an attempt to 
persuade consumers to purchase SUVs. Yet the argument that the market 
for SUVs somehow correlates to a real economic demand would be 
laughable if it were not so frequently rehearsed by automakers. Despite 
being marketed to consumers as rugged, go-anywhere vehicles, only a 
small percentage of SUVs are actually used for their off-road and 
towing abilities. \46\ SUVs are, instead, an expensive fantasy packaged 
up for America by Detroit--an ``off-road luxury'' vehicle marketed 
primarily to suburbanites with little need for these features and 
little awareness of the safety risks. Detroit's fantastical images of 
trucks marauding through empty mountainscapes bear so little 
resemblance to the vehicle's typical use that it is patently 
implausible that the SUV market reflects a true social need.
V. Voluntary Standards Are No Solution
    ``The promotion of motor vehicle safety through voluntary standards 
has largely failed. The unconditional imposition of mandatory standards 
at the earliest practicable date is the only course commensurate with 
the highway death and injury toll.''--Committee Report on S. 3005, the 
Traffic Safety Act of 1966 \47\
    On February 13, 2003, the Alliance of Automobile Manufacturers (the 
Alliance) and the IIHS wrote a letter to Dr. Runge acknowledging the 
need to improve SUV frontto- side and front-to-front crash protection 
to address vehicle incompatibility and stiffness, or aggressivity. This 
is the first industry-wide acknowledgment of such deficiencies in SUVs 
and other light trucks.
    Yet this long-overdue admission appears mainly calculated to 
convince federal regulators and others that a voluntary effort to 
improve vehicles should replace any new move to regulate the safety of 
SUVs. Buying into this obvious delaying tactic would be a grave 
mistake. The vague promises and half-hearted inquiries (``possible 
changes . . . need to be explored'') described in the letter are no 
substitute for a public process resulting in mandatory safety 
improvements required of the entire light truck fleet.
    Automakers have long asked legislators to ``trust them'' to improve 
safety, an argument Congress specifically considered and rejected when 
it enacted the National Traffic and Motor Vehicle Safety Act in 1966, 
the Act giving rise to NHTSA. In lobbying against the Act, auto 
manufacturers tried to sell Congress on the concept of voluntary 
standards. The plausibility of their proposal was roundly criticized by 
Congress and ultimately denied.
    Legislators were right. The historical path of automakers' 
voluntary efforts is paved with broken promises. From General Motors' 
(GM's) promises in 1970 to voluntarily put air bags in all its vehicles 
by the mid-l970s (GM installed just 10,000 in model year 1974 and 1975 
vehicles and then discontinued the program), to Ford, Daimler/Chrysler 
and GM's recent recantation of their widely publicized 2001 promises to 
voluntarily improve the fuel economy of their light trucks by 25 
percent (withdrawn after the threat of Congressional action on fuel 
economy receded), ``voluntary'' is often just another name for the 
manufacturers' tactical whims.
    The Alliance/IIHS letter suggests that ``one possible result could 
be development of voluntary standards, such as those previously 
developed for side air bags.'' The limited inquiry conducted by the 
side impact air bag working group (an industry group working only on 
injury prevention) is an extremely poor example on which to model the 
crucial SUV safety standards that are needed. Instead, the side impact 
air bag group is representative of many problems that infest a 
voluntary alternative to regulation.
    This group has thus far been plagued by the following serious 
drawbacks, among others:

  <bullet> The narrowness of the group's focus on injury prevention 
        from the air bags (mitigating the down-side), rather than 
        injury reduction in all passengers (exploring the up-side), has 
        accomplished little and yet has precluded broader efforts to 
        develop a requirement for side impact head protection air bags;

  <bullet> Real-world data on the crashes involving these air bags is 
        scarce due to the lack of a requirement for their installation 
        and the resulting low fleet penetration;

  <bullet> Core sections of industry group meetings are closed to the 
        public, and policy analysts in attendance from consumer groups 
        have been asked to leave mid-meeting;

  <bullet> Some manufacturers, including General Motors, have since 
        ceased installing side air bags in some models, and the lack of 
        a safety standard enables this capriciousness.

    In general, a promise to develop voluntary standards is merely 
grounds for obfuscation, delay, secret meetings, and deniability. A 
significant body of academic research has repeatedly shown that 
voluntary standards fail, for the following reasons:

  <bullet> Closed, secret processes and meetings: The public is shut 
        out of the development of the proposal, which instead is 
        designed in secret by industry working groups;

  <bullet> Lack of procedural and judicial oversight: Industry group 
        decision makers are not subject to oversight, compliance with 
        statutory requirements, and judicial review of decisions;

  <bullet> Weak and non-binding results: Proposals are invariably weak 
        because they represent the lowest common denominator among 
        companies looking out for their own costs and product plans, 
        and there is no obligation to install technology in compliance 
        with the group standard, meaning that companies can change 
        their minds at will and decide to withdraw any protection 
        offered by the new standard;

  <bullet> No accountability: The public has no means to secure an 
        independent evaluation of the quality of the industry's 
        voluntary tests or standards;

  <bullet> No transparency: The public receives no verification that a 
        particular vehicle actually complies with the industry's 
        voluntary tests, as they do with government standards that are 
        subject to public compliance testing and enforcement, and there 
        is no vehicle sticker at the point-of-sale to indicate that a 
        standard is met;

  <bullet> No baseline for safety: High-income purchasers that can 
        afford safety extras may be protected, but low-income 
        purchasers remain vulnerable to cost-based decisions by 
        manufacturers.

    As the Committee Report on the Traffic Safety Act of 1966 observed 
in rejecting the option of standards developed on a voluntary basis, 
such as through the Society of Automotive Engineers (SAE):

        These SAE standards are the product of a committee consensus, 
        subject to a single manufacturer's veto, while affording no 
        consumer or user representation: Compliance is voluntary. There 
        exist no procedures to compel their adoption, monitor their 
        use, or evaluate their effectiveness.

    A voluntary standards program is a particularly inapt solution 
where, as here, manufacturers have long been on notice of the serious 
safety hazards in these vehicles and where the externalities of their 
decisions to produce ever-more aggressive and deadly vehicles are 
imposing needless suffering and costs on all of us.
VI. Better Safeguards Are Needed to Protect the Public
    In addition to the shocking toll in lives, devastating injuries, 
and unnecessary suffering, the monetary costs of our failure to 
regulate SUVs is staggering. NHTSA estimates the ``comprehensive cost'' 
\48\ of each motor vehicle crash fatality in FY 2000 at approximately 
$3.4 million. Without adjusting for inflation, the cost to society of 
SUV rollover fatalities in FY 2001 alone cost the United States 
approximately $7.3 billion, and has totaled a shocking 44 billion since 
1994, when NHTSA terminated its rulemaking on a minimum propensity 
standard. \49\ The 2,000 unnecessary deaths resulting from the 
aggressivity of light trucks deaths cost the U.S. economy approximately 
$6.8 billion per year. \50\
    Congress could put a halt to the carnage, the human suffering, and 
the incredible waste, by requiring simple, long-overdue measures to 
address the safety of SUVs, light trucks and other vehicles, up to 
10,000 lbs.:

        1) NHTSA should develop and implement a minimum rollover 
        propensity standard;

        2) NHTSA should issue a requirement for basic rollover 
        crashworthiness protections, including requirements for:

          a. Safety belts that employ sensors which pretension in a 
        rollover crash (currently belts remain slack in a rollover from 
        the lack of pressure);

          b. Side impact head and frontal air bags with sensors that 
        trigger inflation in a rollover crash;

          c. A dynamic roof crush standard, and, in the interim, a 
        revised static standard which test both sides of the roof with 
        the windshield removed;

          d. Roof structures equipped with interior, energy absorbing 
        materials to reduce damage to the occupant should any body part 
        of the occupant contact the roof;

          e. Advanced window glazing for impact protection in side 
        windows; and

          f. Improved seat structure and belt placement to contain and 
        protect occupants by integrating safety belts into the seat 
        structure.

        3) NHTSA should issue aggressivity reduction and vehicle 
        compatibility standards;

        4) Close the luxury tax loophole as it applies to SUVs;

        5) NHTSA should improve the safety of 15-passenger vans, which 
        are plagued by many of the same rollover problems as SUVs are, 
        such as in legislation recommended by Sen. Olympia Snowe (R-
        ME);

        6) Improving funding for NHTSA to develop regulatory standards 
        and track realworld crash data;

        7) Placing vehicle safety information on stickers at the point-
        of-sale and changing the NCAP program to grades that indicate 
        success and failure rather than unclear results with stars;

        8) Improving the fuel economy of light trucks, which the 
        National Academy of Sciences found would accrue safety benefits 
        if improvements were targeted at vehicles weighing more than 
        4,000 lbs.

    It is far less expensive for manufacturers to undertake a 
comprehensive re-design of vehicles for safety and fuel economy at the 
same time, as was the case when the initial fuel economy standards were 
targeted for the same time-period as new occupant protection 
requirements. Therefore, Congress should ask manufacturers to bring 
their vehicle fleets into this century by upgrading the vehicles' 
safety and fuel economy in one combined design campaign.
    These eight crucial changes would transform American highways by 
realizing the promise of the safety program first envisioned in 1966--
saving countless lives, improving the quality of vehicles sold in 
America, and making the United States once again a leader in automotive 
safety.
Endnotes
    1. See Bradsher, Keith, High and Mighty: SUVs--The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 193 (referring 
to Joksch, Hans C., ``Vehicle Design versus Aggressivity,'' (Apr. 
2000), DOT HS 809 194, at 40-42).
    2. See Id. at 32.
    3. See National Highway Traffic Safety Administration (NHTSA), 2001 
Motor Vehicle Crash Data from FARS and GES, at 17 (the rate of 
passenger cars involved in fatal crashes per 100,000 registered 
passenger cars declined by 15.1 percent between 1995 and 2001 (from a 
rate of 25.11 to a rate of 21.31), the rate of light truck involvement 
only declined by 6.8 percent during the same time (from a rate of 28.13 
to a rate of 26.23)).
    4. National Center for Statistics and Analysis (NCSA), 
Characteristics of Fatal Rollover Crashes, DOT HS 809 438, at 22 (Apr. 
2002), at 13 (emphasis added).
    5. See Bradsher, Keith. ``Light Trucks Will Get Designs That Are 
Safer, Official Says,'' New York Times, June 2, 1998 quoting former 
NHTSA Administrator Dr. Ricardo Martinez.
    6. See Joksch, Hans C., ``Vehicle Design versus Aggressivity,'' 
April 2002 at 41; Further calculations contained in an electronic mail 
communications between Public Citizen and safety researcher Hans Joksch 
stated that: ``In 1996, 890 car occupants died in collisions with SUVs. 
If the risk in collisions with cars of the same weight had been half as 
high, as estimated at that time, 445 deaths would not have occurred if 
SUVs had been replaced by cars of the same weight.'' Email from Hans 
Joksch to Laura MacCleery of Public Citizen, on February 24, 2003 (on 
file at Public Citizen).
    7. Cloud, John, ``Why The SUV Is All The Rage,'' Time Magazine, 
Feb. 24, 2003; See also NCSA, Characteristics of Fatal Rollover 
Crashes, DOT HS 809 438, at 22 (Apr. 2002), (In 1999, there were 16.44 
passenger car deaths per 100,000 registered passenger cars compared to 
17.78 SUV deaths per 100,000 registered SUVs.).
    8. All four figures use curb weight. Curb weight is the weight of a 
vehicle that is ready to drive, with all fluid levels topped up and a 
full tank of gas, but without occupants or cargo.
    9. Ross, Mark, Wenzel, Tom, ``Losing Weight to Save Lives,'' 
prepared for the Commission on Energy Policy, January 29, 2003.
    10. See Bradsher, Keith, High and Mighty: SUVs- The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 449, footnote 13 
(Leaving aside SUVs and considering just the number of drivers killed 
per 5,000 crashes, in which a large car hits another car of any size, 
an average of 2.2 drivers die in large cars and 5.5 drivers die in the 
other cars that were struck. Together these numbers render a total of 
7.7 deaths per 5,000 crashes. Because the large cars are heavier than 
most of the cars they hit, the drivers of the large cars tend to fare 
better. When looking at the crashes involving Explorers, on average 
only 1.2 Explorer drivers die when involved in the same number of 
collisions with cars. Compared to the 2.2 drivers who died in the large 
cars, the Explorers actually save a life. However this is misleading 
because, when hit by Explorers instead of large cars, the death rate 
for drivers of other cars rises dramatically, doubling to 11 deaths. 
Therefore, on average 5.5 extra driver deaths occur in the struck cars. 
The combined death rate for drivers on both sides of the collision has 
now risen to 12.2 for collisions involving Explorers, compared with 7.7 
when there were just large cars hitting the other cars.).
    11. Insurance Institute for Highway Safety, ``Fatality Facts: 
Passenger Vehicles as of November 2002,'' (Feb. 14, 2003).
    12. See, National Center for Statistics and Analysis, 
Characteristics of Rollover Crashes, DOT HS 809 438 (April 2002), at 
22.
    13. See Joksch, Hans C., ``Vehicle Design versus Aggressivity,'' 
April 2002 at 41; Further calculations contained in an electronic mail 
communications between Public Citizen and safety researcher Hans Joksch 
stated that: ``In 1996, 890 car occupants died in collisions with SUVs. 
If the risk in collisions with cars of the same weight had been half as 
high, as estimated at that time, 445 deaths would not have occurred if 
SUVs had been replaced by cars of the same weight.'' Email from Hans 
Joksch to Laura MacCleery of Public Citizen, on February 24, 2003 (on 
file at Public Citizen).
    14. See Ross, Mark, Wenzel, Tom, ``Losing Weight to Save Lives,'' 
prepared for the Commission on Energy Policy, January 29, 2003.
    15. Id. 22
    16. Greene, David L., ``Fuel Economy, Weight and Safety: Its What 
you Think You Know, That Just Isn't So,'' Presentation to Automotive 
Composites Conference, Society of Plastics Engineers, Detroit, 
Michigan, September 19, 2001, at 12.
    17. Id. at 12.
    18. See NCSA, Characteristics of Rollover Crashes, DOT HS 809 438, 
(Apr. 2002), at 34 and 37 (In fatal rollover crashes, fifty-three 
percent of passenger car drivers were speeding compared with 39 percent 
of SUV drivers. And speed is an important factor in the fatality of 
rollover crashes; in 2001; nearly three quarters of all fatal rollovers 
took place on roads where the speed limit was 55 miles per hour or 
higher. Furthermore, while passenger car and SUV drivers were equally 
likely to have a 0.01 to 0.09 Blood Alcohol Concentration when getting 
into a fatal rollover crash, 39 percent of passenger car drivers were 
at 0.10 or over while only 27 percent of SUV drivers were (0.08 is the 
legal level for intoxication)).
    19. Id. at 14.
    20. Id. at 3.
    21. Jeffrey W. Runge, M.D., NHTSA Administrator, ``Meeting the 
Safety Challenge'' at Automotive News World Congress, Dearborn, 
Michigan, Jan. 14, 2003.
    22. See Bradsher, Keith, High and Mighty: SUVs- The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 164.
    23. Jeffrey W. Runge, M.D., NHTSA Administrator, ``Meeting the 
Safety Challenge'' at the Automotive News World Congress, Dearborn, 
Michigan, Jan. 14, 2003.
    24. See NCSA, Characteristics of Rollover Crashes, DOT HS 809 438, 
(Apr. 2002) at 21.
    25. Id. at 14 and 20; See also ``Registration Data for 1975-2001: 
Data Source'' FHWA and Polk,'' provided by a NCSA researcher to Public 
Citizen on Feb. 6, 2003, (the rate of passenger car occupants who died 
in fatal rollover crashes declined 9.7 percent between 1995 and 1999 
(from 4.12 to 3.72 deaths per 100,000 registered vehicles), the rate 
for SUV occupants only declined 1.8 percent in the same time period 
(from 11.38 to 11.17 deaths per 100,000 registered vehicles.).
    26. See NCSA, Characteristics of Rollover Crashes, DOT HS 809 438, 
(Apr. 2002), at 14 and 20; See also ``Registration Data for 1975-2001: 
Data Source'' FHWA and Polk'' provided by a NCSA researcher to Public 
Citizen on Feb. 6, 2003, (The rate of passenger car occupants who died 
in fatal rollover crashes declined 18.5 percent between 1991 and 2000 
(from 4.32 to 3.52 deaths per 100,000 registered vehicles) while the 
rate of light truck occupants who died in fatal rollover crashes 
increased 36 percent between 1991and 2000 (from 7.55 to 10.27 deaths 
per 100,000 registered vehicles.).
    27. See NHTSA, Status Report for Rollover Prevention and Injury 
Mitigation, Docket No. 91-68, at 11 (May 1996), (NHTSA's own research 
shows that only about 1.5 percent of consumers would consider 
researching auto safety issues by contacting a federal agency, while 
about half would think to request safety information from auto dealers. 
The report indicates that a 1995 Customer Satisfaction Survey reflected 
that less than 50 percent of the people surveyed would go to the auto 
dealer for information. Seventy-six percent of the people polled 
considered safety to be an important factor. However, less than 50 
percent of the total population polled said they would request 
information from the dealer. Only 60 out of 4,000 people said they 
would contact a federal agency for auto safety information.)
    28. Advocates for Highway and Auto Safety, Analysis of NHTSA SUV 
Rollover data.
    29. The current standard requires a static test, in which the 
platen on the vehicle roof corner, above the A pillar, must bear one 
and a half times the vehicle's weight with the windshield intact.
    30. ``Aggressivity'' of a vehicle is generally defined as the risk 
of fatal or serious injury to occupants of other vehicles with which it 
might collide. See, Joksch, Hans, et al., Vehicle Aggressivity: Fleet 
Characterization Using Traffic Collision Data, U.S.Dept. of Tran., 
N.H.T.S.A., DOT HS 808-679 (Feb. 1998).
    31. Jeffrey W. Runge, M.D., NHTSA Administrator, ``Meeting the 
Safety Challenge'' at the Automotive News World Congress, Dearborn, 
Michigan, Jan. 14, 2003.
    32. Terhune, K.W., Ranney, T.A., et al., ``Study of Light Truck 
Aggressivity,'' Calspan Field Services, Inc. (Feb. 1984).
    33. Jeffrey W. Runge, M.D., NHTSA Administrator, ``Meeting the 
Safety Challenge'' at the Automotive News World Congress, Dearborn, 
Michigan, Jan. 14, 2003.
    34. See Insurance Institute for Highway Safety, Status Report, Vol. 
43, No. 9, Oct. 30, 1999, at 3.
    35. See Joksch, Hans C., ``Vehicle Design versus Aggressivity,'' 
April 2002 at 41; Further calculations contained in an electronic mail 
communications between Public Citizen and safety researcher Hans Joksch 
stated that: ``In 1996, 890 car occupants died in collisions with SUVs. 
If the risk in collisions with cars of the same weight had been half as 
high, as estimated at that time, 445 deaths would not have occurred if 
SUVs had been replaced by cars of the same weight.'' Email from Hans 
Joksch to Laura MacCleery of Public Citizen, on February 24, 2003 (on 
file at Public Citizen).
    36. Terhune, K.W., Ranney, T.A., et al., ``Study of Light Truck 
Aggressivity,'' Calspan Field Services, Inc. (Feb. 1984).
    37. Monk, M.W., et al., ``Striking Vehicle Aggressiveness Factors 
for Side Impacts,'' U.S. Dept. of Trans., NHTSA, NAD-52 (January 1986).
    38. Gardner, Greg, et al., ``Fine-Tuning the Laws of Physics,'' 
Ward's Auto World vol. 34, no. 4 (April 1998).
    39. Lamm, John, ``The Safety Story,'' Road & Track Guide to the 
Volvo XC90, 2002, at 48.
    40. See http://www.taxpayer.net/TCS/whitepapers/SUVtaxbreak.htm#10 
(visited February 20, 2003), describing Section 280F(d)(5) of the 
Internal Revenue Code of 1986.
    41. McCarthy, Sheryl, ``Eliminate SUV Tax Giveaway Which Helps Rich 
and Busts Budget,'' The Detroit News, Feb. 14, 2003.
    42. Ball, Jeffrey, Lundegaard, Karen, ``Quirk in Law Lets Some SUV 
Drivers Take Big Deduction,'' The Wall Street Journal, Dec. 19, 2002.
    43. See Bradsher, Keith, High and Mighty: SUVs- The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 138.
    43. NCSA, Characteristics of Rollover Crashes, April 2002, at 3.
    44. See Bradsher, Keith, High and Mighty: SUVs- The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 112.
    45. Id. at 112. (Financial analysts estimate profits of $12,000 for 
Ford's Expedition SUV and $15,000 for the Ford Navigator.) Id. at 84 
and 85.
    46. See Bradsher, Keith, High and Mighty: SUVs- The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 112 (``Auto 
industry surveys show that one in six SUV owners us their vehicles at 
least once a year for towing, especially boats. Some owners, no more 
than one in 10 and perhaps fewer than one in 100, also use their SUVs 
for off-road driving.'').
    47. Committee Report on S. 3005, The Traffic Safety Act of 1966, 
June 23, 1966, at 271, 273-74.
    48. See Blincoe, Lawrence J., et al, ``The Economic Impact of Motor 
Vehicle Crashes 2002,'' May, 2002, at Appendix A, DOT HS 809 446, (A 
comprehensive cost estimate combines both economic cost and values for 
``intangible'' consequences, by estimating quality-adjusted life years 
lost. NHTSA estimates that the value of fatal risk reduction lies in 
the range of $2 to $7 million per life saved.).
    49. See Id to reach the sum provided, (The death toll from SUV 
rollovers was 2,142 in 2001, according to NHTSA crash statistics. This 
figure is multiplied by the cost numbers used by NHTSA in its last 
annual report.).
    50. Id.
  Appendix A--Blaming Consumers for SUV Dangers Is Wrong on the Facts
    The Alliance of Automobile Manufacturers has recently highlighted 
what it calls the ``shared responsibility'' for safety. But the facts 
show that it is manufacturers' shoddy designs, and not consumer 
misbehavior, that is to blame for the elevated deaths in SUV crashes.
    In fact, federal government statistics show that the behavior of 
SUV drivers is actually slightly better than that of passenger car 
drivers. SUV occupants have higher levels of seatbelt use, and lower 
levels of speeding and drinking while driving, than do occupants of 
passenger cars. Its unclear what more Detroit would have consumers do.
SUV occupants are more likely that occupants of passenger cars to wear 
        their seatbelts.
  <bullet> In 2002, SUV and van occupants were observed by federal 
        researchers to be wearing their belts 78 percent of the time, a 
        rate slightly higher than the 77 percent of passenger car 
        occupants who were belted.

  <bullet> The rate at which SUV and van occupant belt use is growing 
        is faster than the rate for passenger cars--between the fall of 
        1998 and June of 2002, belt use in SUVs and vans increased 11.4 
        percent while belt use in passenger cars only increased 8.5 
        percent.
        Source: National Center Statistics and Analysis, National 
        Highway Traffic Safety Administration, Safety Belt and Helmet 
        Use in 2002--Overall Results, Sept. 2002, at 8.
SUV drivers are also less likely to speed in a fatal rollover crash.
  <bullet> Fifty-three percent of passenger car drivers were speeding 
        when they got into fatal single-vehicle rollover crashes, while 
        39 percent of SUV drivers were.

  <bullet> Speed is an important factor in the fatality of rollover 
        crashes. In 2001, nearly three quarters of all fatal rollovers 
        took place where the speed limit was 55 miles per hour or 
        higher. Yet rollover deaths in SUVs remain disastrously high. 
        Source: National Highway Traffic Safety Administration, 
        Characteristics of Fatal Rollover Crashes, DOT HS 809 438, 
        April 2002, at 34.
SUV drivers are less likely to be drunk when they get involved in a 
        fatal rollover.
  <bullet> Drivers of SUVs who were involved in fatal rollover crashes 
        were less likely to have a high positive Blood Alcohol 
        Concentration than were drivers of passenger cars. Overall, 39 
        percent of passenger car drivers had a 0.10 BAC or more in a 
        fatal rollovers while 27 percent of SUV drivers did.
        Source: National Highway Traffic Safety Administration, 
        Characteristics of Fatal Rollover Crashes, DOT HS 809 438, 
        April 2002, at 37.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
     Appendix D--Industry Falsehoods and Obstruction Have Delayed 
 Development of Meaningful Rollover Crash Protections for Thirty Years
GM Lied to NHTSA About the Need To Test Both Sides of Car Roofs
    On January 6, 1971, NHTSA proposed a roof intrusion protection rule 
that would test both front corners of the roof on passenger vehicles. 
General Motors Corporation (GM) and the Automobile Manufacturers 
Association (which later became the Alliance of Autombile 
Manufacturers) argued in comments to the docket that testing both sides 
of the roof was unnecessary because it ``in most cases roof structure 
damage is distributed to only one side of the roof in an actual 
rollover and that, because the roof is symmetrical it makes no 
difference which side of the roof is selected for testing.'' NHTSA 
subsequently published a roof crush requirement, which remains in 
effect today that tests only a single side of the vehicle roof.
    Litigation in Lambert v. GM subsequently revealed documents showing 
that in testing following NHTSA's proposal, in March of 1971, GM tested 
six production car bodies on both sides of the roof and five of the six 
failed to meet the test. NHTSA should at a minimum, do as it had 
initially proposed and require manufacturers to meet a test that 
applies a more real-world scenario by testing both the leading and 
following sides of the roof in a rollover crash.
Industry Claims Passengers ``Dive'' Into Roofs, Yet Roof Strength Is 
        Still Key
    The auto industry has tried to obscure the engineering principles 
which would have emphasized maintaining survival space by arguing in 
court and to NHTSA that occupants ``dive'' into the roof. This ignores 
the obvious fact that if the seat structures and safety belts held 
occupants in place during a roll, and if the roof was strong enough to 
withstand the weight of the car, and the roofs were well padded, the 
head and spine of occupants would be far safer. In addition, safety 
engineer and attorney Don Slavik has shown through accident 
investigations that injuries among occupants directly correlates with 
the location of roof intrusion in the vehicle. Where there is roof 
crush, occupants are injured, and where someone remains uninjured, 
there is little or no roof crush.
GM Blames Belt Use Rates for Rollover Ejection Deaths and Ignores 
        Safety Belt Design Flaws
    General Motors, in its press release following Dr. Runge's recent 
statement, faulted occupant ejections and the lack of safety belt use 
for the high death rate in rollover crashes, claiming that, ``according 
to NHTSA, of the 9,882 people killed in rollovers in the year 2000, 75 
percent perished not because of the vehicle, but because they were 
unbelted and ejected from the vehicle.'' \1\ Because decent crash 
protection could save many lives, this argument sidesteps the 
industry's responsibility to better protect the 28 percent of belted 
occupants who perish needlessly in rollover crashes each year.
---------------------------------------------------------------------------
    \1\ See press release by General Motors, by Jay Cooney, GM Safety 
Communications. Jan. 15, 2003 (GM notes, ``72 percent of those killed 
in fatal rollover crashes were not using safety belts.'').
---------------------------------------------------------------------------
    Of course, better crash protection, including roofs, doors, door 
latches and side windows and windshields, along with window curtain 
airbags, could keep ejection portals from opening in a rollover crash, 
helping to retain occupants inside the vehicle. GM also confuses 
causation with correlation: NHTSA never has concluded that those 
ejected were killed by the ejection. On the contrary, safety experts 
have argued that as many as half of those ejected may have been first 
injured or killed by roof intrusion within the vehicle prior to being 
ejected. \2\
---------------------------------------------------------------------------
    \2\ See Comments of Public Citizen Regarding 49 CFR Part 571, 
Federal Motor Vehicle Safety Standards: Roof Crush Resistance at 9-11.
---------------------------------------------------------------------------
    Moreover, SUV and passenger car belt-use rates are virtually 
identical in fatal rollover crashes, proving nothing about the safety 
of either type of vehicle. Sixty-eight percent of passenger car 
occupants and 69 percent of SUV occupants killed in fatal rollover 
crashes presumably were not using restraints. \3\ Far from proving that 
SUVs are safe and fatalities are the occupants' fault, GM's assertion 
shows the continuing failure to install safety design features that 
could save many lives. According to a major 2002 NHTSA study, 78 
percent of SUV and van occupants use safety belts, while 77 percent of 
passenger car occupants did. \4\ Yet, in 2000, a whopping 61.7 percent 
of SUV occupant fatalities were attributable to rollovers, while 36.5 
percent of van fatalities and only 22.0 percent of passenger car 
fatalities were. \5\ Obviously, seat belt use rates do little to 
explain the high death rates in SUV rollovers.
---------------------------------------------------------------------------
    \3\ National Center for Statistics and Analysis, Characteristics of 
Rollover Crashes, April 2002, at 47.
    \4\ National Center Statistics and Analysis, Safety Belt and Helmet 
Use in 2002--Overall Results, September 2002, at 8.
    \5\ National Center for Statistics and Analysis, Characteristics of 
Rollover Crashes, April 2002, at 14.
---------------------------------------------------------------------------
    This statistical discrepancy also raises a question about the 
effectiveness of current safety belts in rollover crashes. Because most 
are not constructed to stay tight, or ``pretension,'' during a rollover 
crash, safety belts do not offer the same degree of protection to 
occupants in these type of crashes. Research has shown that passengers 
may be ejected in a rollover despite the use of safety belts due to 
``inertial unlatching'' during the roll. \6\ Despite the possibility of 
design flaws in most belts, crash investigators often assume that 
someone ejected in a rollover crash was unbelted, leading to 
underreporting in the extent to which inertial-unlatching may occur.
---------------------------------------------------------------------------
    \6\ See Blick, et al, ``Theoretical and Experimental Analysis of 
Inertial Release of Seat Belt Buckles,'' AAAM (1996).
---------------------------------------------------------------------------
    Even occupants who are able to remain belted may slide free from 
their safety belt during a rollover and be injured or killed. In one 
1986 NHTSA simulation of a four-roll event at 60 miles per hour using 
typical safety belt designs, in seven out of seven tests, the test 
``occupant'' slid out of the shoulder belt, permitting extreme torso 
flailing to occur. \7\ Other research has confirmed that current safety 
belt design allows far too much movement by occupants to adequately 
protect them in rollover crashes. \8\ Congress should ask NHTSA to 
conduct further tests to measure the performance of safety belts in 
rollover crashes, and should require safety belts that will keep 
occupants in place during a rollover crash.
---------------------------------------------------------------------------
    \7\ See NHTSA Research Paper, SAE 861876 (1986).
    \8\ Rains, Elias, Mowrey; ``Evaluation of Restraints Effectiveness 
in Simulated Rollover Conditions,'' 98-S8-W-34 (1998).
---------------------------------------------------------------------------
    Of course, GM's decision to blame belt use rates by consumers is 
fare easier--and far less effective--than fixing SUVs through 
engineering changes available today. The real solution is to impose a 
meaningful roof crush standard, require rollover crash protection 
measures in all passenger vehicles, and establish a minimum standard 
for rollover propensity. Given the survivability of these crashes and 
the availability of lifesaving and limb-saving technology, NHTSA should 
have a goal of bringing the fatalities from rollover and roof crush to 
virtually zero, with the ultimate aim of achieving the same level of 
protection from injury and death for the public as is now enjoyed by 
professional race car drivers.
                               Appendix E

     Ross and Wenzel Top 20 Most Risky Vehicles for Their Drivers *
------------------------------------------------------------------------
                                                                Risk to
       Type of Vehicle                 Make and Model           Driver
------------------------------------------------------------------------
Pickup Truck                   Chevrolet S-10                       161
Subcompact Car                 Dodge Neon                           161
Subcompact Car                 Pontiac Sunfire                      158
Subcompact Car                 Chevrolet Cavalier                   146
SUV                            Jeep Wrangler                        136
SUV                            Chevrolet Blazer                     122
Pickup Truck                   Ford Ranger                          118
Compact Car                    Pontiac Grand Am                     118
Pickup Truck                   Toyota Tacoma                        111
Pickup Truck                   Ford F-Series                        110
Pickup Truck                   Chevrolet C/K series                 104
Midsize Car                    Dodge Stratus                        103
Pickup Truck                   GMC C/K- series                      101
Large Car                      Lincoln Town Car                     100
Subcompact Car                 Saturn SC/SL/SW                       98
Large Car                      Buick LeSabre                         96
Subcompact Car                 Nissan Sentra                         95
SUV                            Toyota 4Runner                        94
SUV                            Ford Explorer                         88
Pickup Truck                   Dodge Ram                             88
------------------------------------------------------------------------
* Risk Ranking includes fatality risk for drivers of these vehicles per
  100,000 vehicles sold in 1997-2001
Source: Mark Ross and Tom Wenzel Fatality Risk Chart printed in the Los
  Angeles Times Article: ``Study Questions SUV Safety'' Feb. 18, 2003.



Ross and Wenzel Top 20 Most Risky Vehicles for Other Drivers on the Road
                                    *
------------------------------------------------------------------------
                                                                Risk to
       Type of Vehicle                 Make and Model            Other
                                                                Drivers
------------------------------------------------------------------------
Pickup Truck                   Dodge Ram                            137
Pickup Truck                   Ford F-Series                        128
Pickup Truck                   Dodge Dakota                         110
Pickup Truck                   Chevrolet C/K series                  99
Pickup Truck                   GMC C/K- series                       92
Pickup Truck                   Ford Ranger                           78
SUV                            Chevrolet Tahoe                       74
Minivan                        Chevrolet Astro Van                   61
SUV                            Ford Explorer                         60
SUV                            Chevrolet Suburban                    59
Pickup Truck                   Toyota Tacoma                         59
SUV                            Jeep Wrangler                         58
SUV                            Ford Expedition                       57
Pickup Truck                   Chevrolet S-10                        55
SUV                            Chevrolet Blazer                      50
Compact Car                    Nissan Altima                         49
Large Car                      Lincoln Town Car                      47
Large Car                      Dodge Intrepid                        45
SUV                            Jeep Grand Cherokee                   44
Subcompact Car                 Pontiac Sunfire                       44
------------------------------------------------------------------------
* Risk ranking includes the fatality risk to other drivers per million
  vehicles sold 1997-2001
Source: Mark Ross and Tom Wenzel Fatality Risk Chart printed in the Los
  Angeles Times Article: ``Study Questions SUV Safety'' Feb. 18, 2003.


    Appendix F--Auto Manufacturers Spend Billions Marketing SUVs to 
                           American Consumers

  <bullet> SUV advertising rose nearly nine-fold from $172.5 million in 
        1990 to $1.5 billion in 2000. \1\
---------------------------------------------------------------------------
    \1\ See Bradsher, Keith, High and Mighty: SUVs- The World's Most 
Dangerous Vehicles and How They Got That Way, 2002, at 112.

  <bullet> Automakers and their dealers spent $9 billion advertising 
        the SUV from 1990 through September 30, 2001. \2\
---------------------------------------------------------------------------
    \2\ Id. at 112.

  <bullet> General Motors was the #1 advertiser in the U.S. in 2000 and 
        2001 spending $3,945,000,000 in 2000 and $3,374,000,000 in 
        2001. \3\
---------------------------------------------------------------------------
    \3\ See AdvertisingAge's 100 Leading National Advertisers: 47th 
Annual Report, June 24, 2002, at 3.

  <bullet> The ``Big Three,'' ranked #1 for General Motors 
        ($3,374,000,000), #3 for Ford ($2,408,000,000), #6 for Daimler/
        Chrysler ($1,985,000,000), and spent a combined $7,767,000,000 
        in 2001. \4\
---------------------------------------------------------------------------
    \4\ Id. at 3.

  <bullet> The automotive industry overall spent $14,490,700,000 in 
        2001 in total ad spending. \5\
---------------------------------------------------------------------------
    \5\ See AdvertisingAge's Domestic Spending by Category: Ranked by 
measured U.S. expenditures in 2001 at http://www.adage.com/
page.cms?pageId=916, visited February 19, 2003.


     Top Ten Advertisers of 2001 and Revenue per Advertising Dollar
                             Expenditure \6\
------------------------------------------------------------------------
                                                         Revenue per
           Advertiser                  Spending       Advertising Dollar
                                                         Expenditure
------------------------------------------------------------------------
General Motors                      $3,374,000,000               $39.20
Proctor & Gamble Co.                $2,541,000,000                $8.00
Ford Motor Co.                      $2,408,000,000               $44.97
PepsiCo                             $2,210,000,000                $8.20
Pfizer                              $2,189,000,000                $9.10
DaimlerChrysler                     $1,985,000,000               $36.60
AOL Time Warner                     $1,885,000,000               $17.30
Phillip Morris                      $1,816,000,000               $28.70
Walt Disney Co.                     $1,757,000,000               $11.90
Johnson & Johnson                   $1,618,000,000               $12.50
------------------------------------------------------------------------
\6\ See AdvertisingAge's Revenue Per Advertising Dollar Expenditure at
  http://www.adage.com/page.cms?pageId=915, visited February 19, 2003.

               Appendix G--SUVs are Regulatory Renegades
    SUVs are loophole vehicles across-the-board, but SUVs over 6,000 
lbs. collect special exemptions like candy. These wasteful, dangerous 
vehicles are not held to some of the same crash safety standards as 
cars and are given outrageously exorbitant tax breaks--creating 
incentives to churn out more of them while public safety suffers.
Special favors for Large SUVs:
    Side Impact Crash Protection

  <bullet> Large SUVs are held to a less protective side impact 
        standard than applies to cars.

    Roof Strength Protection

  <bullet> Large SUVs need not meet any roof strength standard.

    Tax Breaks

  <bullet> When businesses purchase an SUV (or other light truck) over 
        6,000 lbs., they can immediately deduct $25,000 off of the 
        vehicle's price.

  <bullet> The Bush stimulus package of 2002 granted another 30 percent 
        deduction off of the balance of a vehicle's sticker price.

  <bullet> The administration's latest stimulus package seeks to raise 
        the initial deduction up to 75,000 dollars. \1\ It would pay in 
        full for every vehicle over 6,000 lbs. except the Hummer.
---------------------------------------------------------------------------
    \1\ McCarthy, Sheryl, ``Eliminate SUV Tax Giveaway Which Helps Rich 
and Busts Budget,'' The Detroit News, Feb. 14, 2003.

  <bullet> These special interest tax breaks do not preclude businesses 
        from taking the standard 20 percent deduction annually over 
---------------------------------------------------------------------------
        five years.

Above 8,500 lbs., SUVs are also exempt from:
    Fuel Economy Standards

  <bullet> Vehicles need not comply with the extremely low federal fuel 
        economy standards for light trucks, nor must they report 
        production numbers, miles-per-gallon, or total sales to 
        regulatory agencies.

    Emissions

  <bullet> Currently all vehicles over 8,500 lbs are treated as medium 
        duty passenger vehicles, which have significantly more lax 
        emission requirements. Under EPA's Tier 2 rules, medium duty 
        passenger vehicles (between 8,500 and 10,000 pounds) will be 
        phased into the passenger vehicle emission requirements over 
        time. Light trucks, as classified by EPA, also are permitted to 
        emit more pollutants than cars, an exemption also currently 
        scheduled for phase out.

    Child Restraint Anchorage Systems
  <bullet> Requirements do not apply to vehicles greater than 8,500 
        lbs., meaning they need not install anchorage systems to 
        accommodate child restraints.

    Below is a table of the SUVs eligible for luxury loophole tax 
breaks:

   Sample List of Vehicles that Would Qualify for the SUV Tax Break *
------------------------------------------------------------------------
                                                         2003 Deductions
         Vehicle Model            Weight     Sticker      (without Bush
                                  (lbs.)      Price        tax break)
------------------------------------------------------------------------
Cadillac Escalade ESV               7200      $56,160           $38,710
Chevrolet Suburban 2500             8600      $41,280           $32,160
Chevrolet Tahoe                     6800      $38,530           $30,955
Dodge Durango                       6400      $33,280           $28,645
Ford Excursion                      8900      $43,650           $33,205
Ford Expedition                     6650      $37,185           $30,360
GMC Yukon XL Denali                 7200      $44,695           $33,665
Hummer H1                          10300     $111,845           $63,210
Hummer H2                           8600      $50,590           $36,260
Land Rover Discovery                6064      $37,995           $30,720
Land Rover Range Rover              6724      $71,865           $45,620
Lincoln Navigator 4WD               7450      $51,960           $36,860
Mercedes M-Class                    6283      $51,970           $36,865
Toyota Land Cruiser                 6860      $53,915           $37,725
Toyota Sequoia 4WD                  6600      $38,080           $30,755
------------------------------------------------------------------------
* Roder, Aileen, Moinster, Lucas, Taxpayers for Common Sense, http://
  www.taxpayer.net/TCS/whitepapers/SUVtaxbreak.htm#12, (visited on
  February 20, 2003)


    The Chairman. Thank you very much, Ms. Claybrook.
    Mr. Pittle, welcome.

  STATEMENT OF R. DAVID PITTLE, Ph.D., SENIOR VICE PRESIDENT, 
               TECHNICAL POLICY, CONSUMERS UNION

    Mr. Pittle. Thank you, sir.
    Mr. Chairman, Members of the Committee, my name is David 
Pittle. I am senior vice president for Technical Policy at 
Consumers Union, the nonprofit publisher of Consumer Reports. 
With me today are David Champion, director of Consumers Union's 
327-acre auto test facility in rural Connecticut, and Sally 
Greenberg, CU's Product Safety Council here in Washington.
    Each year, CU conducts comprehensive tests of some 40 to 50 
vehicles which we buy anonymously with cash at retail. We have 
learned, from more than 65 years of conducting unbiased 
laboratory and consumer-use tests, that while competing 
products may look alike, they do not always act alike. We see 
this every day on our test track, in terms of the range of 
performance and safety of new cars and trucks. Unquestionably, 
auto safety is a matter of high national importance affecting, 
as it does, virtually everyone in the country, both in their 
personal and work lives.
    The last time that I presented testimony to a Senate 
committee, it was during the Ford/Firestone safety crisis in 
September of 2000. While investigating the thousands of 
Bridgestone tire failures and Ford Explorer rollovers, the 
Congress pressed hard to understand how could this situation 
happen and, further, what could be done to prevent future 
deaths and injuries from tire failures and SUV rollovers. 
Ultimately, the Congress passed unanimously a powerful law, the 
TREAD Act of 2000, that directed NHTSA to protect American 
consumers by developing new tests for tires, child safety 
seats, and dynamic tests to assess a vehicle's rollover 
stability. But the truth is, it never should have taken a 
tragedy of that proportion to bring about such sorely needed 
and long awaited changes.
    I said it to you then, and I must say it now. The American 
car-buying public must be able to rely on NHTSA to proactively 
set adequate safety standards and to ensure that automotive 
products offered for sale meet those standards. As charged by 
Congress, NHTSA has the unique authority and the clear mandate 
to protect the public from unreasonable automotive hazards, 
hazards often not seen, not measured, and not understood by the 
average consumer. In short, NHTSA's the only entity empowered 
by Federal law that can block unsafe vehicles from the 
marketplace. As a safety agency, its only client is the 
consumer. And ultimately, we, as consumers, rely on you, the 
Congress, first, to ensure that NHTSA has the resources and 
authority it needs to protect the public; second, to use your 
oversight powers to ensure that the agency is properly 
fulfilling that mandate; and, third, to insulate the agency and 
allow it to set safety regulations without being derailed 
simply because industry raises objections.
    I want to recall for you the chilling but all too true 
words of former NHTSA administrator, Ricardo Martinez. In a 
recent interview reported in the Wall Street Journal, he said, 
``Any chief of the Safety Agency is always outgunned, 
outmanned, and outspent by the industry.'' He went on to say to 
Dr. Runge, ``You have got the regulations and the bully pulpit, 
and you have got to use both.''
    The Ford/Firestone safety crisis serves as a vivid reminder 
that consumers depend on the government to be actively passing 
laws to ensure their safety, not passively collecting data on 
injuries and deaths.
    During those hearings in 2000, it became all too clear that 
NHTSA was an underfunded agency that had lost its way, and 
ultimately consumers paid the price.
    We sit here today, barely two years later, confronting 
another safety problem whose dimensions we are only beginning 
to stretch our arms around. It will take our best thinking, our 
best intentions, and a clear sense of past successes to bring 
these hazards under control. We applaud Dr. Runge for at least 
his published outspoken views on behalf of consumer safety. And 
Mr. Chairman, we appreciate your bringing this hearing together 
today.
    We agree with Dr. Runge's earlier statements that the 
pattern of injuries and deaths associated with many SUVs on the 
road is unreasonable and should be addressed promptly. We also 
believe that the solutions are economically and technologically 
feasible. But implementing those solutions is going to take 
strong leadership, leadership from this Committee and strong 
leadership at the highest levels of NHTSA.
    Now, we have provided the Committee with a list of 
corrective measures that we believe will reduce those risks, 
particularly SUVs. And rather than going through them now, I 
want to comment on one last point, and that is on the 
industry's recent announcement that it would focus attention on 
the hazards of vehicle incompatibility by placing almost 
exclusive emphasis on adding protective devices to passenger 
vehicles. Redesigning SUVs and pickup trucks to be less 
aggressive would be put off until some undefined later date. 
This is troubling, to put it mildly. Such an approach, in 
essence, tells occupants of mid-sized and small vehicles that 
they must worry about their own safety and virtually all but 
removes responsibility from manufacturers of SUVs and pickup 
trucks to start designing these vehicles to be more forgiving. 
It is like saying to the kids who complain about being battered 
by the playground bully to wear more protective padding to 
school.
    [Laughter.]
    Mr. Pittle. Equipping passenger cars with head protection 
is entirely appropriate, but we need to socialize the highway 
bully. Waiting to address basic design until sometime in the 
future is fundamentally wrong, and this needs attention now.
    So, finally, we question the wisdom that NHTSA is relying 
on industry to self-regulate by setting its own voluntary 
standards. While we recognize many of the past benefits of 
voluntary standards, in this case we believe it would be 
misguided and inappropriate, and, worse, not likely to bring 
about the level of change needed to reduce the hazards in a 
timely manner. Solving broad and serious safety problems is a 
fundamental reason why NHTSA exists in the first place. This is 
one of their core responsibilities. We must be very cautious 
before we agree to let this key safety agency step aside and 
defer responsibility to the industry. There is no substitute 
for this safety agency using its authority judiciously to 
correct safety problem in a timely manner in a way that is 
accountable to Congress, the courts, and to consumers.
    So, Mr. Chairman, Dr. Runge and NHTSA's staff need from you 
a strong, unambiguous message about its consumer-focus mission 
and your intention to vigorously oversee their progress. You 
did exactly that in the Ford/Firestone case, and it was a 
success. Lives will be saved as a result. Here, in the light of 
the serious and rapidly growing risks posed by many SUVs and 
pickups, we call on you again. We urge this Committee to reject 
NHTSA's relying solely on voluntary actions by the industry. We 
urge you, instead, to direct NHTSA to step up to the plate and 
take the lead in correcting these problems. I lost count how 
many times Dr. Runge said, ``We will be watching to see what 
the industry does.''
    Mr. Chairman, Congress set up NHTSA as a watchdog agency to 
protect the public. This watchdog must do more than watch.
    Thank you.
    [The prepared statement of Mr. Pittle follows:]

 Prepared Statement of R. David Pittle, Ph.D., Senior Vice-President, 
                   Technical Policy, Consumers Union
    Mr. Chairman, distinguished members of the Committee, good morning. 
My name is David Pittle, and I am Senior Vice-President for Technical 
Policy at Consumers Union \1\ (CU), the publisher of Consumer Reports. 
We appreciate the opportunity to testify at this hearing to discuss the 
safety risks of sport utility vehicles. With me are David Champion, 
Director of Consumers Union's 327-acre Auto Test Center in Connecticut, 
and Sally Greenberg, CU's Senior Product Safety Counsel here in 
Washington.
---------------------------------------------------------------------------
    \1\ Consumers Union is a nonprofit membership organization 
chartered in 1936 under the laws of the state of New York to provide 
consumers with information, education and counsel about good, services, 
health and personal finance, and to initiate and cooperate with 
individual and group efforts to maintain and enhance the quality of 
life for consumers. Consumers Union's income is solely derived from the 
sale of Consumer Reports, its other publications and from noncommercial 
contributions, grants and fees. In addition to reports on Consumers 
Union's own product testing, Consumer Reports with more than 4 million 
paid circulation, regularly, carries articles on health, product 
safety, marketplace economics and legislative, judicial and regulatory 
actions which affect consumer welfare. Consumers Union's publications 
carry no advertising and receive no commercial support
---------------------------------------------------------------------------
    Each year, CU conducts comprehensive tests of some 40 to 50 new 
vehicles, which we buy anonymously at retail. We provide consumers with 
objective comparative ratings about performance, routine handling, fuel 
efficiency, comfort, braking, emergency handling, and safety features 
of these vehicles. We don't take outside advertising. Our only interest 
is to provide consumers with unbiased test information. Each month, an 
estimated 17 million consumers read and consider our published test 
reports, including product ratings and buying advice, as they ponder 
their choices.
    Since our inception in 1936, auto safety has been an overriding 
concern for CU. For more than a decade now, surveys have shown that 
auto safety has become a top priority for the car-buying public as 
well. We have learned from more than six decades of conducting unbiased 
laboratory and consumer use tests that, generally speaking, competing 
products that look alike do not always act alike. This principle holds 
true for motor vehicles.
    Undisputedly, auto safety is a matter of high national importance, 
affecting, as it does, virtually everyone in the country, both in their 
personal and work lives. The American consumer relies on the National 
Highway Traffic Safety Administration (NHTSA) to set adequate safety 
standards where necessary and to insure that automotive products 
offered for sale meet those safety standards. If a product is found to 
be unsafe, it must be recalled promptly and effectively. As charged by 
Congress, NHTSA has the unique authority and the clear mandate to 
protect the public from unreasonable automotive hazards--hazards often 
not seen, not measured, and not understood by the average consumer. In 
short, NHTSA is the only entity empowered by federal law that can block 
unsafe vehicles from the marketplace. Ideally, as a safety agency, its 
only client should be the consumer. As I will discuss, for too long it 
has not acted assertively to fulfill this role.
    With the Committee's help, this can change. Consumers need Congress 
to insure that NHTSA has the authority and the resources it needs to 
protect the public in a timely manner from unreasonable risks. 
Congressional oversight must also insure that the agency is properly 
fulfilling its public safety mandate. Congress needs to insulate the 
agency from inappropriate industry pressures so that important safety 
regulations are not derailed whenever the industry voices objections.
    Auto safety is not a political issue. When someone is injured or 
killed in a motor vehicle, the pain and grief felt by those consumers 
and their families is the same regardless of which party is in power or 
who occupies the White House. Whenever a pattern of unreasonable or 
preventable injuries occurs, NHTSA must be able to act quickly and 
decisively--based on the merits of its approach to reducing risks, not 
on politics or industry pressure.
    That is why we are here today. We believe that the pattern of 
injuries and deaths associated with many of the SUVs on the road today 
is unreasonable and should be greatly reduced. We also believe the 
potential solutions are economically and technologically feasible. 
Implementing those solutions will take strong leadership--leadership 
from this Committee and strong leadership at the highest levels of 
NHTSA.
    We applaud the bold and very refreshing approach taken by the new 
NHTSA Administrator, Jeffrey Runge. He is using the leadership of his 
office to express his informed views on the unreasonable risks 
associated with certain sport utility vehicles. In so doing, Dr. Runge, 
whose decades of work as an emergency room physician provided him ample 
exposure to automobile related injuries and deaths, has enhanced the 
fast-growing debate on SUVs by placing the public's safety at an 
appropriately high level. The all-important question remains: How far 
will Dr. Runge's approach go towards improving the safety of SUVs, and 
will it occur in a timely manner? I will return to these questions in a 
few moments.
    Consumer Union has long been concerned with the rollover propensity 
of SUVs, and in recent years with SUV aggressivity. In the November 
2002 issue of Consumer Reports, in which we rated a group of full-sized 
SUVs, we offered our readers the following advice:

        There are good reasons not to buy a large, full-sized sport 
        utility: They are gas gluttons, create excessive pollution, 
        handle ponderously, and as a class SUVs tend to roll over more 
        easily than passenger cars. Full-sized SUVs can be hard to park 
        and difficult to climb into and out of. And higher, heavier 
        SUVs inflict excessive damage to cars in collisions. For most 
        people, there are better choices.

    Consumer Reports does not dictate what consumers should buy. We 
recognize and believe that consumer choice is the cornerstone of our 
consumer marketplace. Indeed, to meet consumer demand for in-depth 
product information, we publish annually a special issue on light 
trucks--which includes SUVs, minivans, pickups, and even station 
wagons. Our advice, based on our own testing, on crash tests by NHTSA 
and IIHS, on injury statistics, on market research, and other published 
data makes clear in an objective manner the advantages and the 
disadvantages of SUVs. The facts speak for themselves: Too many SUVs 
get very poor gas mileage, produce greater air polluting emissions per 
mile traveled, roll over more easily than other classes of vehicles, 
have large blind spots, and inflict excessive damage on other vehicles 
in a crash.
    These are not newly revealed facts. They have been written about 
and discussed for many years. A major problem has been that the 
corrective force in the marketplace, NHTSA, has not acted assertively 
to bring about the positive changes needed to protect the public. And 
it's not that consumers have not wanted safer vehicles. For example, a 
December 2002 J.D. Power survey found that safety continues to be one 
of the top factors for consumers in the market for new cars. The J. D. 
Power survey found that nine of the top 10 most desired features are 
safety enhancing items, including features like vehicle stability 
control, external surround sensing, adaptive headlight systems, tire 
pressure monitoring gauges, anti-whiplash seats, and night vision 
systems topped the list.
Federal Rollover Tests--too Long in Coming
    CU's efforts since 1988 to get NHTSA to either develop a minimum 
stability standard for all vehicles or develop a dynamic rollover test 
for SUVs has been a long and frustrating struggle. Preventing rollovers 
is critical because though rollovers account for a small percentage of 
crashes overall, they are extremely dangerous when they occur, leading 
to a disproportionately large number of fatalities. SUVs have the 
highest rate of fatal crashes involving rollover.
    According to NHTSA's 2000 report on vehicle fatalities, 9,882 
people were killed as occupants in light vehicle rollover crashes, 
representing 31 percent of the occupants killed that year. Of those, 
8,146 were killed in single-vehicle rollover crashes. SUVs, because 
they are tall vehicles and have a higher center of gravity than cars or 
minivans, are more prone to roll over. Statistics bear this out: in 
1998, for example, while 10 percent of cars and 10 percent of vans in 
single vehicle crashes rolled over, 18 percent of pickups and 27 
percent of SUVs rolled over in single vehicle crashes. Some 36 percent 
of fatal SUV crashes involved rollovers, compared to only 15 percent in 
cars. According to NHTSA's 2000 fatality data, passenger vehicle deaths 
in rollover crashes declined slightly from 10,133 to 10,108 in 2000. 
However, for occupants of sport utility vehicles, rollover deaths 
increased 2.8 percent from 1,898 in 1999 to 1,951 in 2000.
    CU's first experience with rollover began on our test track in 
1988. While testing the emergency handling of a group of SUVs, the 
Suzuki Samurai tipped up suddenly and severely. Based on our repeated 
testing, including a second sample of the Samurai, we rated the Samurai 
Not Acceptable. Since 1988, we have evaluated the emergency handling of 
134 SUVs, minivans, and pickup trucks and found several models that 
tipped up severely in those tests and were rated Not Acceptable: the 
1995-96 Isuzu Trooper, the 1996 Acura SLX, and the 2001 Mitsubishi 
Montero Limited. \2\ Several other SUVs were rated Poor in emergency 
handling: 1989 Ford Bronco II, the 1998 Chevrolet Blazer, the 2000 
Toyota Landcruiser.
---------------------------------------------------------------------------
    \2\ Isuzu and Suzuki raised legal challenges to CU's testing in the 
federal courts. A California federal jury found for CU in April 2000 
and dismissed Isuzu's claims. As the prevailing party, CU was awarded 
its costs. Suzuki's suit has not yet gone to trial.
---------------------------------------------------------------------------
    Based on our testing in 1988, we petitioned NHTSA to develop a 
minimum stability standard for all vehicles. NHTSA granted the petition 
in 1988 but ceased work in 1994, stating that setting a standard for 
vehicle stability would be too expensive because manufacturers would 
have to redesign their vehicles. Based on our testing in 1996, we 
petitioned NHTSA again, this time to develop a test for assessing the 
emergency handling and stability of SUVs, to test new models using such 
a test, and to make the results available to consumers. The agency 
granted that petition in 1997, but it ended up proposing not a dynamic 
test but rather the Static Stability Factor in 2000 as the measure for 
a vehicle's rollover resistance, much to our surprise and our 
disappointment.
    Which brings us to the critical role played by Congress. In 
response to the notorious Bridgestone/Firestone tire recall 
controversy, the TREAD act (Transportation Recall Enforcement, 
Accountability, and Documentation Act), spearheaded by this Commerce 
Committee, passed Congress unanimously in 2000. NHTSA was directed to 
develop a dynamic test for rollover, and based on what NHTSA proposed 
last November, we are optimistic that they have been put on the right 
track. We believe that consumers will be able to see rollover 
resistance ratings based on dynamic tests of SUVs and other vehicles 
sometime this year. This rating system at long last will enable 
consumers to make rational choices for the safety of their families. 
There is no question that Congress played the decisive role in bringing 
this about.
Vehicle Size Matters
    Largely fueled by extravagant industry advertising, consumers have 
come to believe they are safer in SUVs. Indeed, the automakers have 
continued to defend SUVs publicly by stating that a larger, heavier 
vehicle is safer for its occupants than the occupants of a smaller, 
lighter vehicle in a crash. They promote this message, despite the 
negative impact such larger vehicles may have on the occupants of 
smaller vehicles in a crash--and despite data indicating that motorists 
are not necessarily safer in SUVs than in cars. Researchers Marc Ross 
and Thomas Wenzel, at the request of the Los Angeles Times, just this 
month updated a survey they completed last March, finding that most 
mid-size and large cars are as good or better than the average SUV at 
protecting their own drivers, and much more protective of drivers than 
the average pickup. Further, Ross and Wenzel found that SUVs have a 
higher combined risk than mid-size and large cars because of the 
inordinate damage they can inflict on other motorists in crashes.
    Further, the impact of the automotive size race is already seen in 
highway death tolls, which have seen modest declines over the past 20 
years but seem to be stuck at about 42,000 per year for the past 
decade, despite the ubiquity of safety features like air bags, seat 
belts, improved vehicle design in some cases, and aggressive anti-drunk 
driving efforts in the states. One cannot help but wonder how much 
lower the death rate would be if not for the greater aggressivity of 
SUVs and pickup trucks in multi-vehicle crashes.
    We also fear that the worst is yet to come. Older, larger, more 
aggressive SUVs will soon be available on the second- and third-hand 
market in significant numbers, where younger drivers--less experienced 
drivers with inherently higher accident rates--will be able to afford 
them. One of the biggest SUVs on the road--the Ford Expedition--
weighing 5300 pounds, sold new in 1997 for $27-33,000. Today, the same 
5300 pound vehicle can be bought for a mere $9,000.
    Researchers Tom Hollowell and Clark Gabler, in a report prepared 
for NHTSA and delivered at a conference of the Society of Automotive 
Engineers in 1997, found that SUVs were nearly three times as likely as 
cars to kill other drivers in a crash; they also found that when a car 
crashes into the side of another car, the driver of the struck car is 
6.6 times as likely to die as the driver of the striking car. But when 
an SUV hits a car in the side, the driver of the struck car is 30 times 
as likely to die.
    CU believes that when it comes to affecting other people's health 
and safety, none of us is completely free of responsibility. Just as we 
have decided as a society not to permit smoking in most public 
buildings, workplaces, and restaurants because of the ill effects on 
the health of our neighbors, we shouldn't encourage consumers to drive 
vehicles that present unreasonable dangers to others.
    Further, while every vehicle has blind spots, the problem is 
particularly severe behind pickup trucks and SUVs and poses increasing 
danger, especially to small children. While NHTSA should, but does not, 
keep these data on children injured or killed in and around cars, a 
nonprofit safety group in California, KIDS `N CARS, does. It found that 
last year alone, a total of 58 small children were backed over and 
killed, most often by their own parent in their own driveway because 
they simply couldn't be seen.
    CU's Auto Test Division recently measured the blind spots in trucks 
and SUVs using cones the size of an average two year old to test the 
extent of this problem. We found a 30-foot blind spot in back of pickup 
trucks, 14 feet in back of SUVs, compared to only 10 feet for cars. To 
address this growing safety problem, as the fleet becomes more 
dominated by SUVs and pickup trucks, we recommend that Congress direct 
NHTSA to test backover warning devices and require them within the next 
two years to be standard equipment in SUVs and pickup trucks. We think 
these devices will not only save lives but also untold millions of 
dollars in bumper and other property damage.
Vehicle Incompatibility and its Implication for Safety
    What special safety risks do SUVs pose to cars? As Hollowell and 
Gabler's research notes, the large differential in mass, stiffness, and 
geometry between cars and SUVs and pickup trucks results in greater 
injury to car occupants when they are hit by an SUV or pickup truck. 
Simply put, heavier, stiffer vehicles with higher bumpers are a lethal 
menace to any passenger car they collide with.
    According to a 1999 report from the Insurance Institute for Highway 
Safety (IIHS), for every million registered cars weighing 3,500 to 
3,999, 45 deaths occur in the other cars they collide with. For every 
million sport utility vehicles in the same weight class, 76 deaths 
occur in the cars they collide with. The corresponding rate for pickups 
is 87.
    Front-to-side collisions between cars and sport utility vehicles or 
pickup trucks are among the most deadly because the sides of cars don't 
offer nearly enough protection against the high battering ram effect of 
an SUV or pickup truck. Moreover, car doors don't provide the same 
level of protection that is built into the crumple zone in the car's 
front end.
To Properly Protect Public Safety, NHTSA Must Lead
    When Dr. Runge began speaking out on his safety concerns about 
SUVs, the Alliance of Automobile Manufacturers (AAM) and IIHS responded 
by meeting to discuss what might be done to address the growing problem 
of more SUVs on the road with their greater potential to injure or kill 
passengers in cars. After two days of meetings, the two groups wrote to 
Dr. Runge, saying that the greatest danger to vehicle occupants from 
incompatibility is in front-to-side crashes, and recommending that the 
highest priority, ``in the short term,'' should be placed on enhancing 
``the protection for occupants inside the vehicles struck in the side. 
Enhanced head protection is one obvious way to improve self protection 
in side impacts.''
    The letter, in our opinion, sidesteps the major safety issue by 
stating that ``possible changes to front and side structures to improve 
compatibility in front to side crashes also need to be explored. 
However, any specific recommendations on how to implement structural 
changes are likely to occur in the longer term.''
    With 20 million SUVs on the roads today, we agree that greater 
protection for vehicle occupants is critical. But we strongly disagree 
with the notion that structural changes to SUVs should take a back seat 
to adding protective safety features inside the struck vehicle, which 
is the gist of the IIHS/Alliance letter. The problem all along has been 
that the auto industry has paid too little attention to the safety of 
other motorists while they designed heavier, high stance SUVs. The 
approach proposed by IIHS and the Alliance places the lion's share of 
responsibility on passenger vehicle occupants to equip themselves with 
devices that protect from a side collision by a higher, heavier 
vehicle. This program in essence tells occupants of mid-size and small 
vehicles that they must worry about their own safety--and virtually all 
but removes responsibility from manufacturers of SUVs and pickup trucks 
to design more forgiving vehicles. We think this is one step forward--
but two steps backward.
    CU believes that NHTSA should have asked Congress for funding to 
develop compatibility crash tests between SUVs and cars in the mid-
1990s, when it became clear that SUVs and pickup trucks were becoming 
tremendously popular with consumers. Unfortunately, no such test 
program emerged. Indeed, researchers for NHTSA and other organizations 
have been concerned about the growing impact of vehicle incompatibility 
for many years--first between large and small cars and more recently, 
between cars and SUVs. \3\ But it is not too late to start--consumers 
buy more than three million new SUVs each year.
---------------------------------------------------------------------------
    \3\ See Chillon, ``The Importance of Vehicle Aggressiveness in the 
Case of a Transversal Impact,'' First International Conference on 
Enhanced Safety of Vehicles, 1971. Wolfe and Carsten, ``Study of Car/
Truck Crashes in the United States,'' Highway Safety Research 
Institute, University of Michigan, 1982, Monk and Willke, ``Striking 
Vehicle Aggressiveness Factors for Side Impact,''National Highway 
Traffic Safety Administration, 1986.
---------------------------------------------------------------------------
    Congress should direct NHTSA to develop these crash tests, and 
based on those results, NHTSA should begin to set standards to reduce 
safety risks posed by vehicle incompatibility and SUV and pickup truck 
aggressivity. The public's safety cannot rest upon industry self-
regulation. Such efforts have not worked well in the past, and it is 
highly unlikely it will lead to significant changes now. These hazards 
have been recognized for several years, and little has been done by the 
industry. The levels of redesign and change needed to reduce the risks 
are significant--and not likely to flow voluntarily in such an 
environment. Rather, the situation needs an agency with authority and 
an unyielding determination to correct the problem--and a strong sense 
from Congress that anything less is not acceptable.
    Based on NHTSA's track record over the last two decades, we have 
come to believe that the agency has too often had a blurred sense of 
mission. It was set up to protect the consumer, but it has been a 
reluctant watchdog. The Bridgestone/Firestone recall revealed all too 
clearly an agency that had long needed a strong sense of direction. In 
that instance, Congress responded with an unambiguous message in the 
TREAD Act. If not for Congress, there might never be dynamic tests for 
rollover resistance; if not for Congress, there might not be an 
upgraded federal tire standard; if not for Congress, there might not be 
an aggressive early warning system for possible defects at NHTSA; if 
not for Congress, there might not be an upgrading of child safety 
seats.
    We are encouraged by Dr. Runge's public commitment to safety, but 
we believe he needs help to bring about needed changes. I want to 
recall the chilling but all-too-true words of former NHTSA 
Administrator Ricardo Martinez. In a recent interview reported in The 
Wall Street Journal (February 7, 2003):

        ``Any chief of the safety agency is ``always outgunned, 
        outmanned and outspent by the industry,'' says Ricardo 
        Martinez, a NHTSA administrator during the Clinton 
        administration and friend of Dr. Runge. ``You've got the 
        regulations and the bully pulpit, and you've got to use both.''

    In our opinion, Dr. Runge and the NHTSA staff need from you a 
strong unambiguous message about its consumer-focused mission and 
vigorous oversight on results. In the case of the serious risks posed 
by SUVs and pickups, we urge this Committee to reject NHTSA's reliance 
on a voluntary approach by the industry.
    We recommend the following specific actions:
Recommendations for Reducing Rollover Risks:
  <bullet> NHTSA's plan to conduct rigorous dynamic testing of SUVs and 
        other vehicles and provide that information to consumers, as 
        discussed above, will have a strong impact on SUV design. 
        However, the agency will need additional resources to conduct 
        the testing needed to make the program useful.

  <bullet> CU's testing of collision avoidance or electronic stability 
        control (ESC) in SUVs indicates that they are very effective in 
        helping drivers to maintain vehicle control. These systems 
        should be standard equipment in all SUVs. Their widespread use 
        is virtually certain to result in fewer rollover-related deaths 
        and injuries.

  <bullet> Dynamic interior head air bag protection systems have also 
        been shown to reduce occupant ejection during a crash. These 
        systems should be standard on all SUVs to give occupants more 
        side protection in a rollover and also prevent unbelted 
        occupants from being ejected.

  <bullet> NHTSA is currently reviewing comments for an updated 
        standard on vehicle roof crush. This Committee should urge the 
        agency to speed it's work on that critical area; even belted 
        drivers in SUV rollovers have been killed or gravely injured as 
        a result of injuries to the spine from impact with poorly 
        designed roofs.

    NHTSA should continue its research on improving seat belt usage in 
all vehicles especially in Pickups and SUVs.

    NHTSA should, as part of its rollover information testing, assess 
the handling capabilities of vehicles. In many cases today vehicle 
manufacturers equip their SUVs with tires that limit the lateral grip 
of the vehicle to reduce its instability. However, this compromises the 
normal handling of the vehicle and can lead to other non-rollover 
accidents. The handling test proposed by NHTSA would ensure that 
vehicles are designed to be stable and not ``corrected'' by fitting a 
specific low-lateral grip tires. When a consumer is at a tire dealer 
buying new tires they are not aware of the potentially disastrous 
consequences of buying the wrong type or size tire. Also the extensive 
advertising of larger wheels and tires that are likely to improve the 
lateral grip intensifies the possible consequences. Many SUVs have 
specific tire types that are permitted, but few consumers are aware of. 
Many SUVs specify All Terrain type tires only.
Recommendations for Reducing the Risks from Vehicle Incompatibility
  <bullet> SUVs should be redesigned to provide lower bumpers and less 
        rigid front frames so that they impart less of the crash energy 
        to the vehicle they hit, and do so at a height that is more 
        comparable to the crumple zones on sedans. Designers should aim 
        for less aggressively designed vehicles, such as the ``cross-
        over'' vehicles emerging in today's market.

  <bullet> Congress should direct NHTSA to develop crash tests to 
        assess crash incompatibility, and NHTSA should begin to set 
        standards to reduce vehicle incompatibility and SUV and pickup 
        truck aggressivity.

  <bullet> New passenger cars should be equipped with side and head air 
        bags as standard equipment to protect them in a crash with a 
        larger, higher and more aggressively designed vehicle.
Recommendations for Preventing Backover Injuries and Deaths
  <bullet> Require NHTSA to begin keeping track of data regarding 
        injury and death to children in and around motor vehicles.
  <bullet> Require NTHSA to test backup warning devices, set 
        performance standards for these devices, and make them standard 
        equipment on SUVs and pickup trucks in the next 2 years.
    Thank you for your attention, and we look forward to your 
questions.

    The Chairman. Thank you very much, Mr. Pittle.
    Mr. O'Neill, welcome.

STATEMENT OF BRIAN O'NEILL, PRESIDENT, INSURANCE INSTITUTE FOR 
                         HIGHWAY SAFETY

    Mr. O'Neill. Mr. Chairman, as SUV sales continue to climb, 
there clearly are growing questions about SUV safety. The 
interest in this hearing illustrates that. The kinds of 
questions are, Do SUVs provide better protection than cars to 
their occupants in crashes? Do SUVs have a rollover problem? 
What about other people on the road? Are SUVs particularly 
hazardous or aggressive to people in cars with which they 
collide?
    We think that we should be looking at these questions based 
on some of the real-world crash experience of these vehicles. 
And there are two kinds of occupant death rates that we can use 
to address some of these questions. One, death rate summarizes 
the number of occupants killed in cars, SUVs, or pickup trucks 
per mission of that vehicle type registered. These death rates 
can be used to compare the protection these vehicles provide to 
their own occupants. This is sometimes referred to as ``self-
protection.''
    During 1990 and 1991, occupant deaths per million 
registered vehicles one to four years old were highest in the 
lightest vehicles, as you can see from this chart here. 
Occupant death rates also varied by vehicle type. In each 
vehicle weight category in 1990 and 1991, occupant death rates 
were lower in cars than they were in SUVs or pickup trucks.
    A decade later, in 2000 and 2001, the patterns have changed 
somewhat. Most noticeable is as occupant death rates were 
substantially lower across the board for cars, SUVs, and 
pickups in every weight category. And in the same weight 
categories, the death rates are now similar for cars and SUVs.
    Although the death rates are similar for recent-model cars 
and SUVs, the deaths in these vehicles are not occurring in the 
same kinds of crashes. We have heard already today about 
rollovers. Single-vehicle rollover crashes consistently account 
for about 20 percent of car occupant deaths in contrast to 
corresponding percentages of SUV occupant deaths that occurred 
in single-vehicle rollovers, which was 52 percent during 1991 
and 48 percent a decade later. So it is much more likely that 
you will die in a rollover crash in an SUV.
    But when we look at occupant deaths, it is important to 
consider not only what happens to occupants inside the 
particular vehicles, or self-protection, but also what happens 
to occupants inside other passenger vehicles with which they 
collide--these other vehicles are sometimes referred to as 
``crash partners''--and reducing the risks produced by 
particular vehicle types for the occupants of their crash 
partners' vehicles, sometimes is referred to as ``partner 
protection.''
    So if we look at the number of occupant deaths in cars that 
are in crashes with SUVs per million of the SUVs registered, we 
can use this to look at the risks that SUVs pose to the 
occupants of crash partner cars. Similar rates can be used to 
assess crash partner risks from other cars and pickup trucks.
    In two vehicle crashes involving SUVs, pickups, or cars in 
which deaths occur in crash partner cars, the partner death 
rates varied according to the type and weight of the other 
vehicle. It should be noted when we look at these comparisons 
that partner death rates are significantly lower than occupant 
death rates, because improved crashworthiness or improved self-
protection can be effective in all kinds of crashes, while 
crash partner risks are relevant only in crashes involving two 
passenger vehicles. And right now, fewer than 35 percent of all 
car occupant deaths occur in crashes with other passenger 
vehicles, including other cars.
    But when we do look at the partner crash fatality rates, 
you can see that the heavier the weights of the SUVs, pickups, 
or cars involved in the crashes in which deaths occur in 
partner cars, the higher the partner-car death rates. The death 
rate in partner cars is lower when the other vehicle in a 
collision is another car than when it is an SUV or a pickup 
truck. This overall pattern is apparent during both 1990 and 
1991, and more recently in 2000 and 2001. So the data do show 
that SUVs and pickups do inflict more harm to car occupants in 
crashes than cars in crashes with other cars.
    It is interesting to note, however, that between 1990 and 
1991, and 2000 and 2001, the death rates in partner cars went 
down regardless of whether the other vehicle in the collision 
were other cars, SUVs, or pickups. But obviously, for overall 
safety, it is important to maintain an appropriate balance 
between self-protection and the risks for occupants of crash 
partner cars.
    So what is it about SUVs and pickups, beyond their weight, 
that increases the risk for the occupants for their crash 
partner cars? A clue is apparent in crash partner death rates 
by direction of impact. In crashes involving two cars, crash 
partner deaths are split about evenly between front-to-front 
and front-to-side impacts, but the split is very different when 
the other vehicle is an SUV. In these crashes, the occupant 
deaths in crash partner cars are about 50 percent more likely 
to occur in side than in frontal impacts.
    These self and partner death rates highlight differences 
between car and SUV safety. Today, the overall fatality rates 
for occupants of SUVs and cars are about the same, but their 
fatal crash patterns are different. SUV occupants are about 
twice as likely as car occupants to be in fatal single-vehicle 
rollover crashes.
    When it comes to deaths in crash partner cars, the partner 
death rates are when the other vehicle is an SUV, versus 
another car. And the most important differences are the 
elevated risks to the occupants of cars struck in the side by 
SUVs, compared with being struck in the side by other cars.
    How can these findings guide us to appropriate 
countermeasures to improve the protection of all occupants of 
all passenger vehicles? First, the results presented here 
demonstrate that progress has been made in self-protection for 
both cars and SUVs. Occupant death rates today are much lower 
than they were ten years ago, and there are many factors that 
contributed to these improvements.
    But clearly the issue of SUV rollover crashes still needs 
to be addressed, and we have some newer designs that have lower 
centers of gravity, wider track widths, so they should be more 
stable than older designs. Dynamic rollover rating systems 
being developed by NHTSA should help prospective SUV buyers 
choose models with a lower risk of rolling over. Electronic 
stability systems now available on some SUVs and likely to 
become more prevalent should reduce the likelihood that SUV 
drivers will lose control and slide sideways, which often 
precedes rolling over.
    What more can be done to improve the safety of occupants in 
cars in collisions with SUVs? A high priority should be to 
address the problem of SUVs striking the sides of cars. The 
risks are much greater to occupants of cars that are struck in 
the side by SUVs compared with when you are struck in the side 
by another car.
    The higher ride heights of SUVs mean that their front ends 
strike cars' relatively weak doors in side impacts. Plus, the 
higher hood heights on SUVs put car occupants' heads at greater 
risk.
    The first step, and a very important first step, is to 
improve the side protection offered in all vehicles, because 
this will work not only in crashes involving cars and SUVs, but 
in crashes involving two cars.
    To promote improvements in this area, the Institute 
recently began a crashworthiness evaluation program that will 
provide consumer information on the relative safety of new 
vehicles in side impacts. For the first time in any crash test 
program conducted for regulatory or consumer information 
purposes, the impact heights to sides of the vehicles in these 
tests simulates the front end of an SUV.
    Finally, what can be done to the front ends of vehicles to 
make them more compatible in two-vehicle crashes? Obviously, 
one necessary first step is to make sure somehow that the load-
bearing structures on the fronts of vehicles, cars and SUVs, 
are more likely to line up than they do today, because if they 
do not line up, we have over-ride, under-ride. So a fundamental 
need is ensure that we have interacting structures in front-to-
front crashes.
    In front-to-side crashes, the challenge is much greater, 
because the stiff parts of cars, the door-sill areas, are 
actually lower than the bumper heights of cars, let alone the 
bumper heights of SUVs. But, clearly, these issues all need to 
be addressed in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. O'Neill follows:]

Prepared Statement of Brian O'Neill, President, Insurance Institute for 
                             Highway Safety
    The Insurance Institute for Highway Safety is a nonprofit research 
and communications organization that identifies ways to reduce motor 
vehicle crash deaths, injuries, and property damage. I am the 
Institute's president, and I am here to discuss some aspects of the 
safety of sport utility vehicles (SUVs) compared with cars.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The increasing sale of SUVs in recent years is well known. They 
accounted for about 6 percent of all passenger vehicles 1 to 4 years 
old registered in 1990-91. A decade later the corresponding percentage 
had tripled to 18. During 2000-01, SUVs and pickups (all model years) 
accounted for 29 percent of total passenger vehicle registrations.
    The increasing number of SUVs on the road has contributed to a 
growing debate about the safety of these vehicles. Many purchasers say 
they buy SUVs in part because they believe there is a safety advantage. 
But do SUVs provide better protection than cars to their occupants in 
crashes? Do SUVs have a rollover problem? What about other people on 
the road? Are SUVs particularly hazardous, or ``aggressive,'' to people 
in the cars with which they collide?
Concepts of self protection and partner protection
    Two kinds of occupant death rates can be used to address these 
questions and provide insights about the relative safety of cars and 
SUVs. One kind summarizes the numbers of occupants killed in particular 
types of vehicles (cars, SUVs, or pickup trucks), per million of that 
vehicle type registered. These death rates can be used to compare 
crashworthiness among the different vehicle types--that is, to compare 
the protection they provide to their own occupants. This is sometimes 
referred to as self protection.
    For these comparisons of crashworthiness to be meaningful, it is 
necessary to isolate the effects of vehicle weight because SUVs and 
pickups are, on average, heavier than cars, and vehicle weight is an 
important determinant of occupant death rates. Everything else being 
equal, lighter vehicles will have higher occupant death rates.
     Small and lightweight vehicles have high death rates for their own 
occupants in all kinds of crashes, single as well as multiple vehicle. 
However, in crashes between two vehicles the heavier ones can increase 
the deceleration forces--and the injury risks--for occupants of the 
lighter ones. So an issue is the extent to which occupants of vehicles 
such as very large and heavy SUVs have lower risks at the expense of 
increased risks for occupants traveling in other vehicles. To assess 
this concern, it is important to consider not only what happens to 
occupants inside particular vehicle types (self protection) but also 
what happens to occupants inside other passenger vehicles with which 
they collide. These other vehicles sometimes are referred to as ``crash 
partners,'' and reducing the risks produced by particular vehicle types 
for the occupants of their crash partner vehicles sometimes is referred 
to as partner protection.
    Crash partner risks can be assessed by comparing the numbers of 
occupant deaths in cars (all model years) in crashes with SUVs, 
pickups, or other cars (specific model years; per million of the SUVs, 
pickups, or cars registered). These death rates indicate the risks for 
occupants of crash partner cars resulting from collisions with 
different vehicle types. As with crashworthiness (or self protection) 
death rates, comparisons of crash partner death rates need to isolate 
the effects of vehicle weight. This allows comparisons of the risks to 
occupants of partner cars when the other vehicle is, for example, a 
heavy car versus a heavy SUV.
    The combination of self and crash partner death rates considers 
both deaths inside vehicles in all crashes and deaths in partner 
vehicles in two-vehicle collisions. This combination provides a more 
complete assessment of occupant safety.
Self protection: occupant deaths in cars, SUVs, and pickups
    Small and lightweight vehicles afford much less protection to their 
occupants in crashes than larger and heavier vehicles. This is true 
regardless of vehicle type (car, SUV, or pickup). During 1990-91, 
occupant deaths per million registered vehicles 1 to 4 years old were 
highest in the lightest vehicles. Occupant death rates also varied by 
vehicle type. In each vehicle weight category, occupant death rates in 
vehicles 1 to 4 years old during calendar years 1990-91 were lower in 
cars than in SUVs or pickups. A decade later (2000-01) the patterns had 
changed somewhat. Most noticeable is that occupant death rates were 
substantially lower across the board for cars, SUVs, and pickups in 
every weight category. Consider, for example, vehicles weighing 3,000 
to 3,499 pounds. During 1990-91 the self-protection death rate for cars 
was 152 per million registered cars. The corresponding rate for SUVs 
was 187 deaths per million, and for pickups it was 227 deaths per 
million. By 2000-01 these rates had dropped to 127 (cars), 129 (SUVs), 
and 188 (pickups).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There still were relationships between occupant death rates and 
vehicle weights during 2000-01, but these relationships were less 
pronounced than they had been a decade earlier. The biggest changes 
occurred in the death rates for the lightest cars (those weighing less 
than 2,500 pounds). This reflects in part the fact that cars in this 
weight category got heavier. Fifty-four percent of 1987-89 car models 
in the lightest group weighed less than 2,250 pounds. A decade later, 
fewer than 9 percent were as light.
    Comparisons of death rates by vehicle type reveal other changes 
from 1990-91 to 2000-01. During the more recent years, cars still had 
lower death rates than pickups. But in the same weight categories, the 
death rates were similar for cars and SUVs 1 to 4 years old.
    Although death rates are similar for recent model cars and SUVs, 
deaths in these vehicles are not occurring in the same kinds of 
crashes. Single-vehicle rollover crashes consistently account for about 
20 percent of car occupant deaths. In contrast, the corresponding 
percentage of SUV occupant deaths that occurred in single-vehicle 
rollovers was 52 during 1990-91 and 48 a decade later. Consider 1997-99 
model vehicles in the 3,000-3,499 pound weight category. Twenty-two 
percent of the occupant deaths in cars of this weight occurred in 
single-vehicle rollovers. The corresponding percentage for SUVs was 41 
and for pickups 37. Thus, the risk of a fatal single-vehicle rollover 
crash is about twice as high for SUV occupants as it is for car 
occupants.
Crash partner risks: car occupant deaths in crashes with other 
        passenger vehicles
    In two-vehicle crashes involving 1-to-4-year-old SUVs, pickups, or 
cars in which deaths occur in crash partner cars (all model years), the 
partner death rates vary according to the type and weight of the other 
vehicle. It should be noted that partner death rates are significantly 
lower than occupant death rates, which measure self protection, because 
improved crashworthiness can be effective in all kinds of crashes while 
crash partner risks are relevant only in crashes involving two 
passenger vehicles. Fewer than 35 percent of all car occupant deaths 
occur in crashes with other passenger vehicles, including other cars.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The heavier the weights of the SUVs, pickups, or cars involved in 
crashes in which deaths occur in partner cars, the higher the partner 
car death rates. In every vehicle weight group except one, the death 
rate in partner cars (all model years) is lower when the other vehicle 
in the collision is another car than when it is an SUV or a pickup 
truck. This overall pattern is apparent for vehicles 1 to 4 years old 
during both 1990-91 and 2000-01. However, during the intervening decade 
the death rates in partner cars (all model years) went down, regardless 
of whether the other vehicles in the collisions were other cars, SUVs, 
or pickups. Another change during 2000-01, compared with 1990-91, was 
that the differences in partner car death rates were smaller when the 
other vehicles were cars versus SUVs.
Balance between self protection and crash partner risks
    For overall safety, it is important to maintain an appropriate 
balance between self protection and risks for occupants of crash 
partner cars. A good example involves vehicle weight. Increasing weight 
generally increases self protection, but this benefit diminishes as 
vehicles get heavier and heavier. At the same time, the disbenefits for 
occupants of crash partner cars do not appear to decrease as the other 
vehicles get heavier and heavier. So at some point heavy vehicles cost 
more lives in crash partner cars than they save.
    Comparing self and partner death rates for each vehicle type shows 
that more occupant deaths occur even in heavy SUVs and pickups than in 
their crash partner cars. Consider the group of SUVs weighing 4,000 to 
4,500 pounds. The occupant death rate in these vehicles 1 to 4 years 
old during 2000-01 was 123, and their car crash partner death rate was 
64. Thus there were twice as many deaths inside these relatively heavy 
vehicles as in their crash partner cars. Compared with cars, both SUVs 
and pickups have proportionately more car crash partner deaths than 
occupant deaths, which indicates that SUVs (and pickups) pose greater 
risks than cars for the occupants of their crash partner cars.
    What is it about SUVs, beyond their weight, that increases the 
risks for occupants of their car crash partners? A clue is apparent in 
crash partner death rates by direction of impact. In crashes involving 
two cars, crash partner deaths are split about evenly between front-to-
front and front-to-side impacts. But the split is very different when 
the other vehicle is an SUV. In these crashes, the occupant deaths in 
crash partner cars are about 50 percent more likely to occur in side 
than in frontal impacts.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Conclusions
    The self and partner death rates summarized above highlight 
differences between car and SUV safety, and most of the differences 
between these two vehicle types also apply to cars versus pickups.
    It often has been claimed that overall occupant death rates are 
lower in SUVs than in cars. The implication is that SUVs are safer. But 
this results largely from the heavier weights of SUVs compared with 
cars. For example, only 5 percent of all 1997-99 model cars weighed 
more than 4,000 pounds, while the corresponding percentage for SUVs was 
49. So it is disingenuous for defenders of SUVs to claim they are safer 
than cars. Most of their advantage in terms of self protection is 
simply due to mass. It also is undeniable that SUVs, as a group, have a 
rollover problem. They are about twice as likely as cars to be in fatal 
single-vehicle rollover crashes.
    When it comes to occupant deaths in crash partner cars, the partner 
death rates are higher when the other vehicle is an SUV versus another 
car. The most important differences are the elevated risks to occupants 
of cars struck in the side by SUVs, compared with being struck in the 
side by other cars.
    How can these findings guide us to appropriate countermeasures to 
improve the protection of all occupants of all passenger vehicles? 
First, the results presented here demonstrate that progress has been 
made in self protection for both cars and SUVs. Occupant death rates in 
1997-99 models during 2000-01 were significantly lower than 
corresponding rates for 1987-89 models during 1990-91. Many factors 
contributed to the improvements. Belt use rates in the United States 
increased from 49 percent in 1990 to 71 percent in 2000. Only 3 percent 
of 1987-89 vehicle models were equipped with airbags, compared with 100 
percent of 1997-99 models. Average car weights increased about 350 
pounds, while SUVs got 650 pounds heavier. Passenger vehicle 
crashworthiness improved. Alcohol-impaired driving decreased. All of 
these changes contributed to the significant improvements in self 
protection, but there is more to be done.
    The issue of SUV rollover crashes needs to be addressed. Some of 
the newer SUV designs have lower centers of gravity and wider track 
widths, so they should be more stable than the older designs. Dynamic 
rollover rating systems being developed by the National Highway Traffic 
Safety Administration should help prospective SUV buyers choose models 
with a lower risk of rolling over. (The ratings might even--dare I say 
it?--persuade some consumers that SUVs are not the wisest choice.) 
Electronic stability systems now available on some SUVs, and likely to 
become more prevalent, should reduce the likelihood that SUV drivers 
will lose control and spin sideways, which often precedes rolling over. 
Volvo has introduced something even newer. Rollover sensors on the new 
Volvo SUV are designed to deploy inflatable curtains that cover side 
windows when a rollover begins and remain inflated throughout the 
rollover to help prevent full or partial occupant ejection.
    Just as self protection is improving, crash partner death rates 
also are coming down. But in this regard it is important to recognize 
that the risks to car occupants in crashes with SUVs can be influenced 
by changes to both cars and SUVs. The reductions in partner death rates 
that occurred between 1990- 91 and 2000-01 demonstrate this. They 
occurred as the numbers and weights of SUVs in the fleet were 
increasing, and they were due mainly to the many improvements in self 
protection for car occupants--not to design changes to SUVs to reduce 
risks to occupants of their crash partners.
    What more can be done to improve the safety of occupants of cars in 
collisions with SUVs? A high priority should be to address the problem 
of SUVs striking the sides of cars. The risks are much greater to 
occupants of cars that are struck in the side by SUVs, compared with 
being struck in the side by another car, even when the other car and 
SUV weigh the same. This indicates that the problem relates to 
differences in the configurations of the two vehicle types. The higher 
ride heights of SUVs mean their front ends strike cars' relatively weak 
doors in side impacts. Plus the higher hoods of SUVs put car occupants' 
heads at great risk.
    In the short term, the increased risks to car occupants struck in 
the sides by SUVs should be addressed by improving self protection in 
cars--specifically by adding inflatable head protection systems like 
curtains or side airbags that protect both the head and thorax. These 
should be added to new cars as standard equipment as soon as possible. 
Improving side airbags that protect the thorax and improving vehicle 
side structures around the B-pillar also would reduce the risks in side 
impacts. To promote such improvements, the Institute recently began a 
crashworthiness evaluation program that will provide consumer 
information on the relative safety of new vehicles in side impacts. For 
the first time in any crash test program conducted for regulatory or 
consumer information purposes, the impactor that hits the sides of 
vehicles in these tests simulates the front end of an SUV.
    Finally, what can be done to the front ends of vehicles to make 
them more compatible in two-vehicle crashes? In many collisions between 
cars and SUVs (and in some collisions between two cars) the structures 
of the two vehicles designed to manage crash forces override or 
underride, thus negating their crash energy management designs. So a 
fundamental need is to ensure that such structures interact in crashes. 
Ford's introduction of so-called blocker-beams on some of its SUVs may 
signal the beginning of efforts to ensure such interaction. Plus some 
of the newer car-based SUV designs, often called ``crossovers,'' offer 
opportunities for improved structural interaction in crashes. Other 
designs that might reduce structural mismatches in on-the-road crashes 
are adjustable suspensions that automatically lower ride heights on the 
highways but allow for upward adjustment and greater clearance off road 
or, for example, in low-speed driving through deep snow.
    These SUV design innovations are promising. However, changes also 
will be needed to car designs to improve crash compatibility. The 
occupant compartments of both cars and SUVs need to be strong so they 
will remain intact in a wide range of serious crashes (frontal offset 
crash testing is helping to accomplish this). And in the longer term, 
test procedures and criteria need to be developed to ensure that 
vehicle front-end stiffnesses match. Future designs should be driven by 
good data from research and testing as well as real-world crash 
experience. The evidence tells us that crash compatibility and partner 
protection improvements are needed, but the highest priority in the 
short and even medium term should continue to be self protection for 
people in both cars and SUVs.

    The Chairman. Thank you very much.
    Mr. Lange, welcome.

   STATEMENT OF ROBERT C. LANGE, EXECUTIVE DIRECTOR, VEHICLE 
  STRUCTURE AND SAFETY INTEGRATION, GENERAL MOTORS CORPORATION

    Mr. Lange. Thank you, Senator McCain.
    Good morning. I am Bob Lange. I am the executive director 
for Vehicle Structure and Safety Integration at General Motors 
Corporation. I started work with GM in 1994, and each day since 
I have been able to work with thousands of GM's engineers to 
improve vehicle safety. We appreciate the opportunity to be 
here today to discuss the safety of sport utility vehicles.
    The issues this Committee has inquired about have recently 
attracted increased public attention. For some time, however, 
GM has been researching, designing, and adding features to our 
SUVs to help make them safer. GM currently offers many SUVs in 
various sizes and price ranges. They all provide utility, 
performance, functionality, and other key attributes, including 
occupant safety, that millions of our customers value and need. 
They also help to generate the resources that enable us to 
reinvest in our business and to continue research on advance 
safety, hybrids, and fuel-cell-equipped vehicles.
    SUVs are useful for many purposes. According to a 2002 Polk 
survey, almost 80 percent of SUV owners frequently or sometimes 
drive their SUVs during harsh weather. And our research shows 
that, on a weekly basis, more SUVs than vans are used to 
transport children.
    Sport utility vehicles are safe. The most recent government 
data show that today's SUVs are at least as safe as passenger 
cars overall, and safer than cars in the vast majority of 
crashes. As Administrator Runge noted in a recent speech, there 
is a 97 percent chance that if a crash occurs, it will involve 
a front, rear, or side impact, and the safety record for SUVs 
in these types of crashes is exceptional. In particular, the 
occupant fatality rate for SUVs during 2001 was about half that 
of cars in such crashes.
    Government data do show proportionately more fatalities in 
rollover crashes for light trucks, including SUVs, than for 
passenger cars. And Senator, as you know, you have had several 
comments about that already this morning.
    GM has been working to reduce rollovers by designing its 
products for good, dynamic stability and by helping drivers to 
maintain control of their vehicles in extreme conditions with 
the application of vehicle stability enhancement systems. GM 
first introduced this technology in 1997. The system activates 
when the computer senses a discrepancy between a driver's 
intended path and the direction the vehicle is traveling. The 
unit then selectively applies braking pressure to help steer 
the vehicle in the appropriate direction. It is now on over 2 
million GM vehicles that are on the road today.
    Another emerging technology that could significantly reduce 
the potential for rollover injury is the side curtain airbag. 
We are developing new rollover sensors that will trigger 
deployment of these bags in rollovers and other types of 
crashes, thereby minimizing the potential for a head injury and 
reducing the possibility of ejection.
    GM has also been working on collision compatibility for 
nearly a decade. Our primary focus to date has been on 
structural alignment between cars and trucks and improved car 
side structures, reference the testimony given by Mr. O'Neill 
already. GM is now working with our competitors, the Insurance 
Institute for Highway Safety, and NHTSA to develop industry-
wide to SUV collision compatibility and rollover. We expect 
within months these efforts will yield a common industry 
standard for these SUV safety challenges.
    The most effective and immediate way to improve light-truck 
safety is to improve safety-belt use and discourage impaired 
driving. In 2001, 77 percent of those who suffered a fatal 
injury in an SUV rollover crash were not wearing a safety belt, 
and 35 percent of these crashes involved an impaired driver. 
These problems provide our greatest and most immediate 
opportunities to improve the safety performance of SUVs in 
rollover crashes.
    GM is involved in public policy efforts to reduce drunk 
driving and increase seatbelt use through our partnerships with 
Mothers Against Drunk Driving, the National Council's Airbag 
and Seatbelt Safety Campaign, also supported by other vehicle 
manufacturers and Nationwide Insurance and the National Safe 
Kids Campaign in which we partner with the UAW, as well.
    Congress can also play an important role in promoting motor 
vehicle safety by encouraging more States to adopt primary 
enforcement seatbelt-use laws. If seatbelt use were to reach 
the 90-percent-plus levels that have already been achieved in 
some States, we can save several thousand lives each and every 
year.
    In the meantime, General Motors will continue to do its 
part in developing and implementing technologies to improve 
motor vehicle safety.
    Thank you very much.
    [The prepared statement of Mr. Lange follows:]

  Prepared Statement of Robert C. Lange, Executive Director, Vehicle 
      Structure and Safety Integration, General Motors Corporation
    I am Robert Lange, Executive Director for Vehicle Structure and 
Safety Integration at General Motors Corporation. We appreciate the 
opportunity to be here today to discuss the safety of our sport utility 
vehicles (SUVs) and related matters.
    The issues the Committee has inquired about have recently attracted 
increased public attention. However, GM has been researching, designing 
and adding features to our SUVs to address these issues and to help 
make our SUVs even safer for some time. I will discuss those efforts 
and our future direction with the Committee, and will talk about the 
way we approach motor vehicle safety at GM.
Sport Utility Vehicles are important to us and our customers
    Sport utility vehicles are very important for General Motors and 
our customers. GM offers a range of SUVs. Among them are full-sized 
utilities, such as the Chevrolet Suburban, Chevrolet Tahoe and the GMC 
Yukon; mid-sized utilities, such as the Pontiac Aztek, Buick 
Rendezvous, GMC Envoy, Oldsmobile Bravada and Chevrolet TrailBlazer; 
and smaller sport utility vehicles, like the Saturn VUE and the 
Chevrolet Tracker. These SUVs are among our most popular models. They 
provide utility, performance, functionality and other key attributes--
including occupant safety--that millions of our customers value and 
need. They also help to generate the resources that enable us to 
reinvest in our business, and continue research for advanced safety and 
alternative fuel development.
    Importantly, SUV sales in the United States provide American jobs--
roughly 450,000 of them.
    During the past decade and a half, sport utility vehicles and other 
light duty trucks have become increasingly popular among American 
vehicle purchasers. SUVs represented 24 percent of all new vehicle 
sales in the U.S. last year. SUVs now represent nearly 12 percent of 
all registered vehicles here in the U.S.
    According to a 2002 R. L. Polk survey, almost 80 percent of SUV 
owners ``frequently'' or ``sometimes'' drive their SUV during harsh 
weather. In Detroit, we received reports of the recent winter storm 
here in Washington. The coverage included footage of emergency workers 
and even the President of the United States traveling in SUVs, while 
most of the area was paralyzed. According to reports, TV and radio 
pleas during the storm included appeals for those with SUVs and other 
four-wheel drive vehicles to help transport hospital and other 
emergency personnel to work.
    These vehicles are useful for many other purposes as well. The 2002 
R. L. Polk survey also shows that half of SUV owners use their vehicles 
to haul tools, appliances or other bulky items. Twenty-four percent use 
their SUV to carry bikes, kayaks, canoes or skis, or to tow boats, 
snowmobiles or other items that require a trailer. Fifteen percent of 
SUV owners have driven their vehicle off road. Significantly, our 
research shows that on a weekly basis, more SUVs transport children 
than vans.
    Americans choose to buy SUVs because no other type of vehicle 
provides the same level of safety, capability, comfort and convenience. 
As a J.D. Power and Associates survey put it: `` . . . the notion that 
these vehicles are only being used to go back and forth to work or 
grocery shopping is false. The owners of these vehicles lead very 
active lifestyles and enjoy the level of comfort and convenience that 
they cannot receive in a traditional car product.''
Sport Utility Vehicles are safe
    Some are drawn to purchase SUVs, at least in part, because of the 
safety they provide. The most recent government data show that today's 
SUVs are at least as safe as passenger cars overall, and safer than 
cars in the vast majority of crashes. Just a few months ago, the 
Insurance Institute for Highway Safety completed a study of driver 
fatalities in crashes involving one-to-three year old vehicles. The 
study shows that in 2001, driver deaths per million registered 
passenger vehicles was 73 for SUVs, 83 for passenger cars, and 130 for 
pickup trucks. These data indicate that, overall, the fatality rate for 
SUV drivers is 12 percent lower than the fatality rate for passenger 
car drivers. From 1981 to 2001, driver fatality rates for one-to-three 
year old SUVs declined 69 percent, while driver fatality rates for one-
to-three year old passenger cars and pickups declined 53 and 40 
percent, respectively.
    As Administrator Runge recently noted, there is a 97 percent chance 
that a collision will involve a front, rear or side impact. The safety 
record for SUVs in these crashes--the vast majority of all vehicle 
collisions--is exceptional. In 2001, the occupant fatality rate per 
100,000 registered vehicles for passenger cars in front, rear and side 
crashes combined was 12.17. The fatality rate for SUVs was 
approximately half that of cars--6.34. For pickup trucks, the rate was 
9.25. So, as drivers head out on this country's roads today, in the 
rare event they become involved in a crash, there is an overwhelming 
likelihood--a 97 percent likelihood--that the crash will involve a 
frontal, side or rear collision. In simple terms, the chance of a 
fatality in an SUV in those crashes is roughly half of what it is in a 
passenger car.
Rollover rates and what GM is doing about it
    Government data show proportionately more fatalities in rollover 
crashes for light trucks, including SUVs, than for passenger cars. 
General Motors has recognized this concern and has been addressing it.
    GM utilizes specific performance measurements to assess vehicular 
stability in the design of new SUVs. These measurements are intended to 
help ensure that the acceleration necessary for an unaided ``tip over'' 
is significantly greater than the maximum lateral acceleration the 
vehicle model can generate on the road. GM has applied these 
performance measurements to all new GM products since 1999.
    Vehicle rollover collisions are overwhelmingly associated with a 
driver loss of control. This may be caused by inattention, 
inexperience, or anxiety. After losing control, drivers tend to steer 
too fast and/or too far for the prevailing road conditions. The vehicle 
can exceed its adhesion limit; the vehicle response is no longer 
predictable and recovery can be difficult. If control cannot be 
recovered, the vehicle may go off-road; this is the way in which most 
rollover events take place.
    GM and other manufacturers are attempting to help drivers maintain 
control in such extreme conditions and thereby keep the vehicle on the 
road. At GM, such systems have various trade names, but all fall into a 
single category: ``Vehicle Stability Enhancement Systems.''
    The Vehicle Stability Enhancement System (VSES) is an emerging 
technology that can help reduce rollover frequency. GM introduced this 
system in 1997. It is on over two million GM vehicles that are on the 
road today. Vehicle Stability Enhancement is an advanced computer 
controlled system that assists the driver with directional control of 
the vehicle in difficult driving conditions. The system activates when 
a computer senses a discrepancy between the driver's intended path and 
the direction the vehicle is actually traveling. The system then 
selectively applies braking pressure at any one of the vehicle's wheels 
to help steer the vehicle in the appropriate direction.
    Another emerging technology that could significantly reduce the 
likelihood of rollover injuries is the side curtain air bag. In the 
event of a rollover, the air bag deploys and occupies the space between 
the occupant and the inside of the vehicle, thereby minimizing the 
potential for a head injury and reducing the likelihood for a partial 
ejection. This feature also has much promise for those of us who are 
concerned about larger vehicle collision with smaller vehicles: the 
collision compatibility challenge.
Compatibility
    GM, like the Committee, is concerned with vehicle crash 
compatibility between passenger cars and SUVs. These crashes are a 
relatively minor, but still significant portion of fatal passenger car 
crashes--six percent. GM has been working to address the compatibility 
challenge for some time; however, we wish to do so without degrading 
the overall safety of SUVs or diminishing the popular attributes of 
SUVs. For example, we have tried to better align the structural 
elements of SUVs with the passenger car fleet. We have added vehicle 
structure to spread collision forces broadly across the front of SUVs 
and thereby reduce point loading on the impacted car structure. These 
design features also help to reduce the potential for intrusion injury 
to passenger car occupants. GM is also working to improve passenger car 
safety by improving side structures and making side curtain air bags 
available in passenger cars.
    In addition to its own SUV safety initiatives, GM is working with 
industry competitors, the Insurance Institute for Highway Safety, and 
NHTSA to develop industry wide approaches to SUV collision 
compatibility. Within months, these efforts are expected to yield 
common industry standards for SUV collision compatibility and rollover 
mitigation. GM is eager to cooperatively address these issues with our 
industry and government.
Promoting safe driving
    It is important to observe that the data clearly point to the most 
effective and immediate way to improve light truck safety: encourage 
safety belt use and discourage impaired driving. In 2001, 77 percent 
(or 1258 of 1639) of those who suffered a fatal injury in a SUV 
rollover crash were not wearing a safety belt. For pickups, 85 percent 
(or 1782 of 2100) who suffered a fatal injury during a rollover crash 
were unbelted. Safety belts have been shown to be 80 percent effective 
in preventing fatal injuries in light truck rollover crashes. The data 
on driver impairment are equally eye-opening: 35 percent of fatal SUV 
rollover crashes, and 85 percent of fatal pickup truck rollover 
crashes, involved an impaired driver in 2001. This is our greatest and 
most immediate opportunity to improve the safety performance of SUVs 
and other vehicles in rollover crashes.
    GM is involved in three major public policy efforts to reduce drunk 
driving and increase seat belt use.
    First, we are entering the fourth year of a five-year, $2.5 million 
commitment to Mothers Against Drunk Driving to help convey the message 
that drivers should never operate a vehicle while impaired.
    To increase seat belt use, GM has joined its competitors, NHTSA and 
others to support the National Safety Council's Air Bag & Seat Belt 
Safety Campaign. The Campaign's signature program, the Operation ABC 
Mobilization enlists thousands of law enforcement agencies for highly 
intensive education and enforcement activities in May and November each 
year. Since the start of the Mobilizations in 1997, the national seat 
belt use rate has increased from 61 percent to the current all-time 
high of 75 percent. The Campaign has worked for passage of primary 
enforcement seat belt use laws in more than twenty states.
    Another major commitment, along with the UAW-GM Center for Human 
Resources, is to an extensive child passenger safety program with the 
National SAFE KIDS Campaign. This program, which began in 1996, 
involves public education and the inspection of child safety seats for 
proper installation at GM dealerships and community events. We have 
donated 81 mobile child seat inspection vans to SAFE KIDS coalitions 
around the country. In addition, the UAW and GM have given 212,000 
child seats free of charge to at-risk populations and to those who need 
new seats. More than 327,000 child seats have been inspected to date.
    GM has met the challenge presented by Dr. Runge to improve seat 
belt use with additional technology. GM will soon start to install 
additional seat belt reminder technology to encourage higher seat belt 
use. Our new vehicle fleet will be equipped with these new features to 
remind all drivers to buckle up on every trip.
Looking to the future
    Congress could play an important role in enhancing motor vehicle 
safety in the short term by encouraging more states to adopt primary 
enforcement seat belt use laws. Only 18 states and the District of 
Columbia currently have laws that allow police to enforce seat belt 
requirements in the same way that they enforce every other traffic law. 
But since Chairman McCain discussed state action on primary belt laws 
at this Committee's hearing on air bag safety in early 1997, only seven 
states have upgraded their seat belt laws.
    If seat belt use could be raised to the 90 percent-plus levels that 
have been achieved in some states, NHTSA estimates several thousand 
lives--from rollovers and other types of crashes--can be saved each and 
every year. There is no technological solution that has nearly the 
potential for such large-scale injury mitigation. Increased seat belt 
use would be a meaningful complement to the technology initiatives 
already being undertaken by the industry.
    The last twenty-plus years have taught us that public policy 
initiatives can improve safe driving. Drunk driving fatalities have 
been reduced by about 40 percent since 1980--although recent experience 
is not positive. In a similar time frame, seat belt use has increased 
by 60--65 percentage points. Congressional assistance in this area 
would be greatly appreciated and strongly supported by those of us in 
the motor vehicle safety business, and could be quite significant in 
contributing to our shared goal of a safer roadway environment.
    In the meantime, GM will do its part in continuing to develop and 
implement technologies to improve vehicle safety.
    Thank you.

    The Chairman. Thank you very much.
    Senator Lautenberg. Mr. Chairman, if I might ask a 
question? Will the record be kept open for this hearing so that 
I can submit some questions? Because I have to leave.
    The Chairman. Absolutely. Absolutely.
    Ms. Cischke?

        STATEMENT OF SUSAN M. CISCHKE, VICE PRESIDENT, 
    ENVIRONMENTAL AND SAFETY ENGINEERING, FORD MOTOR COMPANY

    Ms. Cischke. Thank you for the opportunity to testify.
    The Chairman. Pull the microphone closer.
    Ms. Cischke. Sorry.
    Thanks for the opportunity to testify regarding the safety 
and design of sport utility vehicles. My name is Susan Cischke, 
and I am vice president of Environment and Safety Engineering 
for Ford Motor Company. Our automotive brands include Ford, 
Lincoln, Mercury, Volvo, Jaguar, Land Rover, Aston Martin, and 
Mazda.
    For the past one-hundred years, Ford Motor Company has 
recognized its responsibility to provide our customers with 
vehicles that have the utility they require and the safety they 
demand. We have been leaders in the introduction of safety 
features across all our vehicle lines and continuously strive 
to improve the safety of all our vehicles. We also believe that 
safety is a shared responsibility between the vehicle 
manufacturers and the drivers.
    In our written testimony, we have described the excellent 
safety performance of SUVs in general. It is my privilege to 
now highlight our efforts at Ford to advance safety technology.
    Ford believes the single most important safety technology 
in a vehicle is the safety belt. Ford developed the BeltMinder 
system which chimes on and off for several seconds over the 
course of five minutes when the driver is not buckled up. It is 
standard equipment on all Ford vehicles since 2001. We pursued 
our BeltMinder feather not because of regulation, but because 
it was the right thing to do, and we now have data to show it 
is working.
    While safety belts are the best means for keeping 
passengers safe, new side curtain airbags and rollover sensing 
technologies supply additional occupant protection during 
certain types of crashes, including rollover. Ford was the 
first auto maker to feature rollover sensors and special side 
curtain airbags on our SUVs, and we call that the ``safety 
canopy,'' which debuted on the 2002 Ford Explorer and Mercury 
Mountaineer.
    The safety canopy is designed to remain inflated for an 
extended period of time to provide protection, especially 
during rollover events. It also helps reduce the risk of head 
injuries for SUV occupants involved in side impacts. The Ford 
Escape and the Ford Excursion have seat-mounted side airbags to 
protect the occupant's head and thorax in a side crash. 
Customers buy our SUVs for the excellent protection they 
provide in front and side crashes. Ford has more four- and 
five-star rated SUVs in the Federal Government Crash Test 
Program than any other auto maker. And five of our top-selling 
SUVs also has Ford's personal safety system, which is capable 
of tailoring the deployment of airbags based on crash severity 
in order to enhance the protection for front-seat occupants.
    But it is important to look at more than crashworthiness. 
We need to look at ways to avoid accidents in the first place. 
And Ford does this through extensive vehicle tests that ensure 
our vehicles have consistent handling and predictable vehicle 
dynamics. Ford is a leader in developing emerging technologies 
that show great potential for helping the driver.
    Ford first introduced an electronic stability control 
system called AdvanceTrac in August of 2000, later adding it to 
the majority of SUVs. It monitors the driver's steering, 
throttle, and braking inputs to determine the driver's intended 
course, and then monitors how the vehicle is responding. When 
it detects a deviation, it can react in milliseconds by 
applying the brakes to one or more wheels and, if necessary, 
adjusting the engine power to help the driver get back on path.
    In addition, Ford is the first auto maker to develop and 
patent a roll stability control system, which debuted this year 
on the Volvo XC90. This system is designed to assist the driver 
under severe handling situations and help reduce the likelihood 
of a rollover accident by using gyroscopic sensors to determine 
roll speed and roll angle. Once engaged, the system reduces 
power and/or uses the brake until driver control is regained.
    The issue of vehicle compatibility has also drawn much 
attention. Ford has been working to improve vehicle 
compatibility by adding structure and lowering rail heights of 
SUVs. For example, the Expedition, Explorer, and Mountaineer 
bumper beam and frame rails are compatible with the height of 
bumpers on a typical passenger car, such as the Ford Taurus. 
Also, for the 2000 model year Excursion, Ford introduce a 
blocker beam that lowers the point of engagement for a frontal 
impact and helps prevent the SUV from riding over smaller 
vehicles.
    Ford will continue to build vehicles with utility and 
safety that our customers require. Nevertheless, we view 
vehicle safety as a partnership, and where vehicle design ends, 
customer responsibility begins. The sad fact is, roughly 50 
percent of those who die annually in traffic crashes do not use 
safety belts. And in rollover crashes, some 72 percent of the 
occupants who died were not belted. Their chance of survival 
would have been ten times greater had they buckled up.
    As I mentioned earlier, we developed the belt-minder system 
to remind them to do so. And studies show that it has increased 
safety-belt usage by five percentage points. NHTSA was so 
encouraged by this significant increase, they have requested 
all auto makers to add this feature. Dr. Runge stated, and I 
quote, ``I applaud Ford for showing the initiative, leading the 
way to go beyond the minimal Federal requirements and 
voluntarily using technology to increase seatbelt use. The 
American people win when vehicle manufacturers demonstrate good 
corporate citizenship by going beyond the minimums required 
under safety standards.'' Ford is making its technology 
available at no cost to all other auto makers that are 
interested in it.
    Governments have a unique role, too. Primary seatbelt-use 
laws combined with highly publicized enforcement are key to 
increasing safety-belt usage. No other technology has the 
capability to save so many lives as quickly at no cost.
    In conclusion, Ford will continue to offer our customers 
the products and features that they desire, as well as the 
improvements in safety, versatility, and compatibility. During 
the recent snowstorm that affected Washington, D.C., and the 
East Coast, many hospital and other essential government 
services relied upon volunteer SUV owners to transport critical 
personnel during the adverse weather. These circumstances 
dramatically demonstrated the value and the utility of SUVs and 
helps explain the strong customer demand for these vehicles.
    I thank you for the opportunity to testify before the 
Committee, and I would be happy to answer any questions.
    [The prepared statement of Ms. Cischke follows:]

 Prepared Statement of Susan M. Cischke, Vice President, Environmental 
               and Safety Engineering, Ford Motor Company
    Thank you Senator McCain for the opportunity to testify before your 
Committee regarding the safety and design of Sport Utility Vehicles 
(SUVs). My name is Susan M. Cischke and I am Vice President of 
Environmental and Safety Engineering for Ford Motor Company. As you may 
know, Ford Motor Company is the world's second largest automaker with 
approximately 350,000 employees, and operates in more than 200 markets 
on six continents. Its automotive brands include Aston Martin, Ford, 
Jaguar, Land Rover, Lincoln, Mazda, Mercury and Volvo.
    For the past 100 years, Ford Motor Company (Ford) has recognized 
its responsibility to provide our customers with vehicles that have the 
utility they require and the safety they demand. We are committed to 
continuous improvement in the safety of all our vehicles and have been 
leaders in the introduction of safety features across all our vehicle 
lines. We also believe that safety is a shared responsibility between 
vehicle manufacturers and vehicle operators. We will continue our long-
standing efforts to promote increased safety belt usage and to 
encourage responsible driving.
    It is my privilege to share with this Committee the rest of the 
story, about the efforts that Ford takes to ensure the safety of our 
SUVs, areas of Ford safety leadership, our efforts to continuously 
improve our vehicles, and our initiatives to encourage our customers to 
buckle up.
    Americans value freedom--especially the freedom to make choices for 
themselves and their families based on what meets their individual 
needs. When Ford introduced the Explorer in 1991 in response to 
customer needs, it struck a cord with the American public. Since then 
the Explorer has become the SUV that more Americans have chosen than 
any other SUV to carry their families, friends and various types of 
cargo millions of miles across every kind of terrain in the country.
    Customers weigh many factors when choosing a family vehicle--cost, 
capability and safety, to name a few. In 2002 alone, 4 million 
customers worldwide have found that SUVs fit the bill in these areas 
and more. While there are more vehicle choices in the market than ever 
before, the SUV segment is the fastest growing in the industry, 
accounting for 25 percent of all vehicles sold in the United States in 
2002, up 6.3 percent from 2001.
    As the leader in the SUV segment, Ford takes seriously the 
commitment to continuously improve these vehicles through the 
development of new technologies. As we move forward, we will continue 
our philosophy of `no compromise' when it comes to designing features 
that customers want. We will give our customers the products and 
features that they desire--as well as improvements in safety, 
versatility and compatibility.
Safety Facts
    SUV owners demand an exceptional safety record from their 
vehicles--and they get it. According to data from the National Highway 
Traffic Safety Administration (NHTSA):

  <bullet> SUVs are among the safest vehicles on the road and have 
        contributed to the dramatic decline in our nation's fatality 
        rate over the last decade.

  <bullet> SUVs are protective of occupants in all crash modes. In 
        2001, roughly 3,500 SUV occupants died in crashes, compared to 
        more than 20,000 passenger car occupants. When these numbers 
        are normalized for the number of registered vehicles on the 
        road, there is no discernable difference in overall fatality 
        rates between SUVs and passenger cars. Both have been 
        declining, but SUV fatality rates have been declining faster 
        than those of other vehicle segments.

  <bullet> SUVs are twice as protective of their occupants than any 
        other passenger vehicle in frontal, side and rear-impact 
        crashes, which make up 97 percent of all crashes. Ford's family 
        of SUVs is a leader in this area, with all our vehicles scoring 
        either four or five stars in frontal and side impacts.

  <bullet> The fatality rate in the Explorer in all crash types is 27 
        percent lower than passenger cars overall and 17 percent lower 
        than other SUVs, according to our analysis of data from the 
        U.S. Department of Transportation.

Rollover Safety
    While SUVs do experience a higher rollover rate than passenger 
cars, rollovers are rare events and the rates are declining:

  <bullet> Rollovers account for only 3 percent of all vehicle crashes.

  <bullet> Despite the over 103 percent increase in the number of 
        registered SUVs since 1996, rollover fatality rates per 100,000 
        registered passenger vehicles have declined for all vehicle 
        body types, with SUVs exhibiting the largest decline.

  <bullet> Given a rollover, SUVs are more protective of occupants in 
        rollovers than are passenger cars. Compared to passenger cars 
        involved in rollovers, SUVs lower the occurrence of injury by 
        almost 20 percent. And SUV occupants incur the fewest number of 
        rollover fatalities occurring annually, compared to passenger 
        cars or pick-up trucks.

Safety Technology
    Safety technology is what keeps Ford vehicles at the forefront of 
protecting our customers on the road. We are proud of the fact that 
Ford Motor Company SUVs have the most advanced technology available 
today. Ford investigates both crash avoidance and crashworthiness 
opportunities to help improve vehicle safety for our customers.
Vehicle Crashworthiness:
    Customers buy our SUVs for their many attributes including the 
excellent protection they provide in front and side impact crashes. In 
general, Ford has more four and five star rated SUVs in the federal 
government's crash test program than any other automaker. The need for 
a vehicle to provide self-protection is important for all types of 
crashes including those with cars, other SUVs and light trucks as well 
as single vehicle crashes, including rollover accidents.
    Ford believes the single most important safety technology in a 
vehicle is the safety belt. If a belted occupant is in a rollover 
accident, their chance of survival is ten times higher than unbelted 
occupants. For that reason and more, Ford developed the BeltMinder 
<SUP>TM</SUP> system to remind drivers to buckle up. Ford's BeltMinder 
<SUP>TM</SUP> system repeatedly chimes on and off for several seconds 
over the course of 5 minutes when the driver is not buckled up. It is 
standard equipment on all Ford vehicles since 2001. It was somewhat 
controversial for Ford to introduce this feature since it could be 
considered annoying to our customers. But we also knew how important it 
is to buckle up and that some of our customers needed a gentle reminder 
to wear their safety belt. We pursued our BeltMinder <SUP>TM</SUP> 
feature, not because of regulation, but because it was the right thing 
to do, and we now have data to show it is working! A recent study by 
the Insurance Institute for Highway Safety (IIHS) determined that 
occupants of vehicles equipped with BeltMinder <SUP>TM</SUP> were 
buckling up at a rate 5 percentage points higher than similar vehicles 
without BeltMinder <SUP>TM</SUP>. NHTSA was so encouraged by this 
significant increase in safety belt usage that they have requested all 
automakers to add this feature.
    While safety belts are the single best tool for keeping passengers 
inside the vehicle during a rollover, new side curtain air bags and 
rollover sensing technology supply additional occupant protection 
during certain types of crashes, including rollover. Ford was the first 
automaker to feature rollover sensors and special side curtain air bags 
on its SUVs, called the Safety Canopy <SUP>TM</SUP>, which debuted on 
the 2002 Ford Explorer and Mercury Mountaineer.
    The Safety Canopy <SUP>TM</SUP> air bags are designed to remain 
inflated for an extended period of time to provide enhanced protection 
especially during rollover events. The air bags have fixed attachment 
points at the front and rear ends of the curtain to help reduce both 
partial and complete ejection of vehicle occupants during rollovers. 
The inflatable curtain system also helps reduce the risk of head 
injuries for SUV occupants involved in side impacts. This feature is 
also currently available on the Ford Expedition, Lincoln Aviator and 
Lincoln Navigator. It will also be available later this year on the 
2003 Ford Explorer Sport Trac.
    To reduce the risk of injuries in a side impact, the Ford Escape 
and Ford Excursion have seat mounted side airbags that cover both the 
occupant's head and thorax.
    In addition, the Explorer 4-door, Expedition, Mountaineer, Aviator 
and Navigator have Ford's Personal Safety System <SUP>TM</SUP> that 
tailors restraint deployment to crash severity and other factors. The 
system comprises several features working together to help protect the 
driver and right-front passenger in the event of a collision. The 
system is able to adjust the deployment of the air bags to enhance 
protection for front seat occupants, depending on a number of factors. 
It does this with the help of several components:

  <bullet> Electronic crash severity sensor
  <bullet> Personal Safety System <SUP>TM</SUP> restraint control 
        module
  <bullet> Dual-stage driver and right-front passenger airbags
  <bullet> Driver's seat position sensor
  <bullet> Front outboard safety belt energy management retractors
  <bullet> Front outboard safety belt pre-tensioners
  <bullet> Front outboard safety belt usage sensors

Vehicle Crash Avoidance:
    The first step in protecting vehicle occupants, after getting them 
to buckle up, is to find ways to reduce the likelihood that the driver 
will lose control of the vehicle, keeping the vehicle on the road and 
avoiding the crash altogether. Ford does this through extensive vehicle 
tests that ensure our vehicles have consistent handling and predictable 
vehicle dynamics. Ford is a leader in developing emerging technologies 
that show great potential for helping the driver, such as Electronic 
Stability Control (ESC) and Roll Stability Control (RSC) systems.
    Every Ford SUV goes through a proprietary set of vehicle dynamics 
and handling characteristics testing. We design our vehicles to handle 
predictably even in severe handling maneuvers. This is the vehicle 
handling foundation on which our vehicle performance is based. We 
believe that advanced technologies such as ESC and RSC have the 
potential to further assist drivers when conditions change suddenly or 
unanticipated events occur.
    Ford first introduced an electronic stability (yaw) control system, 
called AdvanceTrac <SUP>TM</SUP>, in August 2000. This system monitors 
the driver's steering, throttle and braking inputs and from the 
steering angle and vehicle speed determines the driver's intended 
course. AdvanceTrac <SUP>TM</SUP> also constantly monitors the 
vehicle's response, including vehicle motion, inferred from a yaw rate 
sensor, lateral accelerometer and wheel speed sensors. If the system 
detects a deviation of the vehicle's motion from the driver's intended 
path, in milliseconds it briefly brakes one or more wheels--and if 
necessary, retards spark timing and cuts back fuel delivery--to help 
the driver get the vehicle back on its desired path. AdvanceTrac 
<SUP>TM</SUP> is available on the following vehicles: Explorer 4-door, 
Expedition, Mountaineer, Aviator (late availability) and Navigator.
    Most ESC systems are based on yaw control--the ability to maintain 
control of the vehicle in a rear slide or in front plowing. Recent 
advances in electronic technology have made it possible to also monitor 
wheel lift and reduce the potential for rollover, during an extreme 
limit-handling maneuver such as avoiding an obstacle. Ford is the first 
automaker to develop and patent a Roll Stability Control system, which 
debuted on the new 2003 Volvo XC90 SUV. Our RSC system is designed to 
assist the driver in maintaining control during an obstacle avoidance 
event and to help reduce the likelihood of the SUV rolling over.
    Ford's RSC system is an active stability enhancement system 
utilizing gyroscopic sensors to determine roll speed and roll angle. 
Terminal angle--the angle in which a rollover is imminent--is instantly 
calculated, thus triggering the XC90's standard electronic stability 
control system, called Dynamic Stability Traction Control <SUP>TM</SUP> 
(DSTC <SUP>TM</SUP>). Once engaged, the DSTC <SUP>TM</SUP> system 
reduces power and/or brakes the necessary wheels to induce an 
understeer situation until driver control is regained.
    Electronic stability control systems, and the added feature of roll 
stability control, are emerging technologies that we believe will help 
drivers avoid crashes. However, not all electronic stability control 
systems are equivalent and actual performance may vary due to different 
threshold strategies. Several years of careful development and untold 
resources have gone into creating these systems. They require careful 
implementation on individual vehicle platforms and must be configured 
to provide assistance to the driver, without being intrusive or 
compromising the base handling of the vehicle. While we remain 
cautiously optimistic as to their effectiveness, we will closely 
monitor the performance and actual benefits of these systems in the 
field.
Vehicle Crash Compatibility:
    Cars, as well as motorcycles and bicycles, have always shared the 
road with large commercial trucks, buses, cargo vans and pick-up 
trucks. Historically, size differences among vehicles were more 
pronounced in the 1970s than they are today.
    While the vehicle fleet in the U.S. is changing to include more and 
more light trucks and vans over the last ten to fifteen years and the 
number of vehicle miles traveled has continued to increase, the total 
number of crash fatalities has stayed relatively constant.
    Ford continues to be a leader in researching the factors that 
contribute to crash safety and compatibility, including weight, 
geometry and stiffness and in translating that research into 
enhancements to vehicle design. Ford is working with NHTSA to assess 
whether vehicle compatibility can be predicted by measuring average 
height of force, to evaluate not just ``bumper alignment'', but also 
the load path that would transmit force by the striking vehicle. By 
aligning the load path, it is possible to reduce harm to the struck 
vehicle. The industry is working cooperatively with NHTSA and the 
Insurance Institute for Highway Safety to develop test methodology to 
address this concern.
    Ford has been working to improve the safety of cars in collisions 
with SUVs by adding structure and lowering rail heights of SUVs. For 
example, in the 2003 Expedition and Navigator, the bumper beam is 
attached directly to the front of the frame rail, instead of being 
bracketed to the top. This allows the rails to more directly engage a 
struck object and manages the crash forces more efficiently. For 
example, the Expedition bumper beam and rail are compatible with the 
height of the bumper on a Ford Taurus or Mercury Sable. Also the frame 
of the 2003 Explorer and Mountaineer was lowered to be more compatible 
with other vehicles on the road.
    In addition, Ford introduced on the 2000 Excursion, Ford's 
BlockerBeam <SUP>TM</SUP> that offers front bumper underride protection 
for crash compatibility with smaller vehicles. The BlockerBeam 
<SUP>TM</SUP> lowers the point of engagement for a frontal impact with 
an SUV to the same level as a Taurus. This helps prevent the SUV from 
riding over the passenger car, and transfers crash forces to engineered 
crumple zones on both the striking and the struck vehicles where they 
can be best managed.
    The automotive industry in general and Ford in particular will 
continue to build vehicles with the utility and safety that our 
customers require. Nevertheless, we view vehicle safety as a 
partnership and where vehicle design ends, customer responsibility 
begins.
Safety is a Shared Responsibility
    Safety is an interaction between the customer, the vehicle and the 
environment. It is a shared responsibility and one Ford does not take 
lightly. We must continue efforts to increase safety belt use and 
encourage responsible driving. In terms of vehicle safety, the most 
effective technology to protect occupants is already in every vehicle 
on the road--a safety belt. In seconds, customers can protect 
themselves and their loved ones by buckling up.
    Data from 2001 show that there were 42,116 fatalities, of which 
31,910 were vehicle occupants and the additional 10,206 were 
pedestrians and bicyclists. The current belt use rate nationwide is 75 
percent. It is estimated that increasing belt use from 75 percent to 90 
percent would save 6,600 additional lives each year. Moreover, safety 
belts are 45 percent effective in preventing fatalities in passenger 
car crashes; they are 60 percent effective in preventing fatalities in 
light truck crashes and 80 percent effective in preventing fatalities 
in light truck rollovers. In 2001, safety belts saved over 12,000 
lives. Despite the increased use of safety belts in recent years, the 
sad fact is that roughly 50 percent of those who die annually in 
traffic crashes do not use them. And in rollover crashes, some 72 
percent of occupants who died weren't wearing their safety belt. The 
ramifications of not wearing a safety belt are clear when nearly 
threequarters of those killed in rollover crashes were completely 
ejected from the vehicle.
    Ford supports efforts to increase safety belt usage through its 
ongoing membership in the Air Bag and Seat Belt Safety Campaign, which 
provides high profile air bag education, seat belt mobilizations and 
promulgation of primary seat belt laws.
    Ford also provides our customers with a Safety Advice Card to 
educate occupants regarding the important safety features included in 
their vehicle. The card reminds occupants that the safety belt is still 
the number one safety device and to buckle up properly for vehicle 
occupants of all ages.
    Every Ford owner's guide states ``All occupants of the vehicle, 
including the driver, should always properly wear their safety belts, 
even when an air bag (SRS) is provided.'' And ``In a rollover crash, an 
unbelted person is significantly more likely to die than a person 
wearing a safety belt.''
    If a belted occupant is in a rollover accident, his chances of 
survival are ten times higher than unbelted occupants. For that reason 
and more, we developed the BeltMinder <SUP>TM</SUP> system to remind 
drivers to buckle up. NHTSA Administrator Dr. Jeffrey Runge recognized 
Ford last year in a letter to all vehicle manufacturers where he 
states,

        ``I applaud Ford for showing the initiative, leading the way to 
        go beyond the minimum Federal requirements, and voluntarily 
        using technology to increase seat belt use . . . The American 
        people win when vehicle manufacturers demonstrate good 
        corporate citizenship by going beyond the minimums required 
        under safety standards. Innovation beyond the standard allows 
        greater flexibility in product design, while allowing those 
        products to reach consumers faster and keep them safer.''

    A 2001 study by the IIHS on Ford's BeltMinder <SUP>TM</SUP> safety 
belt reminder system found that the BeltMinder <SUP>TM</SUP> increased 
belt use by 5 percentage points, which they describe as a significant 
increase. This increase puts belt usage in Ford vehicles close to 80 
percent. It has been estimated that this 5 percent point increase in 
belt use would prevent more than 1,000 deaths and more than 20,000 
injuries annually if it were achieved in all vehicles. BeltMinder 
<SUP>TM</SUP> is now being expanded to also include the front passenger 
seats, which will be phased in across all new Ford vehicles beginning 
with the 2004 MY.
    Ford is also making this technology available at no cost to all 
other automakers that are interested in it. Upon request, Ford will 
grant automotive manufacturers and suppliers a license to use the 
BeltMinder <SUP>TM</SUP> technology so long as any enhancements made to 
the technology are freely granted back to the automotive industry.
Conclusion
    Ford strives to provide the very best personal transportation 
choices for our customers. We will offer our customers the products and 
features that they desire--as well as improvements in safety, 
versatility and compatibility. We take seriously our commitment to 
continually improve our vehicles through the development of new 
technologies.
    When it comes to encouraging people to buckle up, governments have 
a unique role to play. Primary enforcement safety belt use laws 
combined with highly publicized enforcement are the keys to high safety 
belt usage levels. No other technology has the capability to save so 
many lives this quickly at no cost.
    Ford has taken a holistic approach to vehicle safety--and 
specifically SUV safety--because drivers can't choose the accidents 
they may experience. To further ensure the safety of all drivers on the 
road, Ford recommends:

  <bullet> Always wear your safety belt. Research shows that for every 
        1 percent increase in safety belt use, 270 lives would be saved 
        immediately.

  <bullet> Never drink and drive. NHTSA estimates that alcohol was a 
        factor in 41 percent of all fatal crashes in 2001, which 
        resulted in 17,448 fatalities.

  <bullet> Always place your child passengers in the backseat, and 
        always use child safety seats correctly.

  <bullet> Obey the speed limit, and take into account road conditions. 
        Speeding is one of the prevalent factors contributing to 
        traffic crashes. In 2001, speeding was a factor in 30 percent 
        of all fatal crashes.

  <bullet> Finally, read your owner's manual for SUV safe driving tips. 
        SUVs have a higher center of gravity than passenger cars and 
        thus require different driving techniques. Drivers should be 
        careful not to carry more passengers than there are safety 
        belts.

    Thank you for the opportunity to testify before the Committee 
today. I would be happy to answer any questions.

    The Chairman. Thank you very much.
    Mr. Tinto, welcome.

    STATEMENT OF CHRISTOPHER TINTO, DIRECTOR, TECHNICAL AND 
            REGULATORY AFFAIRS, TOYOTA MOTOR NORTH 
                            AMERICA

    Mr. Tinto. Thank you, Senator.
    Good morning, Mr. Chairman. My name is Chris Tinto. I am 
director of Technical and Regulatory Affairs for Toyota Motor 
North America. On behalf of Toyota, thank you for this 
opportunity to testify on these important vehicle safety 
matters.
    Toyota is the third-largest auto manufacturer in the world, 
and the fourth in the United States with a collective 
investment in the U.S. totalling more than $12 billion. 
Together with our dealers, we employ 112,000 Americans.
    Toyota's philosophy regarding safety is to exceed the 
safety standards in every market around the world in which we 
sell vehicles. Consistent with Toyota's philosophy of 
continuous improvement, or kaizen, we do not wait for Federal 
requirements before incorporating safety technologies. As 
automotive technology had advanced, Toyota has integrated 
world-class safety features into our vehicles, and we are proud 
of the accomplishments we have made in their application.
    In our written statement, we explain some of the safety 
improvements that are specific to the eight SUVs we market in 
the United States. They include anti-lock brakes, brake-assist 
systems, high-strength body structures and crumple zones, 
pretensioning and load-limiting seatbelts, front cross beams 
for improved compatibility, electronic vehicle stability 
control, side airbags, and side curtain shield airbags. Also we 
are one of the first to offer a production rollover sensing 
system where sensors provide an additional trigger for our side 
curtain airbags.
    In addition, Toyota is ahead of schedule in meeting all 
voluntary industry guidelines to help reduce injury to children 
from side airbag deployment with full implementation across our 
entire fleet by 2003.
    In 1996, Toyota invented a new category of compact sport 
utility vehicles, otherwise known as ``crossover vehicles,'' 
which are based on passenger-car platforms and typically 
perform more like passenger cars than the traditional truck-
based SUVs.
    It is important to note that sport utility vehicles, as a 
class, are designed to do things that other vehicles simply 
cannot. They offer the utility, ground clearance, and all-
wheel-drive capability demanded by our customers, and we are 
confident that these features were appreciated by the people 
who needed to get around during our recent heavy snowstorms in 
the D.C. area.
    However, we also recognize that the higher ground clearance 
of these vehicles contributes to a higher incidence of 
rollover, when compared to passenger cars as a broad class. But 
we would also note that the vehicles with the highest rollover 
rate is actually not an SUV, but it is a sports car. Published 
data shows that rollovers are rare events and account for about 
3 percent of all crashes. Nevertheless, we must try to reduce 
that number even further.
    To this end, we are working with government agencies and 
other organizations, like the IHS, around the world in 
cooperative research efforts. For example, we have worked very 
closely with the NHTSA, and we are happy to share with the 
agency our experience and knowledge for assessing rollovers. As 
a result, NHTSA's new dynamic rollover NCAP test program will 
include a variant of Toyota's own test commonly known as the 
``fishhook.'' We also recognize that crash compatibility is of 
growing concern, and we have been conducting internal testing 
in R&D in this area for many years.
    Toyota is an active member of the industry's International 
Compatibility Working Group, which gathered industry experts 
from around the world earlier this month. We join the industry 
in calling for voluntary adoption of improved head-impact 
protection systems such as the curtain shield airbags found on 
many of the vehicles in our lineup.
    Finally, Toyota believes that automotive safety is a shared 
responsibility among government, industry, and consumers. We 
are moving with the industry to improve the safety of SUVs and 
are implementing the latest innovations, but we also need the 
government's help. Too many Americans ignore the single most 
effective safety system in the vehicle, the safety belt. It is 
essential that primary seatbelt usage laws go on the books in 
all 50 States. The data shows that the usage rates in States 
with primary belt laws average 80 percent, versus only 69 
percent for States without these laws. Improving belt-usage 
rate currently found in California, for example, could save 
thousands of American lives per year, far exceeding any 
technological advances that we could now envision. This would 
be especially valuable in rollovers to keep the occupants in 
the vehicle, where it is safest.
    Toyota has been doing its part since 1997, when we 
introduced our belt-reminder technology that warns the driver--
both the driver and the front passenger--when they are not 
buckled. Today, almost 100 percent of Toyota's fleet has this 
technology. But without enforcement, we cannot hope to realize 
the full safety benefits that seatbelts and their integrated 
systems can provide.
    In summary, Toyota is confident in the design of our SUVs. 
We continually strive to maintain the flexibility and utility 
that our customers demand, but we will not sacrifice safety to 
reach that goal. We never forget that our own families ride in 
these vehicles each and every day.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tinto follows:]

   Prepared Statement of Christopher Tinto, Director, Technical and 
             Regulatory Affairs, Toyota Motor North America
    Mr. Chairman and distinguished Members of the Committee;
    Good morning. I am Chris Tinto, Director of Technical and 
Regulatory Affairs, for Toyota Motor North America. Thank you for this 
opportunity to testify on the important safety matters that the 
Committee is considering and to present Toyota's record in improving 
vehicle safety.
    Toyota is the third largest automotive manufacturer in the world, 
and the fourth largest in the United States.
    In 2002, Toyota produced nearly one million vehicles and a wide 
variety of components at its six U.S. facilities. More than half of our 
sales in the U.S. are of vehicles manufactured in this country.
    Toyota directly employs more than 30,000 American workers in 
manufacturing, marketing, and distribution, and our dealers employ 
another 82,000. Toyota's cumulative investment in the United States 
totals more than 12 billion dollars. That number will only grow as our 
new engine plant in Alabama and our new truck plant in Texas come 
online.
    With respect to safety, Toyota's internal corporate philosophy is 
not only to meet, but to exceed, the motor vehicle safety standards in 
every global market in which we sell vehicles. Consistent with Toyota's 
philosophy of continuous improvement--or kaizen--we do not wait for 
Federal requirements before incorporating safety technology. Vehicle 
design is an evolutionary process and, as automotive technology has 
advanced, Toyota has integrated new safety features in all of our 
vehicles. We are proud of the accomplishments our people have made in 
development, application and improvement of these world-class safety 
technologies.
    We introduce significant safety improvements with every major model 
change. Recognizing that the focus of today's hearing is SUVs, let me 
outline some of those safety improvements that are specific to the 
eight models of sport utility vehicles Toyota markets in the United 
States. These include, but are not limited to:

  <bullet> Antilock brake system, available on all of our SUVs;

  <bullet> Brake Assist systems that help drivers to apply full braking 
        in an emergency situation, available in most of our SUVs;

  <bullet> Crumple zones which help to absorb energy and dissipate 
        loads in collisions;

  <bullet> High strength body structures to help lessen intrusion into 
        the occupant compartment in a crash;

  <bullet> Front cross beams for improved partner protection in frontal 
        and side crashes;

  <bullet> Vehicle Stability Control, which is an active safety system 
        to help reduce skids and maintain driver control. Toyota was 
        first to the market with this technology in our 1997 Lexus 
        passenger car models, and today leads the industry in its 
        adoption across a wide variety of vehicle types. In fact, we 
        plan to have Vehicle Stability Control technology available on 
        100 percent of our SUV fleet by next year;

  <bullet> Side airbags to protect an occupant's torso, now available 
        on most of our SUV models;

  <bullet> Toyota was one of the first in the world to offer a side 
        curtain shield airbag in 1998 in a passenger car for improved 
        head protection, which is now available in the majority of our 
        SUV fleet;

  <bullet> Rollover sensors, to provide an additional trigger for the 
        side curtain shield airbags. Toyota was one of the first in the 
        world to adopt a production rollover sensing system that is now 
        featured in the 2003 Toyota Land Cruiser and the Lexus LX 470.

    In addition, Toyota is ahead of schedule in meeting all voluntary 
industry guidelines on side airbags to help reduce injury potential to 
children, achieving full implementation across our entire SUV and 
passenger car fleet by the 2003 Model Year.
    In 1996, with the introduction of the RAV4, Toyota invented a new 
category of compact sport utility vehicles based on passenger car 
engineering. In 1998, Lexus created the template for mid-sized luxury 
utility vehicles with the immensely popular RX 300. Based on a 
passenger car/SUV ``crossover platform,'' these vehicles typically 
perform more like passenger cars than the traditional, truck-based 
SUVs.
    To use just one model as an example of our philosophy of constant 
improvement, consider these safety advancements in the design of the 
Lexus RX 330, successor to our most popular luxury SUV, the RX 300. In 
this new model, we added these available features:

  <bullet> An air suspension system that automatically lowers the 
        entire vehicle at highway speed to improve vehicle response and 
        ride comfort;

  <bullet> A high-strength body structure in anticipation of NHTSA's 
        proposed upgraded standards for 50 mph rear impact;

  <bullet> Front and rear curtain shield side airbags;

  <bullet> Front-seat mounted side airbags, which cover a larger area, 
        including the torso, abdomen and pelvis;

  <bullet> Driver's side knee airbag;

  <bullet> An adaptive laser cruise control system that controls 
        following distances;

  <bullet> An Adaptive Front lighting System (AFS) that helps 
        illuminate a turn or curve as the driver steers into it;

  <bullet> A tire pressure monitor that alerts the driver in the event 
        of tire under-inflation, in advance of Federal requirements; 
        and,

  <bullet> A rear back-up camera that enhances visibility when 
        reversing.

    The RX 330 also contains the safety features found in the present 
generation RX, including Vehicle Stability Control, and a Brake Assist 
feature to automatically provide additional assistance to a driver 
attempting emergency braking.
    These, Mr. Chairman, are just a few examples of the safety 
improvements we have been able to add to one of our sport utility 
models in a single model change.
    We want to note that sport utility vehicles, as a broad class, are 
designed to do things that other vehicles simply cannot do. They offer 
utility, ground clearance, and all-wheel drive capability demanded by 
our customers--and which we are sure was appreciated by those who used 
them to move about during our recent heavy snowstorm in the DC area. 
However, we also recognize that, due to their inherent design, and 
notably their higher ground clearance, these vehicles have a higher 
incidence of rollover in accidents, when compared to passenger cars as 
a broad class. Nevertheless, it is also important to note that the 
vehicle with the highest rollover rate in published data is in 
actuality not an SUV, but a sports car.
    It is also important to note that, while published accident 
statistics suggest that fatality rates are declining for all vehicles--
cars, SUVs, minivans and pickups the biggest improvements have occurred 
in the SUV category. We believe the improvements that Toyota and our 
industry have introduced can be credited with some of that progress.
    Published data show that rollovers are rare events, accounting for 
about three percent of all crashes. But Toyota's philosophy of 
continuous improvement requires that we continue our efforts to reduce 
them even further. In this regard, we're also working with government 
agencies around the world in cooperative research efforts to improve 
all aspects of vehicle performance.
    For example, we have worked very closely with the National Highway 
Traffic Safety Administration as it meets its new rulemaking 
responsibilities under the TREAD Act. We have met numerous times with 
NHTSA engineers to help them develop the best procedures for assessing 
rollover, and were happy to share with the agency our experience and 
knowledge in this area. As a result, NHTSA's new dynamic rollover test 
in its New Car Assessment Program includes a variant of Toyota's 
internal test commonly known as the ``fishhook'' test.
    We also recognize that the issue of crash compatibility is one of 
growing concern. Toyota has been conducting research and development, 
including internal testing, in this area for many years. We have used 
the results of this research and development to help us design better 
structures; to improve our front and side airbags and side curtains; to 
consider frame design; and to develop front beams and reinforcements 
that help distribute crash loads.
    Toyota is an active member of the industry's international 
compatibility working group, which held its first meeting of industry 
experts from around the world earlier this month. We contributed a 
proposal for additional compatibility tests, and committed to seeing 
changes made to improve both occupant protection and geometric 
compatibility in future models. We join the industry in calling for 
voluntary adoption of improved head protection systems such as the 
curtain shield airbags currently installed on many of the vehicles in 
our lineup.
    As part of our commitment to public education, Toyota also is a 
significant contributor to the industry's Air Bag and Seatbelt Safety 
Campaign. The Campaign uses a three-pronged approach of education, 
enactment and enforcement to heighten public awareness about the 
benefits and risks of airbags and the importance of keeping children 
buckled in the back seat. The Campaign sponsors Operation ABC 
Mobilization twice a year in partnership with NHTSA and over 12,000 law 
enforcement agencies nationwide. The Mobilization highlights 
enforcement of seat belt laws currently on the books and advocates 
enactment of primary seat belt legislation in states without those 
laws.
     Toyota also is an active member of a side impact voluntary 
standards working group, where new standards were drafted to afford 
protection for children from airbag-induced injuries. Toyota led the 
industry in adoption of these new standards, and this year has 100 
percent compliance with the strict new guidelines.
    Finally, Toyota believes that automotive safety is a responsibility 
shared by industry, government, and consumers. Toyota and other 
automakers are moving to improve the overall safety of SUVs, and we are 
implementing the latest innovations. But we also seek government's help 
on the Federal, State, and Local levels to improve the safety of 
drivers and passengers in vehicles of all types.
    It is of the utmost importance that primary seat belt usage laws go 
on the books in all 50 states. Data shows that the usage rates in 
states with primary belt laws average 80 percent vs. 69 percent for 
states without these laws. Just improving belt usage to the 90 percent 
rate currently found in California, for example, could save thousands 
of American lives per year--far exceeding any technological advances 
that we could now envision. This change could be implemented quickly, 
with an immediate result in lives saved. This would be especially 
useful in rollovers, in which most fatalities and serious injuries 
occur to those who are unbelted at the time of the rollover.
    In this regard, Toyota has been doing its part to improve belt use 
rates since 1997, when we introduced our belt reminder technology that 
warns both the driver and the front passenger when they are not 
buckled. As of 2003, almost 100 percent of Toyota's fleet has this 
technology. But without enforcement, we cannot hope to realize the full 
safety benefits that seat belts can provide.
    In summary, Toyota is confident in the design of our SUVs. We 
continually strive to maintain the flexibility and utility that our 
customers demand, but we will not sacrifice safety to reach that goal. 
We never forget that our own families ride in these vehicles every day.
    Thank you, Mr. Chairman.

    The Chairman. Well, thank you. And I want to thank the 
witnesses.
    Mr. Tinto, since you have the microphone, in your written 
testimony, you state Toyota has been working with government 
agencies around the world to discover ways to improve all 
aspects of vehicle performance. What are some of the measures 
that other countries have taken to improve vehicle safety and 
performance? And which measures could be adopted by the United 
States?
    Mr. Tinto. I think a lot of the research has been somewhat 
parallel. Several of the governments around the world have been 
looking at improved crash testing, offset frontal crash 
testing. Some have been looking at, for example, in Europe, in 
the Euro NCAP system they have been looking improved rating 
systems for consumer information. I know in Canada they are 
working on side impact protection. I believe NHTSA has been 
cooperating with those governments, as well, and we feel like 
similar paths are being undertaken.
    The Chairman. Mr. O'Neill, what is the difference between 
the vehicle safety tests conducted by NHTSA and those that the 
Insurance Institute for Highway Safety performs?
    Mr. O'Neill. In frontal crash tests, the Federal Government 
does what is called a ``full-width barrier test'' at 35 miles 
an hour. That means the whole front end of the vehicle impacts 
rigid barrier. This is generally considered a reasonably good 
test of the restraint systems in the car, because it produces a 
very high deceleration inside the occupant compartment.
    For frontal crash testing, we conduct an offset deformable 
barrier test, which involves an impact with part of the front 
end of the vehicle hitting a barrier that has a deformable 
face. This test is now used in Europe and Australia and Japan 
and is considered a good complementary test to the government's 
frontal test because it is a measure or a good way to measure 
the structural design of the car, how strong the compartment 
is, and how effective the crush zone is in managing--the crush 
zone or crumple zone--in managing the energy of the collision.
    When it comes to side crashes, the Federal Government is 
impacting the sides of vehicles with a barrier that has a 
deformable face on it, a moving barrier that hits the side of 
vehicles. That barrier represents the front end of a passenger 
car of about the 1980s vintage. We have just begun a side-
impact test program where we are also impacting the sides of 
vehicles with a moving barrier, but the deformable face on our 
barrier represents the front end of an SUV or a pickup truck.
    So one big difference between our side test and the 
government's test is that to do well in our test, manufacturers 
will have to provide some form of head protection for side 
impacts. Whereas, in the government's test, the head does not 
get involved because the impacting barrier is so much lower.
    The Chairman. In your opinion, which should be of greater 
concern when addressing vehicle safety issues, vehicle rollover 
or crash compatibility?
    Mr. O'Neill. I think we should move forward on reducing 
rollover, reducing the risk of a rollover occurring in the 
first place, then reducing--also putting some attention on 
reducing the consequences if a rollover happens. We will not be 
able to prevent all rollovers. I think some of the new 
technologies promise to prevent some, perhaps many. But we 
should also be working for features that operate and protect 
people during the rollover event, features such as inflatable 
curtains that deploy, as we have heard in the Volvo SUV, and 
making sure that we have roofs with adequate strength.
    The Chairman. Ms. Claybrook and Mr. Pittle, what role 
should Congress undertake while NHTSA conducts rulemakings and 
industry develops voluntary standards?
    Ms. Claybrook. Well, at this point----
    The Chairman. You have got to pull the microphone----
    Ms. Claybrook. I am sorry. At this point, the National 
Highway Traffic Safety Administration is not conducting any 
rulemakings on these issues. It has a pending----
    The Chairman. Your view, they should.
    Ms. Claybrook. And in my view, they should, on rollover 
prevention, which is just a consumer information rule, on 
protection in the crash, which is--they have an advance notice, 
and on compatibility, which they have no rules pending at this 
moment.
    The Chairman. Mr. Pittle?
    Mr. Pittle. Yes. We believe, as you heard earlier, there 
are no real rulemakings underway. And I want to point out that 
when Congress said, in the TREAD Act, that there must be a 
dynamic rollover test, they did it, and they did a pretty good 
one.
    Ms. Claybrook. By a date certain.
    Mr. Pittle. By date certain. There was a November 2002.
    When you said that there should be an upgraded tire 
standard that was decades old, they have come out with a very 
good proposal. When you have given direction about child safety 
seats and other aspects of the work, they followed your 
direction.
    The problem is, they have trouble setting their own 
direction, but they are very good at following your direction, 
and I believe that you should be specifying on the date certain 
that you want to see the roof crush standard finished.
    You know, when people wearing a seatbelt--and nobody could 
argue against trying to get more seatbelt usage. We certainly 
try that ourselves. But when a car rolls over and you are in a 
car that has got a weak roof, you are in place--you are stuck 
in place while this car crushes down on top of you. You need to 
have a stronger roof, and that standard has been languishing 
and needs to be finished. You are the only one that can set 
that. There is too much going on in which they are--you know, I 
am sitting here reading my quotes earlier. ``We do not design 
vehicles. We hope they do a good job. We depend on their 
research. We are watching to see what they do.'' That is not 
the voice of an agency that you gave the responsibility to 
protect the public; that is the voice of someone who, as Dr. 
Martinez says, ``What can we do? We are out-manned, we are out-
gunned, we are out-spent.'' You need to get involved.
    The Chairman. Thank you.
    Again, for both of you, you heard GM testify that recent 
government data shows that, overall, today's SUVs are at least 
as safe as passenger cars and safer than cars in the vast 
majority of crashes. Do you agree with that statement? And does 
your data support such a statement?
    Mr. Pittle and then Ms. Claybrook.
    Mr. Pittle. Well, we buy cars and test them. We are ``car 
guys.'' And so what we see is that the cars that we are testing 
today are--some of them are coming through with improved safety 
features, like electronic stability control. We see that as a 
positive benefit, and we do not see any reason why that should 
become a luxury add-on feature. We think of that as a core 
safety feature for anyone in an SUV. So we see that 
improvement.
    We see vehicles coming through that are increasingly put on 
car frames. In fact, in the--our sport utility vehicle special 
which just came out, we compare the performance of SUVs that 
are on car-base frames and truck frames, and the handling and 
the performance characteristics, right down the line, are 
always better with car-based vehicles. So we know that they 
know how to make cars that are going to be more forgiving and, 
we believe, safer for consumers. So we see that improvement 
coming along.
    The question is not whether people are not doing anything, 
it is are they doing it in a timely way and who is setting the 
priorities. You said NHTSA should set the priorities. We 
believe you were right.
    The Chairman. Do you want to comment, Ms. Claybrook. And 
also, along with that, do you believe that there are any SUVs 
that are as safe as passenger cars?
    Ms. Claybrook. Yes. There is a listing of--list by make and 
model that has been developed by two excellent researchers who 
I mentioned before. They are documented in my testimony, Ross 
and Wenzel. I would say that the--some large cars and some mid-
sized cars and some compact cars actually in that in that 
analysis are safer than SUVs. The Toyota Camry, the Volkswagen 
Jetta, the Honda Accord, the Honda Civic, even, are safer than 
the Ford Expedition, for example. So that is for--in terms of 
the driver deaths.
    The key issue to me here is that you should not measure the 
safety of these vehicles just by the safety of their own 
occupants. I think that is unethical. I think you have to look 
at the overall performance of these vehicles and measure not 
only how they protect their own occupants, but whether they do 
horrendous damage to other occupants in other vehicles. And----
    The Chairman. Which is the subject of this article this 
morning.
    Ms. Claybrook. Yes, that is correct. And an excellent 
article was done in the L.A. Times, which I would like to 
submit for the record, that describes this. And also----
    The Chairman. Without objection.
    [The information referred to follows:]

                  Los Angeles Times, February 18, 2003

Study Questions Safety of SUVs; Researchers find that pickups and sport 
  utilities on average are less protective of their drivers than most 
                      large or even mid-size cars.

                   By Myron Levin, Times Staff Writer

    Which is safer, a Honda Accord or the nearly one-ton- heavier Ford 
Expedition? Chances are that the brawny SUV would hold up better in a 
wreck.
    Yet drivers of Accords and Expeditions have about the same risk of 
suffering a fatal accident, new research shows. And when the risk to 
other drivers is factored in, the Accord is safer by far.
    Or consider the massive Chevrolet Suburban, identified by the 
research as safest among popular SUVs. But according to the data, 
drivers of Suburbans and shrimpy Volkswagen Jettas have about the same 
fatality rates.
    The novel study's bottom line: Sport utility vehicles and pickups 
aren't as protective as many of their owners believe, while they are 
also uniquely dangerous to everyone else.
    The auto industry maintains that SUVs have contributed to a decline 
in the rate of highway deaths because heavier vehicles are safer for 
their drivers. ``SUVs have an excellent safety record, and they're as 
safe as cars,'' said Eron Shosteck of the Alliance of Automobile 
Manufacturers, a leading industry group.
    But Marc Ross of the University of Michigan, co-author of the study 
with Lawrence Berkeley National Laboratory scientist Thomas Wenzel, 
contends that a hard look at the data indicates otherwise.
    Indeed, the study takes a contrarian jab at an iron maxim of 
highway safety: that heavy is good and heavier is better.
    ``We need to . . .move away from the idea that bigger and heavier 
vehicles are automatically safer,'' said Ross, a physicist. ``Quality 
is a bigger predictor of safety than weight.''
    Ross and Wenzel's research is believed to be the first to assess 
fatalities among both drivers of various vehicles and the people they 
collide with. It comes amid a growing backlash against SUVs and other 
light trucks, among the most popular yet polarizing of consumer 
products.
    Flying off dealers' lots, light trucks now account for more than 
half of vehicle sales and are responsible for a steady decline in fuel 
economy and growing dependence on foreign oil. Many consumers consider 
the gas-slurping vehicles to be safer than cars. That, in turn, has 
relieved pressure on automakers to produce more fuel-efficient 
vehicles.
    Riding high behind the wheel of her silver Expedition, Angie Garcia 
of Sylmar said the SUV looks great and provides a sense of security she 
would not have in a car. ``I definitely feel it's safer . . .no 
questions about it,'' Garcia said.
    Feeling outgunned in a vehicular version of the arms race, other 
drivers have simply resigned themselves to SUVs.
    ``I was getting mowed down by the larger SUVs and trucks,'' said 
Jennifer Mulcahy of Simi Valley, who dumped her small car in favor of a 
Nissan Xterra. ``It just felt intimidating . . .It was survival of the 
fittest.''
    Despite such sentiments, Wenzel and Ross say, SUVs and pickups on 
average provide less protection for their drivers than most large or 
even mid-size cars.
    A primary reason: Unlike cars, which tend to slide sideways when 
they go out of control, SUVs and pickups, with their high center of 
gravity, are more likely to flip over. That's important because 
rollovers are the most lethal accident type, accounting for only about 
3 percent of wrecks but 30 percent of deaths to vehicle occupants.
    Originally published last March, Wenzel and Ross' little-noticed 
study assigned a ``combined risk'' number to each vehicle--defined as 
the fatality rate for drivers of the model plus the death rate for 
drivers they crash into. The study used the Fatality Analysis Reporting 
System, a federal database, to compute death rates for drivers of 1995 
through 1999 model-year vehicles. Their research was funded by the 
Energy Foundation, which includes the Pew Charitable Trusts, the 
MacArthur Foundation and the Rockefeller Foundation.
    At the request of The Times, Wenzel and Ross updated the analysis 
for model years 1997 to 2001.
    Although they did not dispute the numbers, other experts said they 
may not tell the whole story.
    In ``all the studies we have done . . .weight has a very 
substantial protective effect,'' said Priya Prasad, a senior technical 
fellow for safety at Ford Motor Co. ``Heavier is better, especially 
when you get into two-way accidents.''
    Wenzel and Ross acknowledged that driver-related factors could 
account for some differences in risks of various models. For example, 
if a certain vehicle attracts drivers who tend to wear seat belts, obey 
speed limits and get into fewer accidents, that car or truck could 
appear to be safer than it really is.
    But they said driver characteristics couldn't account for their 
most important finding--that light trucks' reputation for safety is 
overblown and that their combined risks are greater than those of most 
cars.
    Specifically, their data show that:

  <bullet> Despite giving up considerable size and weight, most mid-
        size and large cars are as good as or better than the average 
        SUV at protecting their own drivers, and much more protective 
        of their drivers than the average pickup.

  <bullet> Particularly dangerous to other motorists in two-vehicle 
        wrecks, SUVs have higher combined risks than mid-size and large 
        cars. Their combined risks are similar to those for compacts 
        and subcompacts.

  <bullet> The safest compacts and subcompacts--the Volkswagen Jetta, 
        the Mazda 626, the Subaru Legacy and the Nissan Altima--have 
        driver death rates as low as or lower than that of the average 
        SUV. Still, compacts and subcompacts have higher driver death 
        rates than SUVs overall. The reason: The most unsafe small cars 
        have extremely high driver fatality rates, two to three times 
        worse than the best cars in the group.

  <bullet> Minivans, and luxury import cars with their advanced safety 
        features, have lower driver death rates than all other vehicle 
        types. Minivans, like SUVs and pickups, are considered light 
        trucks but are not as top-heavy and therefore are less 
        susceptible to deadly rollovers. Along with design differences, 
        minivans often are used to transport children, perhaps leading 
        people to drive more conservatively.

  <bullet> Driver death rates for pickups are higher than for all other 
        vehicle types, except for sports cars. The risks are markedly 
        higher than for large and mid-size cars, minivans and SUVs; 
        somewhat higher than for compacts; and similar to those for 
        subcompact cars. Below-average use of seat belts by pickup 
        drivers may be a contributing factor.

  <bullet> Pickups also are more lethal to other drivers than are SUVs, 
        minivans or any class of cars. Their combined risk is about 
        twice that of large and mid-size cars and about 50 percent 
        higher than that of SUVs, compacts and subcompacts.

  <bullet> In all classes of cars, Japanese and European models did 
        better on average than their American counterparts, especially 
        in protecting their own drivers. This was particularly striking 
        among compacts and subcompacts. The six safest models (the 
        Jetta, the Altima, the Legacy, the 626, the Honda Civic and the 
        Toyota Corolla) bear Japanese or European nameplates. By 
        contrast, American cars (the Pontiac Sunfire, the Dodge Neon, 
        the Chevrolet Cavalier, the Pontiac Grand Am) had the highest 
        driver death rates in those categories.

    The Ross-Wenzel study has emerged at a time of growing concern 
about the social costs of SUVs, which have long been attacked as 
harmful to the environment and U.S. energy goals.
    Coining the slogan ``What would Jesus drive?'' a religious group 
calling itself the Evangelical Environmental Network launched an ad 
campaign seeking to shame drivers out of their SUVs. The Detroit 
Project, spearheaded by columnist Arianna Huffington, has run its own 
ads linking the gas-guzzling vehicles to the funding of terrorists.
    More recently, questions have been raised about the safety of SUVs. 
For instance, an article in the December issue of the Boston University 
Law Review brands SUVs as ``probably the most dangerous products (other 
than tobacco and alcohol) in widespread use in the United States.''
    No expert contends that, all other things being equal, heavier 
vehicles aren't safer for their passengers than are light ones.
    ``If you put the same technology and the same design concepts into 
the small vehicle and the large vehicle, the large vehicle is going to 
protect its occupants better,'' said Adrian Lund, chief operating 
officer for the Insurance Institute for Highway Safety.
    Still, Lund acknowledged, at some point that weight becomes a 
negative in the total equation--killing a larger number of other 
motorists than are saved in the heavier vehicles. According to Lund, 
this threshold is crossed at roughly 4,000 pounds, a little less than 
the weight of a Ford Explorer or other small to mid-size SUVs.
    With this idea in mind, Wenzel and Ross say, the goal should be to 
make the biggest models more compatible in size and weight with the 
rest of the fleet.
    Meanwhile, prompting great concern in the auto industry, the chief 
of the National Highway Traffic Safety Administration also has taken 
aim at SUVs, saying they pose unacceptable risks to their own 
passengers as well as to other drivers.
    Addressing a gathering of industry executives in Detroit last 
month, Jeffrey W. Runge said he had appointed a panel of NHTSA 
officials to consider new safety regulations for SUVs--though it's 
clear that it would take years for such rules to be adopted.
    Responding to Runge's blast, General Motors Corp. said that SUVs 
``have contributed to the dramatic decline in the nation's fatality 
rate over the last decade.''
    In fact, there have been modest declines in fatality rates--as 
measured by deaths per total vehicles and vehicle miles traveled. But 
the death toll has been stuck at about 42,000 a year--despite wider use 
of seat belts, stricter vehicle safety standards and better automotive 
designs.
    One reason for this, experts say, is that safety advances have been 
partly negated by a growing mismatch in size between light trucks and 
cars. When light trucks collide with cars, the high-riding vehicles can 
override bumpers and door sills and strike occupants in the chest or 
head.
    Faced with Runge's threat of new regulations, the Alliance of 
Automobile Manufacturers said last week in a joint letter with the 
Insurance Institute for Highway Safety that the organizations would 
work together to make SUVs safer.
    Some manufacturers already have begun taking steps to reduce the 
danger to cars posed by certain light-truck models.
    For example, Ford and GM have lowered bumper heights on some models 
to reduce the risk of override. And in response to safety and fuel 
efficiency concerns, manufacturers are increasingly pushing 
``crossover'' models--smaller, more car-like SUVs that inflict less 
damage in collisions.

    The Chairman. Next time bring bigger printed boards, 
please.
    [Laughter.]
    The Chairman. At my age, it is very difficult to----
    Ms. Claybrook. We do not have as much money as everyone 
else does, Senator.
    [Laughter.]
    Ms. Claybrook. But anyway, we will. We will do it bigger.
    The Chairman. Thank you.
    Ms. Claybrook. But I would also like to submit a public 
opinion poll conducted by Harris for the Advocates for Highway 
and Auto Safety that shows the public wants safer vehicles, and 
they want them safe on both counts, not only for themselves, 
but also for others on the highway.
    I would also like to just mention this wonderful book 
called ``High and Mighty.'' I do not know whether you have had 
a chance to----
    The Chairman. Yes, I have seen it.
    Ms. Claybrook.--look at it----
    The Chairman. Yes.
    Ms. Claybrook.--by Keith Bradsher, from the New York Times. 
Excellent book that really does lay out many of these issues.
    So SUVs can be made safer. We are not opposed to SUVs. We 
want to see the public have a wide variety of choices, as 
Senator Allen said. But the public does not have access to 
information when they go into the car dealership to determine 
whether or not their car is overly--that SUV is overly 
aggressive, whether it is prone to roll over. They can look on 
the NHTSA Web site, but most people do not know to do that. And 
so it is like a pig in the poke for the consumer in the 
marketplace. And people care deeply about safety, as the 
industry has finally admitted after many years of saying it was 
not true.
    The Chairman. Go ahead, Mr. Pittle.
    Mr. Pittle. Yeah, I hate to keep doing this, because you 
think I have just got one note to play, but I am just reading 
the latest issue of Consumer Report. And it is----
    [Laughter.]
    Mr. Pittle.--it is quite a fine magazine--I was supposed to 
try to sell this----
    The Chairman. You can go on the Web site to find out how 
you subscribe to it.
    Mr. Pittle. It is the April issue, and it really does not 
go on the newsstand until March the 10th, but you are going to 
see an advance copy. And I would like to submit it for the 
record, because in it we have--this is the 50th year of our 
testing cars, and there is a--they have a special article in it 
about which cars are safer. And we try to evaluate, in rated 
fashion, objectively, combining crash tests from both IHS and 
NHTSA, and also our own performance tests on braking and 
handling and all the other things we think contribute to how 
well you can avoid an accident. There are cars that literally 
do better in these tests than others. You cannot guarantee, 
because you do not know who is going to be driving and under 
what conditions, et cetera. But you can pick--you can start off 
with a safer vehicle.
    And on page 81, just for the record, for Senator Snowe, we 
calculate--I have to correct an earlier statement--the maximum 
load capacity for a vehicle is not available to the consumer. 
What they tell you is the gross vehicle weight, how much does 
the entire thing weigh when it is fully loaded. That is their 
design criteria. You would have to take it to some station and 
weigh it empty, and then you would know how much you can put in 
it.
    Well, we weigh them all empty. That is what we do. And then 
we list how much you can put in the vehicle in order to live 
within the designed recommendations of the manufacturer. So 
when you see a vehicle that says, as well tell you, the maximum 
load is 800, 900 pounds, by the time you put four or five 
people in it, you cannot put any luggage in it. And you look at 
this big cavernous back of the vehicle and you find yourself 
saying, ``Why can I not put stuff in there?'' Well, get the 
people out, put the stuff in, but you cannot have both.
    [Laughter.]
    Mr. Pittle. And we do stress over and over again not to put 
loads on the roof, because that does raise--and that is a 
vehicle that people think of as going on vacation, going on 
vacation and loading the top with their family stuff. That is a 
mistake. That raises the center of gravity and increases the 
risk.
    Ms. Claybrook. That would be a perfect example for a 
consumer information rule out of the National Highway Traffic 
Safety Administration, to have a label that is on every single 
vehicle that says how much cargo, including people, in weight 
you can put into this vehicle. And that is a very simple one. 
It is mathematical calculation. They could do it tomorrow.
    Senator I would like to just mention one thing. This issue 
of the driver responsibility? In terms of SUV drivers, the 
National Highway Traffic Safety Administration studies show 
that in rollover crashes, that SUV drivers are driving slower 
speeds, they are drinking less, and they are wearing their 
belts as much as car drivers. So I think that the emphasis on 
getting people to behave better is not going to solve our 
problem. Absolutely we favor that. We have fought for .08 and 
all the rest. But the vehicle itself needs to be redesigned.
    The Chairman. Go ahead.
    Mr. Pittle. One last thought. I did not put this in the 
speech, but for nine years I was a commissioner at the Consumer 
Product Safety Commission, from 1973 to 1982. And for my entire 
professional engineering life, for more than 30 years, I have 
spent either developing standards, assessing standards, editing 
standards, trying to change standards, and the difference 
between a mandatory standard and a voluntary standard is not so 
simple, and you have to assess the environment.
    If the industry, any industry, and I do not care which one 
it is, spends its time telling you there is not a problem, but 
if there is one they are going to work on it, you have to 
question what is the motivation and how hard are they going to 
push to get an adequate result?
    You know, there are a lot of--there are hundreds and 
hundreds of voluntary standards that have served this country 
well, both in the automotive industry, appliance industry, 
across the board. And they are not, per se, bad. They are good. 
But you have to look at each on a case-by-case basis.
    This is not a situation, from my experience, a long 
experience, that is conducive to getting the kind of change 
that is needed. What is needed is for NHTSA to take 
responsibility, set the pace, set the tone, get an answer.
    The Chairman. Thank you.
    Ms. Cischke and Mr. Lange and Mr. Tinto, before I ask 
specific questions, I know you would like to respond to some of 
the statements that have just been made, and we would be glad 
to hear from you, beginning with you, Ms. Cischke.
    Ms. Cischke. Yes. I would like to comment on the----
    The Chairman. By the way, in your remarks would you include 
your views on this labeling of how much cargo can be put into 
an SUV? Please go ahead.
    Ms. Cischke. Right. Well, I will start with the labeling. 
We would support giving consumers information regarding what 
loads they could carry in SUVs. It is true, it is very 
confusing and it is something that would be helpful to the 
consumers. And I think that is part of the TREAD Act. One of 
the requirements that NHTSA's looking on is SUV labeling for 
load reserve. And so that is something that we think would be a 
good addition.
    But I would like to talk about roof crush a bit, because I 
think there is some misunderstanding of how injuries really 
occur. Intuitively, you would think that injuries occur when 
the roof crushes in and hits the occupant. But the data does 
not show that. In fact, what it shows is in the first few 
milliseconds of the crash when the vehicle is rolling in a 
rollover accidents the occupant is actually striking the roof, 
and so the injury occurs as his head is basically contacting 
the ground with the roof being in the way, not the roof coming 
in on the occupant.
    And what is important to note on that is that if you look 
at systems where you want to cinch down the seatbelt, like the 
pretensioners, they are only going to be effective if occupants 
are wearing their safety belts. And we can make roofs stronger, 
but in the case where people are not wearing their safety belt, 
it probably will not be effective.
    And one of the things that Volvo has on the XC90 is a bore-
on roof, but it also has, in combination, pretensioners that 
will cinch down the belts. And Volvo felt confident in offering 
these combined safety systems, because they have such high 
seatbelt use in their vehicles. And we will be able to monitor 
the actual real-world safety performance as this vehicle become 
available on the road.
    But I just wanted to clarify, because there is a 
misunderstanding that roof crush itself is causing neck and 
possibly fatal injuries.
    The Chairman. Would you comment on the--before we move to 
Mr. Lange--the assurance that all interested parties would play 
a role in the development of voluntary standards?
    Ms. Cischke. I think voluntary standards have been very 
effective. It allows us to get implementation ahead of a rule 
that would require four years for NHTSA to be able to take 
action on. A good example of that is the side airbag voluntary 
standard that the industry worked on for occupant protection. 
We agreed on injury criteria for occupants that would give us a 
guideline in terms of what to do for side airbags, and it was 
very effective, and we were able to that very quickly. We have 
been working with NHTSA----
    The Chairman. My question was, how do you ensure that all 
interested parties----
    Ms. Cischke. Participate?
    The Chairman.--participate? Yes.
    Ms. Cischke. The meetings can be open to allow other 
participation. The very first meeting was a kickoff with the 
Insurance Institute and NHTSA to define possible research 
programs and what we could do to gather information. And it is 
certainly appropriate for others to participate in that, and we 
will be happy to have those meetings more open to allow other 
inputs.
    The Chairman. Mr. Lange?
    Mr. Lange. Yes, sir. Thank you, Senator McCain.
    Let me just begin by addressing the question that you, I 
think rightly, have focused on here, that is, is rollover more 
important, or is compatibility more important? I think it is 
important to understand that, in our view, the two issues are 
not mutually exclusive. They are both significantly important. 
And work is now ongoing, has been ongoing, and will continue on 
both areas of motor vehicle safety.
    There is a happy coincidence between the benefits that can 
be gained vis-a-vis compatibility by the installation of side 
curtain airbags and the benefits that can be gained vis-a-vis 
rollover with the application of rollover-sensitive side-impact 
airbags, as well, or side curtain airbags. We believe that it 
is important to move forward on all of those aspects.
    With respect to the question of the relative balance 
between the value of industry or voluntary standards as 
compared to government standards or regulations, I think that 
our country has managed that balance relatively well. There 
clearly is a role for government regulation to set just what 
Dr. Runge suggested, a base standard of performance for those 
areas that are extremely important to motor vehicle safety. We 
think that is incredibly important.
    But--and the caveat is an important one--we know that 
consumers demand from each manufacturer sitting here and from 
each manufacturer that sells products in the United States not 
represented here a far greater involvement in the safety 
mechanism than simply meeting government standards.
    The comment that one of the witnesses made here today, that 
it is the objective of the company to exceed government 
standards, applies to all of us everywhere. And you see that 
reflected in the nature of the safety contenting that all three 
manufacturers provide that are represented here today. Ford 
tries to beat GM, GM tries to beat Ford and Toyota, and so on. 
We each are working very, very hard to capture each and every 
incremental sale. Safety is important to consumers, and that is 
why we do what we do in addition to the fact that safety is 
important to us. The safety to our consumers is at the core of 
many, many decisions we make every single day by thousands of 
engineers.
    The Chairman. How do you ensure that outside parties are 
involved in the formulation of voluntary standards?
    Mr. Lange. As Ms. Cischke has already suggested, I would be 
pleased to take back a suggestion to the technical working 
group for the potential to expand participation. With respect 
to the side impact airbag work that was done, at the conclusion 
of that work, the industry held an open meeting to which Public 
Citizen and Center for Auto Safety had been invited. They chose 
not to attend.
    The Chairman. Well, maybe it is because they thought they 
were in on the landing and not on the takeoff.
    [Laughter.]
    Mr. Lange. Well, I think that is--they may have felt that, 
but I do not think that is an appropriate way to approach that 
particular kind of problem.
    The Chairman. Thank you, Mr. Lange.
    Mr. Tinto?
    Mr. Tinto. Thank you, Senator.
    I can speak to the voluntary standard question if you 
would. I would first note----
    The Chairman. And any other comments you have.
    Mr. Tinto. Okay, thank you.
    I would first note that Congress has encouraged Federal 
agencies to consider whether voluntary consensus standards are 
appropriate to meet Federal policy objectives before developing 
new regulations. At the risk of being repetitive, our own 
experience with the Voluntary Side Airbag Out-of-Position 
Working Group, as well as the Driver Distraction Guideline 
Working Group, was that--kind of proved that wisdom in that 
this policy was----
    The Chairman. Do you not think this is a much larger issue 
than those?
    Mr. Tinto. Pardon me?
    The Chairman. Do you not think this is a much larger issue 
than those?
    Mr. Tinto. Well, in the side airbag issue, the out-of-
position issue, we had a risk of injury to children which was, 
at the time, certainly one of the most important issues we were 
facing with the frontal airbags and the side airbags. So we 
felt that--I would think it would be on the same order of 
magnitude.
    We were able to get these standards out much faster than if 
we had gone through rulemaking. And in fact, I noted in my 
testimony that, speaking for Toyota, we were able to adopt all 
of those standards, across the board, with about a year and a 
half, two years for implementation. So with a rulemaking 
process and a phase-in process, you would have seen that come 
into the fleet a lot later.
    As Mr. Lange pointed out, this is an open process, in that 
we first get the experts together who understand the 
particulars about vehicle design and about technology and 
manufacturing. They put together a draft, and then that draft 
is circulated to outside interested parties for comment, 
including NHTSA, including IHS, including the NGOs. And we look 
and encourage their participation in that. And then we take 
that document, incorporate where appropriate, and come to a 
final draft document. NHTSA was very involved in that process. 
And when NHTSA has the document, obviously it is a public 
process.
    I would also point out that it is somewhat similar to 
NHTSA's process, in that NHTSA's folks get together, they think 
about what needs to be addressed, they put out a notice, we 
comment on that notice, and then NHTSA goes to its internal 
deliberations, which we are not privy to. And we are welcome to 
come in and explain what we know about the subject, but NHTSA 
does not share with us what they are working on, their internal 
deliberations, until a notice comes out. And at that point, we 
are free to comment, and they make changes to the draft.
    I guess, finally, I would say that I heard some comments 
about there is really no--we do not know if you are going to 
adopt these standards or not. I know in the voluntary side 
airbag work, NHTSA is looking to put that information into its 
``Buying a Safer Car'' brochure. And that is going to be added.
    And in addition, we have a bond with our customers. They 
buy our vehicles based on faith in our products, and I believe 
our reputation speaks for itself. So we would encourage this 
process and believe it is the fastest way to get safety 
improvements into the field.
    Mr. O'Neill. Mr. Chairman----
    The Chairman. Thank you, I would like the witnesses to make 
a final comment on what has been discussed.
    Mr. O'Neill, go ahead.
    Mr. O'Neill. Yes, I would just like to make a point on the 
voluntary standards or voluntary initiatives. The Insurance 
Institute for Highway Safety, my organization, played a key 
role in the working group that set the voluntary standards for 
out-of-position risks for side impact airbags. We anticipate 
playing a key role in the issues involving compatibility, and 
we do so recognizing that our credibility is at risk. We are 
not involved in these things to provide the manufacturers a fig 
leaf to hide behind. If we see that these initiatives are not 
moving forward at very rapid pace, we will not be part of it.
    The one big advantage of the voluntary approach, which does 
not preclude standards coming at some later time, is that it 
can be a much, much faster process than the rulemaking process. 
We can get, I believe, inflatable curtains and other head-
protection systems in cars and SUVs much faster through this 
voluntary initiative than we can get them in through 
rulemaking. That does not, however, mean that eventually we 
cannot have a rule that, in effect, mandates them. But our 
objective at the institute is to get these technologies and 
these improvements in vehicles as fast as possible. That is why 
we are putting our credibility on the line in involving 
ourselves in these activities.
    The Chairman. Thank you.
    Ms. Claybrook?
    Ms. Claybrook. Thank you, Mr. Chairman.
    I think that you said it well. When Dr. Martinez asked the 
industry to do the side curtain out-of-position occupant study, 
he asked that the consumer groups be included. We were not 
included. We were told we could not participate in the early 
part of this discussion, that we would be given a draft to 
review and that would be our role.
    And just recently there was a meeting, I believe, this past 
week, of this group, and one consumer group was represented and 
then told to leave at the end of a certain point in time so 
that the industry could go into its own discussions.
    The key issue that I would like to mention, though, is that 
this does not mean that side curtain airbags are being put in 
cars. In fact, I would like to submit for the record a news 
article from April 9, 2002, where General Motors included 
those, as well as other safety provisions that are not 
mandated, as part of their $1.5 billion savings plan that they 
were removing, because these are things that they were putting 
in voluntarily, and now there were going to remove them.
    I do not know the end result of all--whether they all were 
removed, but surely side impact air curtains are not mandated. 
What this voluntary group was doing was just designing a test 
for whether or not out-of-position occupants were going to be 
harmed.
    Voluntary standards have played an important role in our 
society, but most of the time they have been for very narrowly 
designed issues that require compatibility among industry, and 
there were no government bodies to do this. But where you have 
a major, huge issue like this and lives are being lost 
unnecessarily, I think that that is where there is a 
requirement for Federal standards.
    I would like also to mention, on the issue of roof crush, 
that if you look at--and there is a lawyer named Donald Slovik 
who has done this--at where people have head injury, and you 
look at the vehicle, it is where the roof crushed in. And so 
while I agree that when you have pretension belts, if belts are 
not being used, it is not going to do any good, the fact is 
that those people who do wear belts should be better protected. 
And hopefully more people will wear belts.
    I also believe that there is a inaccurate collection of 
data on who is wearing belts, because belts sometimes loosen up 
in the rollover, and then people are partially ejected, and 
police are the ones who report this. They see someone partially 
ejected, they may assume that someone did not have the belt on 
to begin with. So I think the numbers are very low. How could 
you have 78 percent use of belts on the highway and a very 
small percent, in the 30s, I guess, 30-some percent, in 
rollover crashes? People do not take their belts off if they 
are about to go into a rollover. So I believe that there is 
inadequacy in the data. But that does not also mean that we 
should not have a pretension to belts and a requirement for 
that.
    And then the last thing I would like to say is that I agree 
with Brian O'Neill that it is very useful to have the industry 
do some initial work in this area, but I believe that the 
independent decision-making process with the public 
participation of consumers and industry and researchers and 
people who are not included in the little enclave that met the 
other day--there are some fabulous engineers and researchers 
who are excluded from that and who do not have time to sit 
through endless meetings, but can participate in the government 
rulemaking process--that, I believe, should be the process that 
is followed for these critical safety features.
    Thank you.
    The Chairman. Thank you.
    Mr. Pittle?
    Mr. Pittle. Yes. But when you read back over this record, I 
predict that you will see various elements in which we are 
talking about how to approach this problem and trying to reduce 
the death rate by improving the seatbelt usage, which gets a 
checkmark certainly by us, by side curtain airbags, which would 
get--but you do not see any effort, any discussion, about how 
do we get these aggressive vehicles less aggressive.
    I want to go back to that playground analogy that somebody 
brought up. We are padding the victims. We are not trying to 
tame the bully.
    Now, I do not want to overstate this, but the fact is, as 
long--and we are not trying to say let us get the impact 
structures more to line up, let us get that down, let us get 
the aggressivity out of it. That is not the focus. So I am 
saying, and this is why I am sounding like a broken record, 
this does not feel to me like the place to rely on voluntary 
action.
    When people agree to do things because they want to do 
things, they are willing to do things, that is great. Well, how 
do you get people to make adjustments to meet a higher goal 
that they are unwilling, at present, to adjust? That is why I 
think you need--this is the time--this is the time that Dr. 
Runge should reach to his statute and pull out the authority 
you gave him and use it.
    The Chairman. Thank you.
    Ms. Cischke?
    Ms. Cischke. I would like to just conclude by saying that 
we believe that SUVs are very safe vehicles, and we are data 
driven, and the data does show that in all types of crashes, 
including self-protections, SUVs are very effective.
    We know our customers are savvy. They know what they want 
and they need. Consumer data helps them make the decision, and 
certainly what NHTSA does and NCAP testing and what the 
Insurance Institute does with their ratings help consumers make 
those choices and help pull demand for safety features, which 
we think is important.
    We have advanced the state-of-the-art when it comes to 
safety and technology for rollover protection and prevention, 
such as electronic stability control and side curtain bags, and 
also in compatibility where we have lowered front rails and 
added bumper beams. And we will continue to do things to 
improve rollover and compatibility issues, but we do want to 
remind consumers that they can dramatically improve their 
safety by wearing their safety belts, and that is the most 
important safety device in the vehicle.
    The Chairman. A device that you originally opposed.
    Ms. Cischke. Not me, personally.
    The Chairman. No, your industry originally opposed.
    Go ahead, Mr. Lange.
    Mr. Lange. Thank you, Senator McCain. I do not want to take 
up much of you time, so I will be very brief.
    With respect to GM's installation of side impact airbags, 
in the cost reduction efforts we have undertaken in the last 
several years, we have not removed side impact airbags from our 
fleet portfolio. And so far as I can tell, I believe GM is the 
first manufacturer that has engineered every one of our side 
impact airbags to be child safe according to the industry 
standard. We have tested every car and truck in which we 
install them, and they meet those standards.
    Secondly and importantly, with respect to the issue of 
compatibility, there are many technical reasons why the analogy 
that Mr. Pittle has used concerning a schoolyard bully is not 
apt. They are too numerous to go into here in the time that we 
have available, and I think also they are quite deep in terms 
of technical understanding.
    I want to go back, very briefly, to a point that Dr. Runge 
made, ``It is the car manufacturers that know how to build cars 
and trucks.'' And the notion that is, I think, outdated by at 
least decades that car manufacturers are not interested in the 
safety of everyone of our consumers is simply wrong.
    When I and the people who work for me and the people whom 
we deal with come to work every day, our objective is, what can 
I do today to make cars and trucks safer, not what can I do 
today to make them less safe?
    The Chairman. Thank you, Mr. Lange, and I certainly accept 
that and also understand how critical what you do is and the 
other witnesses. It is important to our economy as well as to 
the American way of life.
    Mr. Tinto?
    Mr. Tinto. I will be even more brief than Mr. Lange.
    I want to thank you, Mr. Chairman, for this opportunity 
here today. And I just want to assure you that our engineers 
work every day to innovate and improve our vehicles, the way 
they are designed, and how they are driven. We know that safety 
sells, and we are doing everything we can to make the best 
vehicle we possibly can, because we do know that our wives and 
children drive our vehicles.
    The Chairman. Thank you very much.
    I thank the witnesses. This hearing is adjourned. It has 
been very helpful. Thank you.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Three years ago Americans started buying more sport utility 
vehicles (SUVs) and light trucks than regular passenger cars--and the 
percentage has increased each year since. There are now 76 million SUVs 
and light trucks on the road, or about 35 percent of all registered 
vehicles in the United States.
    This change in the makeup of America's driving fleet demands that 
we look at the safety ramifications. Not only do these larger vehicles 
pose a risk to passengers in regular cars, the rollover risk to SUV 
occupants is too high. While rollover crashes in 2001 represented only 
3 percent of all auto collisions, they accounted for 32 percent of all 
passenger vehicle occupant deaths.
    Some automakers have taken the lead in building SUVs that are less 
prone to rollover and that better interact with other cars during a 
collision. But we are still waiting for the rest of the industry to 
match those safety improvements. If the entire industry does not take 
the initiative to build safer SUVs, then the public will rely on us to 
force the issue in order to protect America's families.
    Dr. Runge has been a strong, articulate voice in this debate. While 
Dr. Runge is likely giving some in the Administration a little heart 
burn, I applaud the courage he has shown in speaking out on this 
important safety issue.
    Automakers have the ability to produce safe and profitable SUVs. I 
look forward to hearing the ideas that will lead us toward that goal.
                                 ______
                                 
               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    The safety of SUVs is an important issue for the millions of 
American families that travel not only in these vehicles but on the 
road next to these vehicles each day. I commend our Chairman, Senator 
McCain, for holding today's hearing. I believe the cars and SUVs 
Americans drive must be as safe as we can possibly make them.
    We know that today there are 76 million SUVs and light trucks on 
the road. But what we don't fully comprehend are the safety 
implications of those vehicles.
    Recent crash data shows that passengers inside SUVs may be much 
more vulnerable to injury and death than conventional wisdom has held. 
As this Committee has heard from safety advocates, engineers and at 
least one automaker at previous hearings, being big does not 
necessarily make a vehicle safer. And now the National Highway Traffic 
Safety Administration is stepping forward to express its concern with 
data showing that SUVs are three times as likely as cars to kill their 
occupants in a rollover accident because of the height and the rigidity 
of their frames.
    At the same time, the height, weight and rigidity in SUVs appears 
to be contributing to the rising number and severity of injuries to 
passengers in cars hit by SUVs. According to the Insurance Institute 
for Highway Safety, during fatal front-to-side crashes between two 
cars, an occupant death is 7 times as likely to occur in the struck car 
as the striking car. But when the striking vehicle is a pickup truck or 
SUV, an occupant death is 26 times more likely to occur in the side-
struck car.
    So whether you are driving a passenger vehicle or an SUV, finding 
solutions to these safety concerns is imperative. I am encouraged by 
the ongoing dialog between the auto industry, the NHTSA and the 
insurance industry to develop safety standards for SUVs and light 
trucks to address these issues, but I remain highly skeptical that a 
voluntary program is going to get the job done.
    To that end, I appreciate the Chairman's commitment to investigate 
SUV safety, my guess is that this is not the last time we will discuss 
this matter. As members of the Commerce Committee, I believe we have an 
obligation to see that measures are taken both in the short-term and 
the long-term in order to provide the safer vehicles American families 
deserve.
                                 ______
                                 
              Prepared Statement of Hon. Maria Cantwell, 
                      U.S. Senator from Washington
    Thank you Mr. Chairman for holding this hearing today on Sport 
Utility Vehicle safety, and for allowing me to add my concerns to a 
debate that affects the health and safety of the millions of Americans 
traveling our streets and highways every day.
    Automobile safety has come quite a ways since the Model T was the 
car of choice. The chrome and steel of cars and trucks has been molded 
and shaped into new designs to make driving a more pleasurable and 
safer experience. Congress has traditionally taken a lead in ensuring 
the safety of the American public on the motoring highway, using data 
and research to drive our decisions.
    When tests showed that seat belts would increase passenger safety 
in a collision, we mandated seatbelts be standard equipment on all 
vehicles. When the benefits of airbags were demonstrated in a head-on 
collisions, we required airbags be used in vehicle design. When shown 
the data, we've mandated better designs for child safety seats and have 
upgraded tire standards, all in an effort to make driving safer. Today, 
we are presented with more data that demands we take another look at 
vehicle safety, this time as it relates to SUV's.
    One need only take a look down any American street to see how our 
nation's driving fleet has changed. SUV's now account for more than 
one-third of all registered vehicles in the United States and their 
popularity shows no signs of slowing. SUV's had previously been 
considered the preference for those who needed the cargo and towing 
capacity. However, the safe feeling that many drivers experience behind 
the wheel of an SUV that is bigger and sits higher has made them a 
must-have for families looking for a comfortable and stylish way to 
transport children, groceries and soccer balls.
    My home state of Washington illustrates the growth in the SUV 
market. One out of every seven passenger cars on the road in Washington 
is an SUV. In 1997, there was one SUV for every 15 Washingtonians; 
today, that figure is one for every eight people. Out of all fatal 
crashes that occurred in Washington state in 2000, 37 percent involved 
SUV's, light trucks and vans. The popularity of SUV's, particularly 
among families, makes SUV safety a primary concern for me.
    And, the data is telling us that SUV's are not any safer than 
traditional passenger cars. In fact, the risks may be greater because 
of the false sense of security the larger, heavier and higher off the 
ground SUV provides. Government and insurance industry studies show 
that SUV's are almost three times more likely to rollover than a 
regular passenger car. And, while rollovers make up only 3 percent of 
all collisions, they account for 32 percent of all passenger deaths. 
These statistics are not acceptable.
    With its higher bumpers and more rigid frame, SUV's also are 
contributing to the death and injury rate in car collisions. For the 
driver of a passenger car, colliding with an SUV is similar to hitting 
a brick wall--the car crumples and absorbs much of the shock of impact 
while the SUV's rigid frame provides little give. An insurance industry 
study found that in front-to-side crashes between two cars, an occupant 
of the struck car is seven times as likely to die as an occupant in the 
striking car. When the striking vehicle is an SUV or light truck, death 
in the passenger car is 26 times more likely. Again, these statistics 
are simply not acceptable.
    Some would have us believe that much of the blame for these 
increased risks rests with careless or inattentive drivers but the data 
does not bear that out. Injury and fatality statistics related to car 
crashes have held steady in recent years, despite an ever increasing 
number of cars on the road. If anything, that fact proves that safety 
efforts to increase seat belt use and improve drivers' skills are 
paying off. Seat belt use is up and drunk driving is down. Drivers are 
doing their part. Now it is time for the industry to do its part and 
improve the design of popular SUV's.
    In the past, mandates from Congress have drawn harsh criticism from 
the automobile industry. Job losses, manufacturing cutbacks and cuts to 
profits are all cited as reasons not to force SUV redesigns. Similar 
arguments were raised when Congress mandated seatbelts, air bags and 
greater fuel efficiency, and yet the industry continues to grow. While 
some SUV manufacturers are taking some initiative to address these 
safety issues, more aggressive design changes are needed to make SUV's 
safer, both for those who drive them and those who drive alongside 
them.
    First, NHTSA must continue to improve upon its rollover resistance 
rating to give consumers better information about the safety of SUV's. 
Several surveys show that consumers want this information and past 
experience has demonstrated that poor ratings are a stronger motivator 
for manufacturers to improve a design. Such a standard would also 
encourage manufacturers to utilize new technologies that give SUV 
driver's a helping hand in stabilizing the vehicle and avoiding a 
rollover.
    Second, NHTSA must continue its efforts to look at ways to mitigate 
the inequities between passenger cars and. SUV's. One approach would be 
the standard use of side and head airbags in passenger cars to protect 
occupants in case of a collision with a larger and heavier SUV. Similar 
airbag requirements of SUV's would lessen the risk of death in a 
rollover accident. The recent introduction of smaller-sized SUV's also 
provide a good model of how to give drivers the size, space and luxury 
of an SUV with fewer safety risks than come with a full-size SUV.
    Finally, information about safety risks must be easily available to 
consumers. Safety is cited as a top consideration when purchasing a new 
car, and individuals and families need the best information possible to 
select a vehicle that fits their lifestyle and protects them. This 
Committee and this Congress have a responsibility to make sure that 
American consumers have that information.
    I thank the Chairman and look forward to working with him and this 
Committee on legislation to achieve these important goals.
                                 ______
                                 
   Prepared Statement of the Association of International Automobile 
                          Manufacturers (AIAM)
    AIAM appreciates the opportunity to submit this statement with 
regard to the issue of the safety of sport utility vehicles (SUVs). 
AIAM members include American Honda Motor Co., American Suzuki Motor 
Corp., Aston Martin Lagonda of North America, Inc., Ferrari North 
America, Inc., Hyundai Motor America, Isuzu Motors America, Inc., Kia 
Motors America, Mitsubishi Motors North America, Inc., Nissan North 
America, Peugeot Motors of America, Saab Cars USA, Renault, SA, Subaru 
of America, and Toyota Motor Sales, U.S.A. AIAM also represents 
original equipment suppliers and other automotive-related trade 
associations. AIAM members have invested over $26 billion in production 
and distribution capacity in the United States, creating tens of 
thousands of highly-skilled, high-wage jobs across the country in 
manufacturing, supplier industries, ports, distribution centers, 
headquarters, R&D centers, and automobile dealerships. Our member 
companies produce a variety of SUV models and components for SUVs.
    SUVs have achieved broad public acceptance in the United States due 
to their flexible capabilities. They are used for a broad range of 
purposes, from serving as principal family vehicles to commercial use. 
Vehicles of this class typically provide high ground clearance and 
enhanced traction features such as four-wheel drive or all-wheel drive, 
which facilitate driving in bad weather, on unimproved roads, or in 
off-road environments. The vehicles have substantial cargo-carrying 
capacity, which is valued by purchasers of the vehicles in performing 
their daily tasks.
    The SUV class encompasses a broad range of vehicles, and we urge 
the Committee to resist considering the vehicles as a homogeneous set. 
SUVs originated as enclosed versions of pickup trucks, based on a 
common truck frame. However, many recently designed SUVs are of unibody 
construction, frequently sharing major structural elements with 
passenger car lines. These differences in construction are significant, 
and cause SUVs to have differing handling characteristics from each 
other and from passenger cars. The safety performance and features of 
vehicles in the class also vary. For these reasons, one should be 
cautious in ``painting'' these vehicles with a broad brush in 
describing their performance characteristics.
    Nevertheless, when the SUV category is considered as a whole, 
accident data demonstrates that SUVs are as safe as passenger cars. 
However, due in part to their size, different handling characteristics, 
and high ground clearance, SUVs as a class perform differently than 
passenger cars with respect to certain crash modes. In particular, SUVs 
tend to have a higher rollover rate, while performing better than 
passenger cars in other crash modes. In crashes involving SUVs and 
passenger cars, accident data shows that the passenger cars tend to 
sustain greater damage and their occupants greater injuries.
    The National Highway Traffic Safety Administration has undertaken a 
variety of initiatives to address the issues of vehicle rollover and 
crash compatibility. Under NHTSA's Consumer Information Regulations, 
the agency has required vehicle manufacturers to install a warning 
label on some SUVs to alert drivers to the different handling 
characteristics of these vehicles and urge drivers to avoid making 
sharp turns at high speed. The labels also point out the importance of 
wearing seat belts. Seat belt use is a critical factor in the level of 
injuries that are incurred in rollovers, and government and industry 
efforts to increase seat belt use rates are of great importance in 
improving occupant safety.
    The agency has implemented another consumer information program to 
provide data on the relative rollover propensity of vehicles. Data 
based on a static calculation involving the vehicle's center of gravity 
height and track width is now provided, and the agency is in the 
process of developing dynamic tests to provide data that reflects 
differences in handling, suspension features, and stability control 
technology that are not reflected in the static-based data. AIAM 
strongly supports the enhancement of the rollover consumer information 
program to include dynamic test data, and we have participated in the 
agency process for developing this data.
    NHTSA recently established an ``Integrated Project Team'' to 
consider a series of new initiatives to address the rollover concern. 
The recommendations of this Team are expected to be made public this 
spring, and may include recommendations for enhancements to several 
safety standards in the crashworthiness and crash avoidance areas as 
well as initiatives to promote improved highway design and safer driver 
behavior. AIAM intends to work cooperatively with the agency in 
considering these initiatives when they are made public, and we expect 
to offer our recommendations to the agency as well.
    In the vehicle compatibility area, the safety of SUVs must be 
viewed within the context of the entire vehicle fleet. Consideration 
should be given both to reducing the aggressiveness of vehicles when 
striking another vehicle and to improving the occupant protection of 
vehicles when being struck. NHTSA researchers are working to identify 
methods to enhance the safety of occupants of all vehicles in crashes. 
NHTSA has established an Integrated Project Team in this area, as well. 
Our member companies also have active programs to address this issue. 
AIAM members are investigating a variety of designs and features to 
enhance occupant protection for all vehicles. Several AIAM members are 
also participating in the recently announced joint program involving 
some vehicle manufacturers and the Insurance Institute for Highway 
Safety to develop counter-measures to address the crash compatibility 
concern. We urge the Committee to give these efforts a fair chance to 
produce results and believe they have the potential to achieve enhanced 
vehicle safety more quickly than could occur through a rulemaking 
process.
    AIAM supports the efforts of the government and the industry to 
improve safety in all crash modes. Therefore, we recognize the value in 
pursuing enhancements in vehicle stability characteristics and 
addressing the crash compatibility concern. As noted above, we intend 
to continue to work as an industry and in cooperation with the 
government and other organizations to achieve enhanced safety 
performance in these areas.

                                  <all>

</pre></body></html>
